No. A-____

IN THE

Supreme Court of the United States
TRADING TECHNOLOGIES INTERNATIONAL, INC.,
v.
IBG LLC, INTERACTIVE BROKERS, LLC,
UNITED STATES,

Petitioner,

Respondents,
Intervenor.

PETITIONER’S APPLICATION TO EXTEND TIME TO
FILE PETITION FOR A WRIT OF CERTIORARI
MICHAEL D. GANNON

Counsel of Record

BAKER & HOSTETLER LLP
ONE NORTH WACKER DRIVE
SUITE 4500
CHICAGO, ILLINOIS 60606
TEL.: (312) 416-6294
FAX: (312) 416-6201
EMAIL: mgannon@bakerlaw.com

Counsel for Applicant-Petitioner
Trading Technologies International,
Inc.

To the Honorable John G. Roberts, Jr., Chief Justice of the United States, as
Circuit Justice for the Federal Circuit:
Pursuant to this Court’s Rule 13.5, Petitioner Trading Technologies
International, Inc. (“TT”) respectfully requests an extension of 60 days, to and
including October 18, 2019, to file a Petition for a Writ of Certiorari in this matter.
The United States Court of Appeals for the Federal Circuit issued its judgment
affirming the decisions of the Patent Trial and Appeal Board on May 21, 2019 (App.
A). Absent an extension of time, the Petition would be due on August 19, 2019. TT is
filing this application more than 10 days before that date. This Court has jurisdiction
pursuant to 28 U.S.C. § 1254(1).
Background
TT owns U.S. Patent Nos. 7,685,055 (“the ’055 patent”), 7,693,768 (“the ’768
patent”), 7,818,247 (“the ’247 patent”), and 7,412,416 (“the ’416 patent”). Respondents
IBG LLC and Interactive Brokers LLC (collectively, “IB”) filed petitions requesting
Covered Business Method (“CBM”) Review of the ’055, ’768, and ’416 patents. Another
petitioner, TradeStation Technologies, Inc. (“TradeStation”) filed a petition requesting
CBM Review of the ’247 patent. The Patent Trial and Appeal Board (the “Board”)
instituted CBM Review for all four patents and issued Final Written Decisions
(“FWD”) invalidating all of the claims (App. B; App. C; App. D; App. E). TT appealed
all four decisions.
On October 26, 2017, the Federal Circuit docketed an appeal (18-1105) from the
Board’s FWD in CBM2016-00009, involving the ’055 patent. TT appealed the Board’s

erroneous conclusions that: (1) it had jurisdiction to institute CBM Review based on
its mistaken belief that the ’055 invention is not a technological invention, and (2) the
’055 invention is not patent-eligible under 35 U.S.C. § 101. TT also raised the issue of
whether the America Invents Act (“AIA”), through CBM Review, violates the U.S.
Constitution.
On December 18, 2017, the Federal Circuit docketed an appeal (18-1302) from
the Board’s FWD in CBM2016-00054, involving the ’768 patent. TT appealed the
Board’s erroneous conclusions that: (1) it had jurisdiction to institute CBM Review
based on its mistaken belief that the ’768 invention is not a technological invention, (2)
the ’768 invention is not patent-eligible under 35 U.S.C. § 101, and (3) the ’768
invention is obvious under 35 U.S.C. § 103. TT also raised the issue of whether the
AIA, though CBM Review, violates the U.S. Constitution.
On January 22, 2018, the Federal Circuit docketed an appeal (18-1438) from
the Board’s FWD in CBM2016-00087, involving the ’416 patent. TT appealed the
Board’s erroneous conclusions that: (1) it had jurisdiction to institute CBM Review
based on its mistaken belief that the ’416 invention is not a technological invention,
and (2) the ’416 invention is not patent-eligible under 35 U.S.C. § 101. TT also raised
the issue of whether the AIA, though CBM Review, violates the U.S. Constitution.
On January 22, 2018, the Federal Circuit docketed an appeal (18-1443) from
the Board’s FWD in CBM2016-00086, involving the ’247 patent. TT appealed the
Board’s erroneous conclusions that: (1) it had jurisdiction to institute CBM Review
based on its mistaken belief that the ’247 invention is not a technological invention,

2

and (2) the ’247 invention is not patent-eligible under 35 U.S.C. § 101. TT also raised
the issue of whether the AIA, though CBM Review, violates the U.S. Constitution.
On December 20, 2017, Appeal Nos. 18-1105 and 18-1302 were designated as
companion cases, to be assigned to the same merits panel. On January 31, 2018,
Appeal Nos. 18-1438 and 18-1443 were added to the companion-case group. On July
9, 2018, the United States filed a motion for leave to intervene in all four cases in
order to address TT’s constitutionality challenges, and on July 31, 2018, those motions
were granted. On October 11, 2018, TradeStation filed a motion to withdraw from
Appeal No. 18-1443, which the court granted on October 18, 2018. On November 19,
2018, the Director of the United States Patent and Trademark Office filed a notice of
intervention.
On May 21, 2019, the United States Court of Appeals for the Federal Circuit
issued its judgment affirming the Board’s decisions (App. A). It held that the patents
were invalid under 35 U.S.C. § 101. It declined to address TT’s constitutionality
challenges and failed to address CBM jurisdiction or the obviousness of the claims of
the ’768 patent under 35 U.S.C. § 103.
On July 31, 2019, TT filed a combined petition for panel rehearing and
rehearing en banc with respect to Appeal No. 18-1302. Accordingly, this Application is
with respect to Appeal Nos. 18-1105, 18-1438, and 18-1443.
Reasons for Granting the Extension
A 60-day extension is necessary and appropriate for several reasons:

3

1.

In addition to the four patents discussed above, nine of TT’s other

patents are the subject of appeals before the Federal Circuit between TT and IB.
Additionally, four of TT’s patents are currently being litigated in the Northern District
of Illinois. That matter is scheduled to go to trial on February 3, 2020. As TT is
involved in several other matters, an extension will enable TT to coordinate petition
filings across the other TT proceedings, and also account for counsel’s obligations in
other matters to other courts. TT does not seek any unnecessary delay from the
extension requested here, but only to insure fully developed and appropriate
arguments in these multiple pending appeals.
2.

The companion case discussed above, Appeal No. 18-1302, was a part of

the Federal Circuit’s opinion in this case (App. A). Because TT has filed a combined
petition for rehearing in that case, and extension would potentially allow for
resolution of TT’s rehearing petition in that companion case before TT’s petition for a
writ of certiorari would be due with respect to the other three companion cases.
3.

This case presents several extraordinarily important and complex issues

warranting a carefully prepared petition for a writ of certiorari. The issues described
above are fundamental to the operation the AIA and CBM Review proceedings. As
such, it is important that the issues be properly framed to best assist the Court in its
task of clarifying the law.
4.

On August 5, 2019, counsel for TT discussed extending the deadline for a

Petition in this matter by 60 days with counsel for IB and counsel for the United
States. Counsel for the United States indicated that it did not oppose an extension,

4

and accordingly, will not be prejudiced by an extension. Although counsel for IB
indicated that it does oppose this motion, it is TT’s position that IB also will not be
prejudiced by an extension. Under either the current or the extended filing date, the
Court would be able to hear TT’s appeal, were it to grant a writ of certiorari, in its
October 2019 term.
Conclusion
For the foregoing reasons, TT respectfully requests that the time to file a
Petition for a Writ of Certiorari be extended by 60 days, to and including October 18,
2019.

5

Respectfully submitted,
Date: August 7, 2019

__________________________
MICHAEL D. GANNON

Counsel of Record

BAKER & HOSTETLER LLP
ONE NORTH WACKER DRIVE
SUITE 4500
CHICAGO, ILLINOIS 60606
TEL.: (312) 416-6294

Counsel for Applicant-Petitioner
Trading Technologies, International, Inc.

6

CERTIFICATE OF SERVICE
Pursuant to Supreme Court Rule 29, I hereby certify that on August 7, 2019, I
caused a copy of the foregoing Petitioner’s Application To Extend Time To File
Petition For A Writ of Certiorari (1) to be served via first-class mail, postage prepaid,
on and (2) to be transmitted electronically to:
STERNE, KESSLER, GOLDSTEIN & FOX,
P.L.L.C.
ROBERT E. SOKOHL
JON WRIGHT
BYRON L. PICKARD
RICHARD M. BEMBEN
1100 NEW YORK AVENUE, NW
WASHINGTON, DC 20005
TEL.: (202) 772-8825

Counsel for Respondents
SPECIAL COUNSEL
WILLIAM LAMARCA
ASSOCIATE SOLICITOR
AMY J. NELSON
USPTO, OFFICE OF THE SOLICITOR
PO BOX 1450, MAIL STOP 8
ALEXANDRIA, VA 22313

Counsel for ANDREI IANCU, Director,
U.S. Patent and Trademark Office

ACTING SOLICITOR
JOSEPH MATAL
USPTO, OFFICE OF THE SOLICITOR
PO BOX 1450, MAIL STOP 8
ALEXANDRIA, VA 22313
TEL.: (571) 272-9035
DEPUTY SOLICITOR
THOMAS W. KRAUSE
USPTO, OFFICE OF THE SOLICITOR
PO BOX 1450, MAIL STOP 8
ALEXANDRIA, VA 22313
TEL.: (571) 272-9035
SENIOR COUNSEL FOR PATENT LAW AND
LITIGATION, USPTO
FARHEENA RASHEED
USPTO, OFFICE OF THE SOLICITOR
PO BOX 1450, MAIL STOP 8
ALEXANDRIA, VA 22313
TEL.: (571) 272-9035
ASSISTANT ATTORNEY GENERAL
JOSEPH H. HUNT
U.S. DOJ, PO BOX 146
BEN FRANKLIN STATION
WASHINGTON, DC 20044
APPELLATE STAFF CIVIL DIVISION
MARK R. FREEMAN
SCOTT R. MCINTOSH
KATHERINE TWOMEY ALLEN
U.S. DOJ, ROOM 7325
950 PENNSYLVANIA AVENUE NW

WASHINGTON, DC 20530
TEL.: (202) 514-5048

Counsel for the United States

Michael D. Gannon

2

APPENDICES
App. A

Slip Opinion, Trading Techs. Int’l Inc. v. IBG LLC, No. 18-1105, 18-1302,
18-1438, 18-1443 (Fed. Cir. May 21, 2019)

App. B

Final Written Decision, IBG LLC v. Trading Techs. Int’l Inc., CBM201600009 (P.T.A.B. Apr. 26, 2017) (’055 patent)

App. C

Final Written Decision, IBG LLC v. Trading Techs. Int’l Inc., CBM201600054 (P.T.A.B. Oct. 17, 2017) (’768 patent)

App. D

Final Written Decision, IBG LLC v. Trading Techs. Int’l Inc., CBM201600087 (P.T.A.B. Nov. 17, 2017) (’416 patent)

App. E

Final Written Decision, TradeStation Techs., Inc. v. Trading Techs. Int’l
Inc., CBM2016-00086 (P.T.A.B. Nov. 17, 2017) (’247 patent)

Appendix

Case: 18-1105

Document: 84

Page: 1

Filed: 05/21/2019

NOTE: This disposition is nonprecedential.

United States Court of Appeals
for the Federal Circuit
______________________

TRADING TECHNOLOGIES INTERNATIONAL,
INC.,
Appellant
v.
IBG LLC, INTERACTIVE BROKERS LLC,
Appellees
UNITED STATES,
Intervenor
______________________
2018-1105
______________________
Appeal from the United States Patent and Trademark
Office, Patent Trial and Appeal Board in No. CBM201600009.
-----------------------------------------------------------TRADING TECHNOLOGIES INTERNATIONAL,
INC.,
Appellant
v.
IBG LLC, INTERACTIVE BROKERS LLC,
Appellees

Case: 18-1105

2

Document: 84

Page: 2

Filed: 05/21/2019

TRADING TECHNOLOGIES INT'L v. IBG LLC

UNITED STATES,
Intervenor
______________________
2018-1302
______________________
Appeal from the United States Patent and Trademark
Office, Patent Trial and Appeal Board in No. CBM201600054.
-----------------------------------------------------------TRADING TECHNOLOGIES INTERNATIONAL,
INC.,
Appellant
v.
IBG LLC, INTERACTIVE BROKERS LLC,
Appellees
UNITED STATES,
Intervenor
______________________
2018-1438
______________________
Appeal from the United States Patent and Trademark
Office, Patent Trial and Appeal Board in No. CBM201600087.
-----------------------------------------------------------TRADING TECHNOLOGIES INTERNATIONAL,
INC.,

Case: 18-1105

Document: 84

Page: 3

TRADING TECHNOLOGIES INT'L v. IBG LLC

Filed: 05/21/2019

3

Appellant
v.
UNITED STATES, ANDREI IANCU, UNDER
SECRETARY OF COMMERCE FOR
INTELLECTUAL PROPERTY AND DIRECTOR OF
THE UNITED STATES PATENT AND TRADEMARK
OFFICE,
Intervenors
______________________
2018-1443
______________________
Appeal from the United States Patent and Trademark
Office, Patent Trial and Appeal Board in No. CBM201600086.
______________________
Decided: May 21, 2019
______________________
MICHAEL DAVID GANNON, Baker & Hostetler LLP,
Chicago, IL, argued for appellant. Also represented by LEIF
R. SIGMOND, JR., JENNIFER KURCZ; ALAINA J. LAKAWICZ,
Philadelphia, PA; STEVEN BORSAND, JAY QUENTIN
KNOBLOCH, Trading Technologies International, Inc., Chicago, IL.
BYRON LEROY PICKARD, Sterne Kessler Goldstein &
Fox, PLLC, Washington, DC, argued for appellees in 20181105, 2018-1302, 2018-1438. Also represented by ROBERT
EVAN SOKOHL, RICHARD M. BEMBEN, JON WRIGHT.
KATHERINE TWOMEY ALLEN, Appellate Staff, Civil Division, United States Department of Justice, Washington,
DC, argued for intervenor United States. Also represented

Case: 18-1105

4

Document: 84

Page: 4

Filed: 05/21/2019

TRADING TECHNOLOGIES INT'L v. IBG LLC

by MARK R. FREEMAN, SCOTT R. MCINTOSH, JOSEPH H.
HUNT; THOMAS W. KRAUSE, JOSEPH MATAL, FARHEENA
YASMEEN RASHEED, Office of the Solicitor, United States
Patent and Trademark Office, Alexandria, VA.
AMY J. NELSON, Office of the Solicitor, United States
Patent and Trademark Office, Alexandria, VA, argued for
intervenor Andrei Iancu in 2018-1443. Also represented by
THOMAS W. KRAUSE, JOSEPH MATAL, FARHEENA YASMEEN
RASHEED.
______________________
Before HUGHES, MAYER, and LINN, Circuit Judges.
HUGHES, Circuit Judge.
Trading Technologies International, Inc., appeals four
Covered Business Method Review decisions of the Patent
Trial and Appeal Board finding Trading Technologies’
patents ineligible under 35 U.S.C. § 101. Recently, this
Court issued two precedential opinions affirming Board
decisions finding several of Trading Technologies related
patents unpatentable under § 101. Trading Techs. Int’l,
Inc. v. IBG LLC, 921 F.3d 1084 (Fed. Cir. 2019) (IBG I);
Trading Techs. Int’l, Inc. v. IBG LLC, 921 F.3d 1378 (Fed.
Cir. 2019) (IBG II). The parties submitted supplemental
briefing on whether IBG I dictated the outcome of the
present appeals. The parties also discussed the effect of
IBG I and IBG II at oral argument.
We are not persuaded by Trading Technologies’
arguments that the patents at issue here, U.S. Patent Nos.
7,412,416 B2; 7,818,247 B2; 7,685,055 B2; and 7,693,768
B2, are distinguishable from the patents invalidated in
IBG I and IBG II. Like IBG I and IBG II, the challenged
patents “focus[] on improving the trader, not the
functioning of the computer.” IBG II, 921 F.3d at 1383; see
also IBG I, 921 F.3d at 1091. Although these patents may
provide different information than the patents in IBG I and

Case: 18-1105

Document: 84

Page: 5

TRADING TECHNOLOGIES INT'L v. IBG LLC

Filed: 05/21/2019

5

IBG II, information is “intangible” and its “particular
content . . . does not change its character as information.”
Elec. Power Grp., LLC v. Alstom S.A., 830 F.3d 1350, 1353
(Fed. Cir. 2016). We therefore hold that IBG I and IBG II
control and affirm the Board’s decisions.
We also find Trading Technologies waived its constitutional arguments. See IBG II, 921 F.3d at 1385.
AFFIRMED

Appendix

Trials@uspto.gov
571.272.7822

Paper No. 72
Entered: April 26, 2017

UNITED STATES PATENT AND TRADEMARK OFFICE
____________
BEFORE THE PATENT TRIAL AND APPEAL BOARD
____________
IBG LLC and INTERACTIVE BROKERS LLC,
Petitioner,
V.
TRADING TECHNOLOGIES INTERNATIONAL, INC.,
Patent Owner.
____________
Case CBM2016-00009
Patent No. 7,685,055 B2
____________

Before SALLY C. MEDLEY, MEREDITH C. PETRAVICK, and
JEREMY M. PLENZLER, Administrative Patent Judges.
PETRAVICK, Administrative Patent Judge.

FINAL WRITTEN DECISION
Covered Business Method Patent Review
35 U.S.C. § 328(a) and 37 C.F.R. § 42.73

CBM2016-00009
Patent 7,685,055 B2
I. INTRODUCTION
A. Background
IBG LLC and Interactive Brokers LLC1 (collectively, “Petitioner”)
filed a Petition (Paper 5, “Pet.”) on October 23, 2015 that requests review
under the transitional program for covered business method patents of U.S.
Patent No. 7,685,055 B2 (Ex. 1001, “the ’055 patent”). Petitioner
challenges the patentability of claims 1–19 (“the challenged claims”) of the
’055 patent under 35 U.S.C. §§ 101 and 103. On April 28, 2016, we
instituted a covered business method patent review on the following
grounds:
Ground Prior Art

Challenged Claims

§ 101

n/a

1–19

§ 103

TSE 2

1, 3, 4, 6–15 and 17–19

§ 103

TSE and Gutterman 3

2 and 5

§ 103

TSE and Belden4

16

Paper 20 (“Institution Decision” or “Inst. Dec.”).
Thereafter, Trading Technologies International, Inc. (“Patent Owner”)
filed a Patent Owner’s Response on July 21, 2016 (Paper 32, “PO. Resp.”)

1

This proceeding was terminated with respect to CQG, INC. and CQGT,
LLC and they are no longer petitioners in this proceeding. See Paper 16.
2
Tokyo Stock Exchange Operation System Division, FUTURES/OPTION
PURCHASING SYSTEM TRADING TERMINAL OPERATION GUIDE (1998) (Ex.
1008).
3
Gutterman et al., U.S. Patent No. 5,297,031 (issued Mar. 22, 1994) (Ex.
1006).
4
Belden et al., WO 90/11571 (published Oct. 4, 1990) (Ex. 1010).
2

CBM2016-00009
Patent 7,685,055 B2
and Petitioner filed a Reply (Paper 42, “Pet. Reply”) to Patent Owner’s
Response.
Patent Owner filed a Motion for Observations (Paper 52, “PO Mot.
for Observations”) and Petitioner filed a response (Paper 54) to Patent
Owner’s Motion for Observations.
Petitioner filed a Motion to Exclude (Paper 49, “Pet. Mot. to
Exclude”), and Patent Owner filed an Opposition (Paper 57) to Patent
Owner’s Motion. Petitioner filed a Reply (Paper 60) in support of its
Motion.
Patent Owner filed a Motion to Exclude (Paper 59, “PO Mot. to
Exclude”) and Petitioner filed an Opposition (Paper 55) to Patent Owner’s
Motion. Patent Owner filed a Reply (Paper 61) in support of its Motion.
We held a hearing of this case on January 6, 2017. Paper 70 (“Tr.”).
We have jurisdiction under 35 U.S.C. § 6. This Final Written
Decision is issued pursuant to 35 U.S.C. § 328(a) and 37 C.F.R. § 42.73.
For the reasons that follow, we determine that Petitioner has shown by a
preponderance of the evidence that claims 1–19 of the ’055 patent are patent
ineligible under 35 U.S.C. § 101.

B. Related Matters
The ’055 patent is the subject of numerous related U.S. district court
proceedings. Pet. 2–3; Paper 8, 2–8; Paper 17, 1.
The ’055 patent was the subject of a petition for covered business
method patent review in TD Ameritrade Holding Corp. v. Trading
Technologies International, Inc., CBM2014-00137 (PTAB). In CBM2014-

3

CBM2016-00009
Patent 7,685,055 B2
00137, covered business method patent review terminated prior to entry of a
final written decision, due to settlement between the parties.

C. The ’055 Patent
The ’055 patent is titled “System and Method for Automatic Repositioning of Market Information in a Graphical User Interface,” and issued
March 23, 2010, from Application No. 11/417,547 filed May 3, 2006. Ex.
1001, 1.
The ’055 patent discloses that many exchanges throughout the world
use electronic trading. Id. at 1:36–38. Exchange participants use specialized
interactive trading screens to monitor positions on the exchange. See Id. at
2:3–6. “The bids and asks in the market make up the market data and
everyone logged on to trade can receive this information if the exchange
provides it.” Id. at 2:27–28.
The ’055 patent discloses a graphical user interface (“GUI”)
displaying information related to a commodity and a method of
automatically re-positioning the information. Id. at Abstract. The ’055
patent’s Figure 16A is reproduced below.

4

CBM2016-00009
Patent 7,685,055 B2

Figure 16A depicts the GUI of the ’055 patent. The GUI includes a plurality
of columns, including a static price axis, which includes a plurality of price
values for the commodity, such as “102.60.” Id. at Fig. 16A; 7:67–8:18.
Columns 1608 and 1610 are aligned with the static price axis and
dynamically display buy (i.e., bid) quantities and sell (i.e., ask) quantities,
respectively, for the corresponding price values of the static price axis. Id. at
Fig. 16A; 26:10–11. Column 1602 displays the last traded price (“LTP”),
and the inside market (i.e., the highest buy price and lowest sell price at
which there is quantity currently in the market) is marked with inside market
indicator 1606, which is a solid line spanning columns 1608 and 1610. Id. at
Fig. 16A; 26:3–14.

5

CBM2016-00009
Patent 7,685,055 B2
The GUI can re-position a designated item of interest, such as the LTP
or inside market indicator, in the display. Id. at 26:4–45. For example, if
the LTP or inside market moves a designated number of cells away from the
top or bottom of the display screen, the display, including the static price
axis, is repositioned so that LTP or inside market is centered on the display.
See Id. Manual re-positioning can also be used in conjunction with
automatic re-positioning. Id. at 26:33–37.

D. Illustrative Claim
Claims 1 and 17 of the ’055 patent are independent. Claim 1 recites a
method, and claim 17 recites a corresponding computer readable medium.
Claim 1 of the ’055 patent is illustrative of the challenged claims and is
reproduced below.
1. A method for re-positioning a static price axis on a graphical
user interface for displaying market information of a
commodity being traded at an electronic exchange, the method
comprising:
receiving market information relating to a commodity
from an electronic exchange via a computing device, the market
information comprising an inside market with a current highest
bid price and a current lowest ask price for the commodity;
displaying a first plurality of price levels along a static
price axis on a graphical user interface of a display device
associated with the computing device, where the first plurality
of price levels range from a lowest value to a highest value
along the static price axis;
in response to an input command received via an input
device associated with the computing device, adjusting the first
plurality price levels among a range of price levels to an
adjusted plurality of price levels including the first plurality of
price levels;
6

CBM2016-00009
Patent 7,685,055 B2
displaying a bid and ask display region on the graphical
user interface, the bid and ask display region comprising a
plurality of locations corresponding to the first plurality of price
levels displayed along the static price axis, wherein each
location corresponds to one of the first plurality of price levels,
and wherein a number of the plurality of locations changes
according to adjusting the first plurality of price levels;
displaying a first indicator representing a quantity
associated with the current highest bid price at a first location in
the plurality of locations of the bid and ask display region,
wherein the first indicator ascends or descends the static price
axis as changes in the current highest bid price occur as a result
of each of the plurality of price levels along the static price axis
not changing positions on the graphical user interface unless a
reposition command is received;
displaying a second indicator representing a quantity
associated with the current lowest ask price at a second location
in the plurality of locations of the bid and ask display region,
wherein the second indicator ascends or descends the static
price axis as changes in the current lowest ask price occur as a
result of each of the plurality of price levels along the static
price axis not changing positions on the graphical user interface
unless the reposition command is received;
receiving the reposition command to reposition the static
price axis when a designated price is within a designated
number of price levels from the lowest value or the highest
value along the static price axis; and
responsive to receiving the reposition command,
automatically re-positioning the static price axis on the
graphical user interface such that a current inside market price
is displayed at a new desired location.

7

CBM2016-00009
Patent 7,685,055 B2
II. ANALYSIS
A. Claim Construction
In a covered business method patent review, the Board interprets
claim terms in an unexpired patent according to the broadest reasonable
construction in light of the specification of the patent in which they appear.
37 C.F.R. § 42.300(b); see Cuozzo Speed Techs. LLC v. Lee, 136 S. Ct.
2131, 2144–46 (2016) (upholding the use of the broadest reasonable
interpretation standard). Under that standard, and absent any special
definitions, we give claim terms their ordinary and customary meaning, as
they would be understood by one of ordinary skill in the art at the time of the
invention. In re Translogic Tech., Inc., 504 F.3d 1249, 1257 (Fed. Cir.
2007). Any special definitions for claim terms must be set forth with
reasonable clarity, deliberateness, and precision. In re Paulsen, 30 F.3d
1475, 1480 (Fed. Cir. 1994).

i. “static price axis”
Petitioner argues that the ’055 patent defines “static price axis” as “a
price column where prices ‘do not normally change positions unless a recentering command is received.”’ Pet. 16–17 (citing Ex. 1001, 8:16–18; Ex.
1003 ¶ 71).
Patent Owner proposes two “clarifications” to this definition. PO
Resp. 40–41. First, Patent Owner argues that “the construction requires that
the price levels do not change positions unless a re-centering or
repositioning command is received” to be consistent with the claim language
itself. Id. at 40. Second, Patent Owner argues that “the construction should
[not] be limited to a price column, but should refer to a reference line.” Id.

8

CBM2016-00009
Patent 7,685,055 B2
Additionally, Patent Owner argues that a price axis is “a reference line,
against which bids/ask[s] are plotted, that does not skip price levels” and that
“a price level is a location/area provided on the screen with which a price
may be (but is not required to be) displayed.” Id. at 41 (citing Ex. 2169 ¶¶
75–81).
Upon consideration of the parties’ arguments and evidence, we are
persuaded that the broadest reasonable construction, in light of the
specification of the ’055 patent, of “static price axis” is a price column or
reference line where prices do not normally change positions unless a recentering or re-positioning command is received. This is consistent with the
’055 patent, which states:
It is to be understood that, in this context, static does not mean
immovable, but rather means fixed in relation. For example,
with a static price scale, the scale itself may be movable, but the
prices represented remain fixed in relation to each other, subject
to consolidation or expansion.
Ex. 1001, 4:53–58. This also is consistent with the claim language, itself,
which includes steps of receiving a re-positioning command and, in
response, re-positions the static price axis. Ex. 1001, 34:60–67. We also are
persuaded that a “static price axis” includes a reference line along which
bids or asks are plotted. This is consistent with the ’055 patent disclosure of
the static price axis and the plain meaning of the term. See Id. at 7:67–8:16,
Ex. 2071, 4 (dictionary definition of “axis”).
We, however, are not persuaded that the broadest reasonable
interpretation requires a price axis that does not skip price levels and that
price levels are locations/areas provided on the screen with which a price
may be (but is not required to be) displayed. Patent Owner’s proposed

9

CBM2016-00009
Patent 7,685,055 B2
clarification is inconsistent with the ’055 patent. The ’055 patent discloses
that
[t]he representative prices for the given commodity are shown in
column 304 [(i.e., the price axis)], where the prices are static and
increment in “ticks,” where a tick is the minimum change in a
price value that is set by the exchange for each commodity. The
prices can be displayed as ticks, as multiples of ticks or in any
other fashion. . . . Other price display convention may
alternatively be used, as long as the requisite price information is
conveyed to the user.
Ex. 1001, 7:67–8:9; see also Id. at 7:43–50 (disclosing that the static prices
can be displayed in any matter and that just market depth levels or working
orders can be displayed). The ’055 patent also discloses displaying
indicators in only a portion of a cell because a price falls between prices in a
static price scale. See Id. at 13:58–67, 17:65–18:2, 18:47–51, 29:25–37.
We determine that the broadest reasonable interpretation in light of
the specification of the ’055 patent of static price axis is a price column or
reference line where prices do not normally change positions unless a recentering or re-positioning command is received.

ii. “computer readable medium”
Claims 17–19 are directed to “[a] computer readable medium having
computer-readable instructions thereon.” See Ex. 1001, 36:1–2. Petitioner
contends that, when given the broadest reasonable interpretation, the
“computer readable medium” of claims 17–19 encompasses transitory,
propagating signals. Pet. 33–34 (citing In re Nuijten, 500 F.3d 1346, 1357
(Fed. Cir. 2007)).

10

CBM2016-00009
Patent 7,685,055 B2
Patent Owner argues that it would be unreasonable to construe claims
17–19 as encompassing signals per se. PO Resp. 25–26. First, Patent
Owner argues that “the USPTO guidance relied upon” is directed to
examination, which is pre-issuance, and these proceedings are post-issuance.
Id. at 25. Patent Owner contends that “it would be unreasonable to adopt a
construction that would have made a patent invalid at the time of issuance.”
Id. Second, Patent Owner argues that intrinsic evidence in the prosecution
history show that the claims are directed to non-transitory media and that
this is consistent with the specification of the ’055 patent, which describes
the relevant field as being interface software run on an end-user computer or
terminal. Id. (citing Ex. 1002, 165, Ex. 1001, 2:1–6, 4:60–5:7).
Upon consideration of the parties’ arguments and evidence, we are
persuaded that the broadest reasonable construction, in light of the
specification of the ’055 patent, of computer readable medium encompasses
transitory, propagating signals. We are not persuaded by Patent Owner that
this construction is inconsistent with the specification of the ’055 patent.
We are not persuaded that, because the ’055 patent describes the software
running on an end-user computer or terminal, the computer readable medium
is limited to non-transitory media. As Petitioner points out, “[t]he
specification of the ’055 patent neither defines nor provides examples of a
computer-readable medium.” Pet. 33. It does not limit computer readable
medium to non-transitory media or preclude transitory propagating signals
per se. See Subject Matter Eligibility of Computer-Readable Media, 1351
Off. Gaz. Pat. Office 212 (Feb. 23, 2010) (“The broadest reasonable
interpretation of a claim drawn to a computer readable medium . . . typically

11

CBM2016-00009
Patent 7,685,055 B2
covers forms of non-transitory tangible medium and transitory propagating
signals per se . . . .”).
Patent Owner argues that “the USPTO guidance relied upon” is
directed to examination in a pre-issuance context and, thus, should not be
relied upon in a post-issuance context. PO Resp. 25. It is not clear from
Patent Owner’s argument to what USPTO guidance Patent Owner is
referring as Patent Owner provided no citation to any USPTO guidance. See
Id. In our Institution Decision, we cited Ex parte Mewherter, 107 USPQ2d
1857, 1859–63 (PTAB May 8, 2013) (precedential). Inst. Dec. 25, n.7. Ex
parte Mewherter refers to the guidance in Subject Matter Eligibility of
Computer-Readable Media. Ex parte Mewherter, 107 USPQ2d at 1859.
Inasmuch as Patent Owner’s argument is directed to Subject Matter
Eligibility of Computer-Readable Media, Patent Owner’s argument is
unpersuasive. Although the guidance provided in Subject Matter Eligibility
of Computer-Readable Media is not binding upon the Board, Patent Owner
provides no persuasive reason for the Board to depart from this guidance.
Like in a pre-issuance context, during covered business method patent
review, claims are given their broadest reasonable interpretation in light of
the specification. 37 C.F.R. § 42.300(b); see Cuozzo Speed Tech., 136 S. Ct.
at 2144–46.
Further, we are not persuaded by Patent Owner that intrinsic evidence
in the prosecution history shows that the claims are directed to nontransitory media. See PO Resp. 25. Patent Owner directs our attention to a
statement made by the examiner in the prosecution history of the ’055 patent
— “a computer readable medium (known in the computer art as a floppy
disk, cd-rom, hard drive, zip drive, jazz drive etc.).” Id. (quoting Ex. 1002,

12

CBM2016-00009
Patent 7,685,055 B2
165). Contrary to Patent Owner’s argument, this statement does not limit
computer readable medium to non-transitory media but allows for other
types of media.
We determine that the broadest reasonable interpretation of “computer
readable medium having computer-readable instructions thereon,” in light of
the specification of the ’055 patent, encompasses transitory, propagating
signals.
iii. Other Terms
We do not need to construe any other claim terms for purposes of our
decision. See, e.g., Wellman, Inc. v. Eastman Chem. Co., 642 F.3d 1355,
1361 (Fed. Cir. 2011) (“[C]laim terms need only be construed ‘to the extent
necessary to resolve the controversy.’”) (citation omitted).
B. Requirements for Covered Business Method Patent Review
Section 18 of the AIA 5 provides for the creation of a transitional
program for reviewing covered business method patents. Section 18 limits
review to persons or their privies who have been sued or charged with
infringement of a “covered business method patent,” which does not include
patents for “technological inventions.” AIA § 18(a)(1)(B), (d)(1); see
37 C.F.R. § 42.302.
In compliance with 37 C.F.R. § 42.302(a), Petitioner certifies that it
has been sued for infringement of the ’055 patent. Pet. 3; see Paper 8, 3.

5

Leahy-Smith America Invents Act, Pub. L. No. 112–29, 125 Stat. 284, 329
(2011) (“AIA”).
13

CBM2016-00009
Patent 7,685,055 B2

i. “Method or Corresponding Apparatus for Performing Data Processing
or Other Operations Used in the Practice, Administration or
Management of a Financial Product or Service”
The statute defines a “covered business method patent” as
[a] patent that claims a method or corresponding apparatus for
performing data processing or other operations used in the
practice, administration, or management of a financial product or
service.
AIA § 18(d)(1); see 37 C.F.R. § 42.301(a). A covered business method
patent can be broadly interpreted to encompass patents claiming activities
that are financial in nature. Transitional Program for Covered Business
Method Patents—Definitions of Covered Business Method Patent and
Technological Invention, 77 Fed. Reg. 48734, 48735 (Aug. 14, 2012); Blue
Calypso, LLC v. Groupon, Inc., 815 F.3d 1331, 1338–41 (Fed. Cir. 2016)
(determining that a patent was a covered business method patent because it
claimed activities that are financial in nature); Unwired Planet, LLC v.
Google, Inc., 841 F.3d 1376, n. 5 (Fed. Cir. 2016) (stating that “we endorsed
the ‘financial in nature’ portion of the standard as consistent with the
statutory definition of ‘covered business method patent’ in Blue Calypso”),
Versata Development Group, Inc. v. SAP America, Inc., 793 F.3d 1306,
1324–25 (Fed. Cir. 2015) (“[The statute] on its face covers a wide range of
finance-related activities.”).
A patent need have only one claim directed to a covered business
method to be eligible for review. 77 Fed. Reg. at 48,736 (Response to
Comment 8). We take claim 1 as representative.
Petitioner contends that the ’055 patent is a covered business method
patent because it claims a method or corresponding apparatus for performing
14

CBM2016-00009
Patent 7,685,055 B2
data processing or other operations used in the practice, administration, or
management of a financial product or service. Pet. 3–5. Petitioner argues
that claims 1 and 17 are directed to a method and corresponding apparatus
for displaying and re-positioning market data used for trading commodities,
which is a financial activity. Id. at 4–5. Petitioner additionally argues that
claim 16 claims a financial activity, because it recites sending a trade order
to an electronic exchange. Id. Petitioner further argues that the ’055 patent
discloses that it is directed to electronic trading, which is a financial activity.
Id. (citing Ex. 1001, 1:29).
Patent Owner disagrees. Patent Owner does not dispute that the
claims of the ’055 patent “include financial terms” but disputes that the
claims perform data processing or other operations, as required by the
statute. PO Resp. 26–28. First, Patent Owner argues that “data processing”
should be interpreted according to the definition of “data processing” found
in the glossary for class 705 of the United States Patent Classification
System, which is “[a] systematic operation on data in accordance with a set
of rules which results in a significant change in the data.” Id. at 26–27
(quoting Ex. 2121, 4). Patent Owner argues that the claims of the ’055
patent are not directed to data processing under this definition because the
claims are concerned with displaying information in a specific manner and
not concerned with processing the information that is displayed. PO Resp.
27. Patent Owner asserts that the claimed invention is not directed to a
business method. Id. at 27–28. According to Patent Owner, the legislative
history “makes clear that improvements to software tools or GUIs, even if
used for trading or other financial activities, were intended to be outside the
scope of CBM [review].” Id. at 34 (citing Ex. 2126, S5428, S5433 (157

15

CBM2016-00009
Patent 7,685,055 B2
Cong. Rec. S5428 (daily ed. Sept. 8, 2011) (statements of Sens. Schumer
and Durbin)).
As an initial matter, Patent Owner’s arguments concerning the
legislative history are not persuasive. Although the legislative history
includes certain statements that certain novel software tools and graphical
user interfaces that are used by the electronic trading industry worker are not
the target of § 18 of the AIA (see Ex. 2126, S5428, S5433) the language of
the AIA, as passed, does not include an exemption for user interfaces for
commodities from covered business method patent review. Indeed, “the
legislative debate concerning the scope of a CBM review includes
statements from more than a single senator. It includes inconsistent views . .
. .” Unwired Planet, 841 F.3d at 1381. For example, in contrast to the
statements cited by Patent Owner, the legislative history also indicates that
“selling and trading financial instruments and other securities” is intended to
be in the scope of covered business method patent review. See Ex. 2126,
S5432 (statements of Sen. Schumer). “[T]he legislative history cannot
supplant the statutory definition actually adopted. . . . The authoritative
statement of the Board’s authority to conduct a CBM review is the text of
the statute.” Unwired Planet, 841 F.3d at 1381. Each claimed invention has
to be evaluated individually to determine if it is eligible for a covered
business method patent review. A determination of whether a patent is
eligible for a covered business method patent review under the statute is
made on a case-by-case basis. 37 C.F.R. § 42.301(b).
Turning to the ’055 patent, we are persuaded by Petitioner that the
’055 patent is a covered business method patent. According to the
specification of the ’055 patent, “the present invention is directed to

16

CBM2016-00009
Patent 7,685,055 B2
electronic trading” (Id. at 1:28) and, in particular, to repositioning market
information in a GUI. (Id. at 3:3–5). The information relates to tradable
objects, which are financial products, such as stocks, options, bonds, futures,
currency, etc. Id. at 5:8–17. The ’055 patent discloses that the invention
involves processing the information for display — “[t]he trading application
. . . processes this information.” Ex. 1001, 6:26–30.
The disclosed invention is reflected in claim 1 of the ’055 patent,
which is directed to “[a] method for repositioning a static price axis on a
graphical user interface for displaying market information of a commodity
being traded at an electronic exchange.” Ex. 1001, 34:15–17. The claimed
method recites steps of displaying market information received from an
electronic exchange along a static price axis, adjusting the static price axis,
and repositioning the static price axis. Id. at 34:19–67.
Electronic trading is a financial service or activity. Tradable objects
are financial products. A method of computing and displaying financial
information for a tradable object on a graphical user interface for use in
electronic trading is a method for performing data processing or other
operations used in the practice, administration, or management of a financial
product or service. We, thus, are persuaded by Petitioner that the ’055
patent is a covered business method patent. See Pet. 4–5, Pet. Reply. 29–30.
Patent Owner argues that the statute requires that the “data
processing” cause a significant change in the data, and that data processing
that merely displays the data, like the data processing disclosed in the ’055
patent, is not significant. PO Resp. 26–27. Patent Owner’s argument is
based upon the assumption that “data processing” in the statute is interpreted
according to the definition of “data processing” found in the glossary for

17

CBM2016-00009
Patent 7,685,055 B2
class 705 of the United States Patent Classification System. See Id. Patent
Owner, however, does not sufficiently explain why this definition is
controlling, as opposed to the plain meaning of “data processing.” We, thus,
are not persuaded that “data processing” as recited by the statute precludes
data processing for the purpose of displaying the data. As pointed out
above, the ’055 patent, itself, discloses processing market information
received from an electronic exchange. Ex. 1001, 6:26–30. We, thus, are not
persuaded that the ’055 patent does not claim “performing data processing . .
. used in the practice, administration, or management of a financial product
or service” (AIA § 18(d)(1)).
In any event, the statute does not limit covered business method
patents to only those that claim methods for performing data processing used
in the practice, administration, or management of a financial product or
service. It includes methods for performing “other operations” used in the
practice, administration, or management of a financial product or service.
Claim 1’s method for repositioning a static price axis on a graphical user
interface for displaying market information of a commodity being traded at
an electronic exchange is an operation used in the practice, administration,
or management of a financial product or service.
We determine that Petitioner has shown by a preponderance of the
evidence that the ’055 patent is a covered business method patent.

18

CBM2016-00009
Patent 7,685,055 B2
ii. Technological Invention Exception
Even if a patent includes claims that would otherwise be eligible for
treatment as a covered business method, review of the patent is precluded if
the claims cover only “technological invention[s],” as defined by 37 C.F.R.
§42.301(b). The definition of “covered business method patent” in §
18(d)(1) of the AIA does not include patents for “technological inventions.”
To determine whether a patent is for a technological invention, we
consider “whether the claimed subject matter as a whole [1] recites a
technological feature that is novel and unobvious over the prior art; and [2]
solves a technical problem using a technical solution.” 37 C.F.R. §
42.301(b). The following claim drafting techniques, for example, typically
do not render a patent a “technological invention”:
(a) Mere recitation of known technologies, such as computer
hardware, communication or computer networks, software,
memory, computer-readable storage medium, scanners, display
devices or databases, or specialized machines, such as an ATM
or point of sale device.
(b) Reciting the use of known prior art technology to accomplish
a process or method, even if that process or method is novel and
non-obvious.
(c) Combining prior art structures to achieve the normal,
expected, or predictable result of that combination.
Office Patent Trial Practice Guide, 77 Fed. Reg. 48,756, 48,763–64.
Both prongs must be satisfied in order for the patent to be excluded as
a technological invention. See Versata, 793 F.3d at 1326–7.
Petitioner contends that the claims of the ’055 patent do not recite a
technological feature that is novel and unobvious over the prior art and do
not solve a technical problem using a technical solution. Pet. 6–12.
Petitioner argues that the claims are “implemented using conventional
19

CBM2016-00009
Patent 7,685,055 B2
computer hardware such as personal computers, servers, networks, displays,
and input devices and therefore do not include a technological feature or
implement a technological solution.” Id. at 6–7. Petitioner also argues that
the ’055 patent solves a business problem: “reading a display of prices for a
commodity and entering a trade order before the price for the commodity
changes.” Id. at 8–9 (citing Ex. 1001, 2:16–17, 35–67). Petitioner cites to
the Declaration of Kendyl A. Roman (Ex. 1003) and the Declaration of
David Rho (Ex. 1004) for support.
Patent Owner argues that “Petitioners fail to address whether the
claims recite a technical feature that is purportedly novel and unobvious”
and contends that the claimed combination of the adjusting and repositioning
feature with the static price axis and dynamic indicators is novel and
unobvious. PO Resp. 29, 31–32. Patent Owner, further, argues that the
claims solve a technical problem with a technical solution. Id. at 29–32.
According to Patent Owner, the claimed invention solves the problem of
indicators moving off the display as the market data changes. See Id. at 9.
Patent Owner contends:
Speed, efficiency, and usability problems were created for some
users because, if the indicators were located off, or close to off,
the displayed static price axis, the user would have to spend
time taking an action such as scrolling or manually
repositioning to find the state of the market, and the GUI tool
did not convey the state of the market precisely or efficiently
for these users.
Id. Patent Owner cites to the Declaration of Eric Gould-Bear (Ex. 2168) and
the Declaration of Dan R. Olsen, Jr. (Ex. 2174) for support.
Contrary to Patent Owner’s argument, Petitioner contends in the
Petition that the claims do not recite a technical feature that is novel and

20

CBM2016-00009
Patent 7,685,055 B2
unobvious. Pet. 6–8. Claim 1 recites a method that requires the display of
certain information in a certain arrangement on a GUI and allows for the
adjusting or re-positioning of the information on the display. Ex. 1001,
34:15–67. The first step of the method is to receive market information via a
computer for a tradeable object from an electronic exchange. Id. at 34:19–
23. The subsequent steps of the method relate to displaying and
positioning/repositioning the market information on a GUI. Id. at 34:24–67.
The ’055 patent discloses that it is known that electronic exchanges provide
market information to connected traders’ computers. See Id. at 2:27–28.
As Petitioner points out, the ’055 patent, itself, discloses that the
technical features of claim 1 were known. Pet. 6–8. The ’055 patent
discloses that its system can be implemented “on any existing or future
terminal or device.” Ex. 1001, 5:2–7, 39–43. Computers or terminals are
known to include displays. The ’055 patent discloses that the input device
can be a mouse, a known input device. Ex. 1001, 2:1–13, 5:24–27. The
’055 patent discloses “commercially available trading applications” that
provide electronic trading interfaces that display bid and ask quantities in
association with a static price scale. Id. at 5:66–6:7. The ’055 patent states
that “[t]he preferred embodiments, however, are not limited to any particular
product that performs the translation, storage and/or display functions.” Id.
at 5:66–6:7.
The trading application . . . processes this information and maps
it to positions in a theoretical grid program or any other
comparable mapping technique for mapping data to a screen.
The physical mapping of such information to a screen grid, for
display on a client device . . . , may be done by any technique
known to those skilled in the art. The present invention is not

21

CBM2016-00009
Patent 7,685,055 B2
limited by the method used to map the data to the screen
display.
Id. at 6:27–35.
Given the above, we determine that claim 1 does not recite a
technological feature that is novel and unobvious over the prior art. Because
both prongs must be satisfied for a patent to be excluded from covered
business method patent review for being a technological invention, we find
that the ’055 patent is eligible for a covered business method patent review
for at least the reason that claim 1 fails to recite a technological feature that
is novel and unobvious.
Notwithstanding our determination above, we also are persuaded by
Petitioner that the ’055 patent does not solve a technical problem with a
technical solution.
The ’055 patent discloses that exchanges are volatile and move
rapidly and that to profit a trader must react quickly. Ex. 1001, 2:14–16.
To profit in these markets, traders must be able to react quickly.
A skilled trader with the quickest software, the fastest
communications, and the most sophisticated analytics can
significantly improve the trader’s own or the trader’s firm’s
bottom line. The slightest speed advantage can generate
significant returns in a fast moving market. In today’s securities
markets, a trader lacking a technologically advanced interface is
at a severe competitive disadvantage.
Id. at 2:16–24. “The more time a trader takes entering an order, the more
likely the price on which the trader wanted to bid or offer will change or not
be available in the market” because “[t]he market is fluid as many traders are
sending order to the market simultaneously.” Id. at 2:39–43. “If a trader
intends to enter an order at a particular price, but misses the price because

22

CBM2016-00009
Patent 7,685,055 B2
the market prices moved before the trader could enter the order, the trader
may lose hundreds, thousands, even millions of dollars.” Id. at 2:49–53. “It
is therefore desirable for electronic trading systems to offer tools that can
assist a trader in adapting to an electronic marketplace, and help the trader to
make trades at desirable prices.” Id. at 2:64–67. “A trader may use
automatic positioning to always have a visual reference of where the market
is trading, increasing the likelihood of entering quantities and having those
quantities filled at desirable prices.” Id. at 26:30–34
As can be seen from the above, the problem disclosed in the ’055
patent is a trader having to read a display of prices for a commodity and
enter a trade order before the price for the commodity changes. As
Petitioner points out, this is a financial issue or a business problem, not a
technical problem. Pet. 8–10. If the market or exchange did not rapidly
change, then there would be no need for a trader to enter orders rapidly or
for a GUI to accomplish such. We, thus, determine that at least claim 1 of
the ’055 patent does not recite a technical solution to a technical problem, as
required by the second prong of the test to determine whether a patent is for
a technological invention.
As the ’055 patent is a covered business method patent and is not
precluded for being a technological invention, the ’055 patent is eligible for
covered business method patent review.

23

CBM2016-00009
Patent 7,685,055 B2
C. Patent Subject Matter Eligibility
Petitioner contends that claims 1–19 are unpatentable under 35 U.S.C.
§ 101 as being directed to ineligible subject matter. Pet. 18–34. Patent
Owner disagrees. PO Resp. 13–24.
Patent-eligible subject matter is defined in § 101 of the Patent Act,
which recites:
Whoever invents or discovers any new and useful process,
machine, manufacture, or composition of matter, or any new and
useful improvement thereof, may obtain a patent therefor, subject
to the conditions and requirements of this title.
There are, however, three judicially created exceptions to the broad
categories of patent-eligible subject matter in § 101: laws of nature, natural
phenomena, and abstract Ideas. Alice Corp. Pty. Ltd. v. CLS Bank Int’l, 134
S. Ct. 2347, 2354 (2014); Mayo Collaborative Servs. v. Prometheus Labs.,
Inc., 132 S. Ct. 1289, 1293 (2012). Although an abstract Idea, itself, is
patent-ineligible, an application of the abstract Idea may be patent-eligible.
Alice, 134 S. Ct. at 2355. Thus, we must consider “the elements of each
claim both individually and ‘as an ordered combination’ to determine
whether the additional elements ‘transform the nature of the claim’ into a
patent-eligible application.” Id. (citing Mayo, 132 S. Ct. at 1297–98). The
claim must contain elements or a combination of elements that are
“sufficient to ensure that the patent in practice amounts to significantly more
than a patent upon the [abstract Idea] itself.” Id. (citing Mayo, 132 S. Ct. at
1294).
Claims 1–16 recite a method, which falls into the process category of
patent-eligible subject matter of § 101. Claims 17–19 recite a computer
readable medium having computer-readable instructions thereon. When
24

CBM2016-00009
Patent 7,685,055 B2
given the broadest reasonable interpretation, in light of the specification of
the ’055 patent, claims 17–19 encompass subject matter that falls into the
manufacture category (e.g., non-transitory media), as well as subject matter
that falls outside the four statutory classes of subject matter (e.g.,
propagating transitory signals).

i. Subject Matter Outside the Four Statutory Categories
First, we turn to Petitioner’s contention that claims 17–19 are
unpatentable under 35 U.S.C. § 101 because they encompass subject matter
that falls outside the four statutory categories of patentable subject matter.
Pet. 33–34. Patent Owner disagrees. PO Resp. 25–26.
Claims 17–19 recite “[a] computer readable medium having
computer-readable instructions thereon.” Ex. 1001, 36:1–2. Above, we
determine that computer readable medium, when given the broadest
reasonable construction in light of the specification of the ’055 patent
encompasses transitory, propagating signals. Transitory, propagating signals
are not covered by the four statutory classes of subject matter of 35 U.S.C. §
101. In re Nuijten, 500 F.3d at 1352. Petitioner has shown sufficiently that
claims 17–19 are unpatentable under 35 U.S.C. § 101 as encompassing
subject matter that falls outside the four statutory categories of patentable
subject matter.

25

CBM2016-00009
Patent 7,685,055 B2
ii. Abstract Idea
Next, we turn to Petitioner’s contention that claims 1–19 are
unpatentable under 35 U.S.C. § 101 as being directed to an abstract Idea.
Pet. 18–33. We take independent claim 1 as representative.6
Petitioner argues that claim 1 encompasses the abstract Idea of
“repositioning market information on a GUI . . . and electronic trading”
which is a “fundamental economic practice long prevalent in our system of
commerce.” Pet. 18 (quoting Bilski v. Kappos, 130 S. Ct. 3218, 3231
(2010)). Petitioner further argues that providing a trader with financial
information to facilitate market trades is subject matter that “can be
performed in [the human] mind, or by a [human] using a pen and paper.” Id.
at 18 (citing CyberSource Corp. v. Retail Decisions, Inc., 654 F.2d 1366,
1372 (Fed. Cir. 2011)), 21–24.
“The ‘abstract Idea’ step of the inquiry calls upon us to look at the
‘focus of the claimed advance over the prior art’ to determine if the claim’s
‘character as a whole’ is directed to excluded subject matter.’” Affinity Labs
of Texas, LLC v. DirectTV, LLC, 838 F.3d 1253, 1257 (Fed. Cir. 2016)
(quoting Genetic Techs. Ltd. v. Merial LLC, 818 F.3d 1369, 1376 (Fed. Cir.
2016) and Elec. Power Grp., LLC v. Alstom S.A., 830 F.3d 1350, 1353 (Fed.
Cir. 2016); see also Enfish, LLC v. Microsoft Corp., 822 F.3d 1327, 1335
(Fed. Cir. 2016). There is no definitive rule to determine what constitutes an
“abstract Idea.” Rather, the Federal Circuit has explained that “both [it] and
6

Independent claim 17, the only other independent claim, corresponds to
claim 1 in that it recites a computer readable medium having computerreadable instructions thereon that causes a computer to execute a method
substantially the same as the method of claim 1. Thus, claim 1 is
representative of claim 17.
26

CBM2016-00009
Patent 7,685,055 B2
the Supreme Court have found it sufficient to compare claims at issue to
those claims already found to be directed to an abstract Idea in previous
cases.” Enfish, LLC v. Microsoft Corp., 822 F.3d 1327, 1334 (Fed. Cir.
2016); see also Amdocs (Israel) Ltd. v. Openet Telecom, Inc., 841 F.3d 1288,
1294 (Fed. Cir. 2016) (explaining that, in determining whether claims are
patent-eligible under § 101, “the decisional mechanism courts now apply is
to examine earlier cases in which a similar or parallel descriptive nature can
be seen—what prior cases were about, and which way they were decided”).
Notwithstanding Patent Owner’s arguments, which we address
below, we determine that Petitioner has shown 7 that claim 1 is directed to
the abstract Idea of repositioning market information on a GUI for electronic
trading, which is a fundamental economic practice.
Claim 1 recites in the preamble “a method for repositioning a static
price axis on a graphical user interface for displaying market information of
a commodity being traded at an electronic exchange.” Ex. 1001, 34:15–17.
The method steps include receiving current highest bid price and current
lowest ask price for a tradable object; displaying a first and adjusted static
price axis displaying market information in locations along the static price
axis; and automatically repositioning the static price axis when a designated
price is within designated price levels from the lowest value or highest value
of the static price axis. Id. at 34:19–67. We agree with Petitioner that claim
1 encompasses the abstract Idea of providing a trader with financial
7

As explained above, determining whether a claim is directed to an abstract
idea calls upon us to look at the focus of the claimed advance over the prior
art. In order to do so, we must make findings of fact as to the prior art at the
time of the invention. Those facts must be supported by a preponderance of
the evidence. 35 U.S.C. § 326(e).
27

CBM2016-00009
Patent 7,685,055 B2
information to facilitate market trades, a fundamental economic practice, and
steps that can be performed using pen and paper, or even in a trader’s mind.
See Pet. 27–30.
As can be seen from its steps, the focus of claim 1 is repositioning
market information displayed on a GUI for electronic trading. This focus is
consistent with the disclosure of the ’055 patent, which states that “[t]he
preferred embodiments relates to . . . automatic repositioning of market
information in a graphical user interface.” Ex. 1001, 3:3–5. The focus of
claim 1 is also consistent with the problem disclosed by the ’055 patent,
which is a trader missing an intended price because the market changed
during the time required for a trader to read the prices displayed and to enter
an order. Id. at 1:47–67.
Claim 1 does not recite any limitations that specify how the computer
implements the steps or functions for using a GUI. For example, claim 1
does not specify how the computer maps the bid quantities, ask quantities,
and prices to the display. The ’055 patent also does not disclose an
unconventional or improved method of mapping the bid quantities, ask
quantities, and price axis to the display. It states that “[t]he physical
mapping of such information to a screen grid for display . . . may be done by
any technique known to those skilled in the art” and that “[t]he present
invention is not limited by the method used to map the data to the screen.”
Id. at 6:31–35.
The ’055 patent discloses that many exchanges throughout the world
utilize electronic trading and discloses that it is known that electronic trading
includes analyzing displayed market information and updated market
information to send trade orders to an exchange. See Id. at 1:36–2:12.

28

CBM2016-00009
Patent 7,685,055 B2
Exhibit 1018 discloses that long before the ’055 patent, traders maintained
books that plotted bids and asks (e.g., the market depth) along a price axis.
See Ex. 1018, 44–46. Figure 4-2 of Exhibit 1018 is reproduced below.

Figure 4-2 depicts a page of a book of a trader. Id. at 44–45. Orders to buy
or sell a commodity are plotted along a price axis. For example, Figure 4-2
shows the best bid at 22¼ and the best ask at 22⅝. Id. at 44. Petitioner’s
declarant Mr. Román testifies that:
Claim 1 could be performed by a human using pen-and-paper
or a white board. The persons could be told the highest bid and
offer, which he or she could plot along a price axis. If the
person wanted to adjust the display as recited in claim 1, he or
she could do it by redrawing or merely adding additional price
levels to the top or bottom. . . . The person could replot with
updated data as it came in. If the data plotted off the existing
axis (i.e., came within a set number of prices from either end of
the axis), the person could reposition the axis by redrawing it.
Ex. 1003 ¶ 69.
29

CBM2016-00009
Patent 7,685,055 B2
Given this, we determine that repositioning market information
displayed for electronic trading is a fundamental economic and conventional
business practice. We are persuaded by Petitioner that the method of claim
1 could be performed in the human mind or with the aid of pen-and-paper
with little difficulty. See Pet. 21 (citing Ex. 1018, 44–46; Ex. 1005, Fig. 4;
Ex. 1003 ¶¶ 68–70).
The claims at issue here are like the claims at issue in Affinity Labs.
In Affinity Labs, the claim at issue recited an application that enabled a
cellular telephone to present a GUI displaying a list of media sources that
included selectable items for selecting a regional broadcasting channel.
Affinity Labs, 838 F.3d at 1255–56. The claim also recited that the cellular
telephone was enabled to transmit a request for the selected regional
broadcasting channel. Id. at 1256. The claims at issue here are also like the
claims at issue in Apple, Inc. v. Ameranth, Inc., 842 F.3d 1229 (Fed. Cir.
2016). In Ameranth, the claim at issue recited a GUI that displayed menu
items in a specific arrangement, a hierarchical tree format. Menu items were
selected to generate a second menu from a first menu. Ameranth 842 F.3d at
1234. In both Affinity Labs and Ameranth, the court determined that the
claims were not directed to a particular way of programming or designing
the software, but instead merely claim the resulting systems. The court thus
determined that the claims were not directed to a specific improvement in
the way computers operate. Affinity Labs, 838 F.3d at 1260–61; Ameranth,
842 F.3d at 1241. Here, the claims also recite the resulting GUI and are not
directed to specific improvements in the way the computers operate.
“Though lengthy and numerous, the claims [that] do not go beyond requiring
the collection, analysis, and display of available information in a particular

30

CBM2016-00009
Patent 7,685,055 B2
field, stating those functions in general terms, without limiting them to
technical means for performing the functions that are arguably an advance
over conventional computer and network technology” are patent ineligible.
Elec. Power Grp., 830 F.3d at 1351. “Generally, a claim that merely
describes an ‘effect or result dissociated from any method by which [it] is
accomplished’ is not directed to patent-eligible subject matter.” Ameranth,
842 F.3d at 1244 (quoting Internet Patents Corp. v. Active Network, Inc.,
790 F.3d 1343, 1348 (Fed. Cir. 2015)).
Claim 1 of the ’055 patent is unlike the claims at issue in DDR
Holdings, LLC v. Hotels.com, L.P., 773 F.3d 1245 (Fed. Cir. 2014) and
Enfish. In DDR Holdings, the court determined that the claims did not
embody a fundamental economic principle or a longstanding commercial
practice. The claims at issue in DDR Holdings were directed to retaining
website visitors, which the court determined was a problem “particular to the
Internet.” DDR Holdings, 773 F.3d at 1257. The court also determined that
the invention was “necessarily rooted in computer technology in order to
overcome a problem specifically arising in the realm of computer networks”
and that the claimed invention did not simply use computers to serve a
conventional business purpose. Id. In Enfish, the claim at issue was
directed to a data storage and retrieval system for a computer memory.
Enfish, 822 F.3d at 1336–37. The court determined that the claims were
directed to an improvement in the functioning of a computer and were not
simply adding conventional computer components to well-known business
practices. Id. at 1338. Here, in contrast, claim 1 is directed to a fundamental
economic principle or a longstanding commercial practice and not directed
to an improvement in the computer but simply to the use of the GUI in a

31

CBM2016-00009
Patent 7,685,055 B2
method of placing an order based on displayed market information, as well
as updating market information.
When we compare claim 1 at issue to those claims already found to be
directed to an abstract Idea in previous cases, we are persuaded that claim 1
is more similar to those claims found to encompass an abstract Idea than
those determined not to encompass an abstract Idea. Claim 1 is similar to
the claims in Electric Power, which did “not go beyond requiring the
collection, analysis, and display of available information in a particular field,
stating those functions in general terms, without limiting them to technical
means for performing the functions that are arguably an advance over
conventional computer and network technology.” Elec. Power Grp., LLC v.
Alstom S.A., 830 F.3d 1350, 1353 (Fed. Cir. 2016).
We have considered all of Patent Owner’s arguments regarding why
the claims are not directed to an abstract Idea but are not persuaded by such
arguments. PO Resp. 13–20. Patent Owner argues that Petitioner
oversimplifies the claims and ignores the structure and functionality recited
in the claims, which Patent Owner deems to be the functionality of the
claimed GUI itself. Id. at 13–14. We disagree that Petitioner has
oversimplified the claims and ignores the structure and functionality recited
in the claims.
Nor are we persuaded by Patent Owner’s arguments that the claimed
GUI improves the functioning of the computer to solve a problem rooted in
computer technology. PO Resp. 9–11, 14–17, 22–24. Patent Owner argues
that the claims solve a problem with prior GUIs that included a static price
axis and dynamic indicators, that the indicators could move off or close to
off the displayed static price axis, and the user would have to manually

32

CBM2016-00009
Patent 7,685,055 B2
adjust the price axis. Id. at 14–15. This problem, however, is not a problem
rooted in computer technology. As discussed above, Mr. Román’s
testimony and Exhibit 1018 indicate that indicators moving off or close to
off a static price axis occurs when plotting market data manually, which
causes the price axis to have to be adjusted or repositioned. See Ex. 1002 ¶¶
58–70; Ex. 1018, 44–46.
Patent Owner argues that the claims are not directed to an abstract
Idea because they are not directed to a fundamental Idea, longstanding
commercial practice, a business method, or a generic GUI. PO Resp. 16–20.
Patent Owner argues that in contrast to many other cited cases, the claims
here are directed to the specific structure, make-up, and functionality of a
particular GUI. Id. Patent Owner argues that the claimed GUI tool builds
on and is an improvement to trading screens like those in the ’132 patent
and, thus, the claims of the ’055 patent are even more clearly patent eligible.
Id. at 6–9;. The claims of the ’055 patent, however, do not build on and are
broader in some aspects than the claims of the ’132 patent. For example,
claim 1 of the ’055 patent does not recite the single action order feature
claimed by the ’132 patent. The ’132 patent was involved in Trading
Technologies International, Inc., v. CQG, INC., No. 2016-1616, 2017 WL
192716 (Fed. Cir. Jan. 18, 2017). In that case, the court indicated that even
those narrower claims are on the line between patent eligibility and
ineligibility (see Id. at *4 (noting the “close question[] of eligibility”)). The
specification of the ’055 patent is different, and the ’055 patent claims and
discloses features not discussed in the ’132 patent. Thus, comparing the
claims of the patents involved in Trading Technologies is not particularly
helpful here. Trading Technologies, 2017 WL 192716 at *2.

33

CBM2016-00009
Patent 7,685,055 B2
iii. Inventive Concept
Next we turn to “the elements of each claim both individually and ‘as
an ordered combination’ to determine whether the additional elements
‘transform the nature of the claim’ into a patent-eligible application.” Alice,
134 S. Ct. at 2355 (quoting Mayo, 132 S. Ct. at 1297–98).
Petitioner argues that the additional elements of the claims, both
individually and as an ordered combination, do not recite anything more
meaningful than the abstract Idea. Pet. 29–31. Petitioner further argues that
the claims are not rooted in computer technology because they do not
overcome a problem specifically arising in the realm of computers or
computer networks. Id. at 44–46.
Notwithstanding Patent Owner’s arguments, which we address below,
we are persuaded that Petitioner has shown that none of the additional claim
elements in claim 1 transforms the nature of the claims into a patent-eligible
application. Claim 1 of the ’055 patent recites “[a] method for repositioning a static price axis on a graphical user interface for displaying
market information.” Ex. 1001, 34:15–16. The method includes a step of
receiving information from an electronic exchange. Id. at 34:19–23. Claim
1 also recites the adjusting feature and the re-positioning feature. Id. at
34:24–33, 60–67. Claim 1 further recites the step of displaying a bid and
ask display region, which has locations that correspond to price levels along
a static price axis, on a GUI and displaying quantity indicators in the
locations. Id. at 34:34–59. The indicators move along the static price axis
as the market changes. Id.
The ’055 patent discloses receiving market information from an
exchange and displaying the information on a GUI is old and well-known,

34

CBM2016-00009
Patent 7,685,055 B2
routine and conventional activity. Id. at 1:34–2:34; see also Id. at 5:1–6,
5:38–42 (disclosing that any existing terminal device or network architecture
could be used). Receiving market data from an exchange is nothing more
than routine data gathering and does not transform the abstract Idea into a
patent-eligible invention. See CyberSource Corp. v. Retail Decisions, Inc.,
654 F.3d 1366, 1370 (Fed. Cir. 2011).
The ’055 patent discloses that the use of software to create specialized
interactive trading screens is known and the range of features varies
according to the software. Ex. 1001, 2:1–7. The ’055 patent also discloses
that the physical mapping of the information to the screen could be done by
any known technique and that the invention is not limited by the method
used to map the data to the screen. Id. at 6:26–35. The use of software or a
GUI to display market information is a well-understood, routine,
conventional activity that does not add significantly more to the abstract
Idea. Mayo, 132 S. Ct. at 1298. The use of a computer or GUI to display
information in a known arrangement (see Ex. 1018, 44–46) is nothing more
than a mere field of use limitation. “Most obviously, limiting the claims to
the particular technological environment . . . is, without more, insufficient to
transform them into patent-eligible applications of the abstract Idea at their
core.” Elec. Power Grp., 830 F.3d at 1354.
Given the above, we determine that the individual elements of claim 1
do not transform the nature of the claim into a patent-eligible application.
They do not add significantly more to the abstract Idea or fundamental
economic practice. Considering all of the elements as an ordered
combination, we determine, on this record, that the combined elements also
do not transform the nature of claim 1 into a patent-eligible application.

35

CBM2016-00009
Patent 7,685,055 B2
Patent Owner argues that the claims pass part two of Alice because
they recite an inventive concept. PO Resp. 19–24. Patent Owner argues that
the claims of the ’055 patent recite significantly more because the claims
allegedly specify a high level of detail, the claimed combination of GUI
features/functionality is not pre-solution or post-solution activity, and the
claimed functionality was not routine and conventional. Id. at 23–24. Patent
Owner does not explain sufficiently what about the claims qualifies as an
inventive concept and as discussed above the individual elements of the
claims do not transform the nature of the claims into a patent-eligible
application. They do not add significantly more to the abstract Idea or
fundamental economic practice. Contrary to Patent Owner’s argument, the
claims simply recite the use of a generic computer with routine and
conventional functions. Further, considering all of the elements as an
ordered combination, we determine that the combined elements also do not
transform the nature of the claims into a patent-eligible application.
We determine that Petitioner shows sufficiently that claims 1 and 17
are patent ineligible under 35 U.S.C. § 101.

iv. Dependent Claims
Petitioner contends that the additional elements recited by dependent
claims 2–16, 18, and 19 do not add significantly more to the abstract Idea so
as to render the claims patent-eligible. Pet. 32–33. On this record, we
determine that Petitioner sufficiently demonstrates that dependent claims 2–
16, 18, and 19 are patent ineligible under 35 U.S.C. § 101. Patent Owner
makes no arguments directed to the additional elements of the dependent
claims.

36

CBM2016-00009
Patent 7,685,055 B2

D. Grounds Under 35 U.S.C. § 103
Section 103 forbids issuance of a claim when
the differences between the subject matter sought to be patented
and the prior art are such that the subject matter as a whole
would have been obvious at the time the invention was made to
a person having ordinary skill in the art.
35 U.S.C. § 103. The ultimate determination of obviousness under § 103 is
a question of law based on underlying factual findings. In re Baxter Int’l,
Inc., 678 F.3d 1357, 1362 (Fed. Cir. 2012) (citing Graham v. John Deere
Co., 383 U.S. 1, 17–18 (1966)). These underlying factual considerations
consist of: (1) the “level of ordinary skill in the pertinent art,” (2) the “scope
and content of the prior art,” (3) the “differences between the prior art and
the claims at issue,” and (4) “secondary considerations” of non-obviousness
such as “commercial success, long-felt but unsolved needs, failure of others,
etc.” KSR Int’l Co. v. Teleflex Inc., 550 U.S. 398, 406 (2007) (quoting
Graham, 383 U.S. at 17–18).

i. Obviousness of Claims 1, 3, 4, 6–15 and 17–19 over TSE
Petitioner contends that claims 1, 3, 4, 6–15 and 17–19 are
unpatentable under 35 U.S.C. § 103 over TSE. Pet. 34–65.
Patent Owner disagrees for numerous reasons. PO Resp. 51–84. In
particular, Patent Owner contends that TSE is not prior art. Id. at 43–50. It
is not necessary for us to determine the prior art status of TSE. Regardless
of TSE’s prior art status, for the reasons discussed below, Petitioner fails to
show by a preponderance of the evidence that the claims of the ’055 patent
are unpatentable over TSE.

37

CBM2016-00009
Patent 7,685,055 B2
a. Overview of TSE
TSE is a guide for operating a trading terminal of the Tokyo Stock
Exchange. Ex. 1008, 1. The trading terminal displays a GUI for depicting
market information on a Board/Quotation Screen (see Id. at 107). The
Figure on page 107 of TSE is reproduced below.

Figure depicting the Board/Quotation Screen.
The Board/Quotation Screen includes a central order price at column
11. Id. at 111. To the left and right of order price column 11, are ask and
bid orders in respective columns 12, 13, and 14. Id.
The Board/Quotation Screen has a compressed mode and an
uncompressed mode. Reproduced below is a figure that appears on page 68
of TSE.
38

CBM2016-00009
Patent 7,685,055 B2

The figure depicts the Board/Quotation Screen in compressed and noncompressed mode. In non-compressed mode, all prices (i.e., the claimed
adjusted price levels) are displayed on the Board/Quotation Screen, and, in
compressed mode, only prices that satisfy certain conditions (i.e., the
claimed first plurality of price levels), such as having an order, are
displayed. Id. at 68. The Board/Quotation Screen can be moved between
the compressed mode and uncompressed mode by selecting a radio button
using a mouse. Id. at 69.
The Board/Quotation Screen also has a basic board screen mode and a
scrolling mode. Id. at 115. In basic board screen mode, the information is
updated so that a “Board Display Center Price” is always displayed in the
center. Id. TSE discloses that the centering occurs upon the occurrence of
different events, such as if the central price falls within the range of the top
or bottom three prices. Id. In scrolling mode, the central price’s position
does not change automatically (Id); however, TSE does disclose a “Home
Button” for returning the Board/Quotation Screen to the basic board screen
centered on the central price (Id. at 110, 116).

39

CBM2016-00009
Patent 7,685,055 B2
b. Independent Claims 1 and 17
Claim 1 recites the following limitations:
displaying a first plurality of price levels along a static
price axis on a graphical user interface of a display device
associated with the computing device, where the first plurality of
price levels range from a lowest value to a highest value along
the static price axis;
in response to an input command received via an input
device associated with the computing device, adjusting the first
plurality price levels among a range of price levels to an adjusted
plurality of price levels including the first plurality of price
levels;
displaying a bid and ask display region on the graphical
user interface, the bid and ask display region comprising a
plurality of locations corresponding to the first plurality of price
levels displayed along the static price axis, wherein each location
corresponds to one of the first plurality of price levels, and
wherein a number of the plurality of locations changes according
to adjusting the first plurality of price levels
Ex. 1001, 34:24–41. Claim 17 recites similar limitations. Id. at 36:11–25.
In the Petition, Petitioner asserts that TSE discloses these claim
limitations. Pet. 45–52. Petitioner equates price levels 002, 004, and 007
depicted on TSE’s compressed price display, reproduced above, to the
claimed first plurality of price levels and equates price levels 001, 002, 003,
004, 005, 006, and 007 depicted on TSE’s non-compressed price display to
the claimed adjusted plurality of price levels, also reproduced above. Id. at
47. Petitioner argues that TSE teaches the claimed adjustment by
transitioning from the compressed display to the non-compressed display.
Id. at 47.

40

CBM2016-00009
Patent 7,685,055 B2
Petitioner contends that the first plurality of price levels are displayed
along a static price axis when they are displayed along the price axis in the
non-compressed display, after the claimed adjustment has occurred. Id. at
45–46. Petitioner also contends that the non-compressed display has a bid
display region to the right of price axis 11 and an ask display region to the
left of price axis 11. Id. at 50–51.
With regards to the claimed “plurality of locations corresponding to
the first plurality of price levels displayed along the static price axis, wherein
each location corresponds to one of the first plurality of price levels” (Ex.
1001, 34:36–39), Petitioner states the following:
FIG. C of Mr. Roman’s Declaration (reproduced below) labels
three exemplary locations to highlight that each location
correspond to a different price level of the first plurality of price
levels displayed along the price axis. (Roman Decl., ¶ 103.)

When transitioning TSE’s Board Screen from a
compressed display to a non-compressed display (i.e., the
claimed “adjusting”), the “number of the plurality of locations
changes according to adjusting the first plurality of price levels.”
For example, as shown in the figure on 0068 of TSE, the number
of levels changes from three to seven when the “first plurality of
price levels” is adjusted to the “adjusted plurality of price
41

CBM2016-00009
Patent 7,685,055 B2
levels.” (TSE, p. 0068.) Thus, TSE discloses the “displaying a
bid and ask display region” step. (Roman Decl., ¶104.)
Pet. 51–52; see also Pet. Reply 15–23 (discussing price levels and
corresponding locations on TSE’s compressed display). As can be seen
from the above, Petitioner relies upon locations in the bid and ask region of
TSE’s compressed display to teach the claimed plurality of locations. Claim
1 requires that the plurality of locations correspond to the first plurality of
price levels displayed along the static price axis. Ex. 1001, 34:35–37. In
annotated Figure C, the first plurality of price levels are displayed along the
price axis of the compressed display.
Patent Owner disputes that the price axis of the compressed display is
static. PO Resp. 54–55, 59–60. In particular, Patent Owner argues that “in
the compressed mode, there is no ‘static price axis’” because “when new
orders are added at price levels that did not previously have any order (or
when the market changes to remove previous orders from a price), the price
levels change positions based on these market changes.” Id. (citing Ex.
2331, 34:17–37:5; Ex. 2169 ¶ 91).
Patent Owner’s argument is persuasive. TSE discloses that in
compressed mode, only prices that satisfy certain conditions, such as having
an order, are displayed. Id. at 68. For example, as can be seen in the figure
on page 68 of TSE, reproduced above, only prices 002, 004, and 007 are
displayed in the compressed display. During cross-examination, Petitioner’s
declarant Mr. Rho indicated that under certain circumstances the prices
would move relative to each other when TSE’s Board/Screen was in
compressed mode.

42

CBM2016-00009
Patent 7,685,055 B2
Q. Okay. All right. So in this compressed mode figure that we’ve
been looking at on page 12 of your declaration, there are prices
shown at 002, 004, and 007, correct?
A. There are prices at 002, 004 and 007. That is correct.
....
Q. Okay. Well, let’s assume 006 is added but the center price is
still 004. In that scenario, 006 would be added between 004 and
007, 007 would move up, and 004 would stay in the same place,
correct?
....
THE WITNESS: That seems correct, yes.
Ex. 2331 34:20–37:5.
Mr. Rho’s testimony indicates that the price axis of the compressed
screen is not a static price axis. The broadest reasonable interpretation in
light of the specification of the ’055 patent of static price axis is a price
column or reference line where prices do not normally change positions
unless a re-centering or re-positioning command is received. As Mr. Rho
testified, certain price levels of TSE’s compressed mode price axis change
positions relative to each other in certain circumstances when a re-centering
or re-positing command is not received. For example, on TSE’s compressed
display shown in the figure on page 68, reproduced above, price 007 would
move up relative to price 004 when an order at price 006 was added, but the
center price is still 004. We, thus, are persuaded by Patent Owner that
Petitioner has failed to establish that TSE discloses a bid and ask display
region comprising a plurality of locations corresponding to the first plurality
of price levels displayed along the static price axis, as required by claims 1
and 17.

43

CBM2016-00009
Patent 7,685,055 B2
Petitioner argues that TSE’s price axis in compressed mode is static
because TSE discloses the price levels do not change positions in
compressed, scrolling mode unless the user selects the home button to return
the price axis to a designated position and because TSE allows for one-half
the length of the price axis to be the designated number for causing the price
axis to reposition every time the designated price leaves the center. Pet. 49–
50, Pet. Reply 17–20. Petitioner’s argument is unpersuasive because it does
not address Mr. Rho’s testimony, reproduced above. Petitioner fails to
explain sufficiently why the price axis of TSE’s compressed mode is a static
price axis if price levels can change positions relative to each other under
certain circumstances when a re-centering or re-positing command is not
received.
In the Petitioner’s Reply, Petitioner contends that even if the Board
accepts Patent Owner’s arguments, transitioning TSE’s display from
boardx4 mode to boardx2 mode satisfies the disputed claim limitations. Pet.
Reply 20, 23–25. Petitioner’s Reply raises a new issue and exceeds the
proper scope of a reply. 8 Although the Petition discusses TSE’s boardx4
mode and boardx2 mode in its overview of TSE (Pet. 35–40) and in
connection with other claim limitations (Id. at 57), the Petition does not rely
upon transitioning TSE’s display from boardx4 mode to boardx2 mode to
satisfy the disputed limitations above (se Id. at 45–52). Petitioner proffers a

8

During trial, Patent Owner objected to Petitioner’s Reply as raising new
issues for the first time. See Paper 64, Ex. 3006. In response, we authorized
Patent Owner to file a listing identifying the portions of the Reply that
allegedly raise new arguments and authorized Petitioner to file a listing
identifying where the alleged new arguments were first raised in the record.
See Papers 44, 45. We have taken into consideration the listings.
44

CBM2016-00009
Patent 7,685,055 B2
second Declaration of David Rho to support its argument made in its Reply.
Like the Petition, the testimony of Mr. Rho in his second Declaration
discusses how transitioning TSE’s display from boardx4 mode to boardx2
mode satisfies the disputed claim limitations. Ex. 1035 ¶¶ 23–25. As
provided in 37 C.F.R. § 42.23(b), a “reply may only respond to arguments
raised in the corresponding opposition . . . or patent owner response.” One
indication that a new issue has been raised in a reply is where a petitioner
submits “new evidence necessary to make out a prima facie case” of
unpatentability of an original claim. Office Patent Trial Practice Guide, 77
Fed. Reg. 48,756, 48,767 (Aug. 14, 2012). An argument that raises a new
issue will not be considered. Id. We, thus, will not consider Petitioner’s
contention that transitioning TSE’s display from boardx4 mode to boardx2
mode satisfies the disputed claim limitations raised for the first time in
Petitioner’s Reply.
For the reasons given above, we determine that Petitioner fails to
show by a preponderance of the evidence that claims 1 and 17 of the ’055
patent are unpatentable under 35 U.S.C. § 103 over TSE.

c. Dependent Claims 3, 4, 6–15, 18, and 19
Claims 3, 4, 6–15, 18, and 19 depend from claims 1 and 17. For the
same reasons as discussed above with regards to the patentability of claims 1
and 17 over TSE, we determine the Petitioner fails to show by a
preponderance of the evidence that claims 3, 4, 6–15, 18, and 19 are
unpatentable over TSE.

45

CBM2016-00009
Patent 7,685,055 B2

ii. Obviousness of Dependent Claims 2 and 5 over TSE and Gutterman and
Obviousness of Dependent Claim 16 over TSE and Belden
Claims 2, 5, and 16 depend from claim 1. For the same reasons as
discussed above with regards to the patentability of claim 1 over TSE, we
determine the Petitioner fails to show by a preponderance of the evidence
that claims 2, 5, and 16 are unpatentable over TSE. Petitioner does not rely
upon Gutterman or Belden to cure the deficiency of TSE discussed above.
III. MOTIONS TO EXCLUDE
A. Patent Owner’s Motion to Exclude
Patent Owner moves to exclude Exhibits 1007, 1008, and 1011. PO
Mot. to Exclude 1–2. Exhibit 1007 is TSE, and Exhibit 1008 is the English
language translation of TSE. Petitioner relies on Exhibits 1007 and 1008 to
establish unpatentability of the challenged claims under 35 U.S.C. § 103.
Patent Owner objects to these documents for lack of authenticity and/or for
inadmissible hearsay. Id. We find it unnecessary to consider the specific
objection to the admissibility of Exhibits 1007 and 1008, because
Petitioner’s arguments regarding patentability are not persuasive for the
reasons provided above, even assuming Exhibits 1007, 1008, and 1011 to be
admissible.
Ex. 1011 is the transcript of Mr. Kawashima’s deposition concerning
the prior art status of TSE. Petitioner relies on Exhibit 1011 to establish the
prior art status of TSE. Patent Owner objects to this document for lack of
authenticity and/or for inadmissible hearsay. PO Mot. to Exclude 1–2. We
find it unnecessary to consider the specific objection to the admissibility of
Exhibit 1011, because it was not necessary for use to determine the prior art
46

CBM2016-00009
Patent 7,685,055 B2
status of TSE for the reasons provided above, even assuming Exhibits 1007,
1008, and 1011 to be admissible.
In addition, Patent Owner also moves to exclude portions of
Petitioner’s Reply, portions of a second Declaration of David Rho (Ex.
1035), and portions of the testimony of Dr. Olsen (Ex. 1038). Id. at 6.
Patent Owner objects to these documents as being outside the scope of reply
or direct questioning and/or unfairly prejudicial. PO Mot. to Exclude 6–12.
Petitioner relies on the objected to portions of the second Declaration of
David Rho and Petitioner’s Reply to support its arguments that transitioning
TSE’s display from boardx4 mode to boardx2 mode satisfies the disputed
claim limitations. Pet. Reply 20, 23–25. As explained above, we did not
consider the specific arguments and portions of Exhibit 1035. Patent
Owner’s argument, thus, is moot. Petitioner relies upon the objected to
testimony of Dr. Olsen to argue that TSE discloses a static price axis in
compressed, non-scrolling mode. Id. at 18. We find it unnecessary to
consider the specific objections to the admissibility of portions of Ex. 1038,
because Petitioner’s arguments concerning the unpatentability of the claims
over TSE are unpersuasive, even assuming the objected to portions of Ex.
1038 is admissible.
Accordingly, we dismiss Patent Owner’s Motion to Exclude as moot.

B. Petitioner’s Motion to Exclude
Petitioner moves to exclude Exhibits 2030, 2032, 2168, 2292–2296,
2334, and 2339 and to exclude ¶¶ 127–128 of Exhibit 2169 because the
“documents are irrelevant and/or constitute hearsay to which no exception
applies.” Pet. Mot. to Exclude 1.

47

CBM2016-00009
Patent 7,685,055 B2
Exhibits 2030 and 2032 are a jury verdict and docket entry,
respectively, associated with an earlier district court case involving Patent
Owner and a third party. Although Patent Owner relies on Exhibit 2030 in
its Response, we do not find where it relies on Exhibit 2032. In any event,
we understand Patent Owner to rely on at least Exhibit 2030 in support of its
arguments that TSE is not prior art. PO Resp. 48, n. 8. Petitioner moves to
exclude the exhibits as irrelevant and inadmissible. Pet. Mot. to Exclude 3–
4. We find it unnecessary to consider the specific objections to the
admissibility of Exhibits 2030 and 2032, because it was not necessary for us
to determine the prior art status of TSE for the reasons provided above.
Exhibit 2168 is a Declaration of Eric Gould-Bear. Patent Owner
relies upon the testimony of Mr. Gould-Bear to support its argument that the
’055 patent is not eligible for covered business method patent review and
that the ’055 is patent eligible. PO Resp. 24, 27, 29, 30, 32, 32. Petitioner
objects to Ex. 2168 for lack of relevance. Pet. Mot. to Exclude 4–5. We
find it unnecessary to consider the specific objection to the admissibility of
Ex. 2168, because Patent Owner’s arguments regarding the eligibility of the
’055 patent are not persuasive for the reasons provided above, even
assuming Exhibit 2168 to be admissible.
Exhibit 2169 is a Declaration of Christopher Thomas. Exhibits 2292–
2296 are transcripts from a related district court proceeding. Patent Owner’s
declarant Mr. Thomas relies upon Exhibits 2292–2296 to support his
testimony regarding the technical nature of the ’055 patent. See Ex. 2169 ¶¶
127–128. Petitioner objects to the Exhibits for lack of relevance and
impermissible hearsay. Pet. Mot. to Exclude 7–8. Petitioner objects to ¶¶
127–128 of Exhibit 2169 for containing impermissible hearsay and improper

48

CBM2016-00009
Patent 7,685,055 B2
expert testimony because Mr. Thomas relies upon Exhibits 2292–2296. Id.
at 5–6. We find it unnecessary to consider the specific objection to the
admissibility of ¶¶ 127–128 of Exhibit 2169 and Exhibits 2292–2296,
because Patent Owner’s arguments regarding the technical nature of the ’055
patent are not persuasive for the reasons provided above, even assuming ¶¶
127–128 of Exhibit 2169 and Exhibits 2292–2296 to be admissible.
Exhibits 2334 and 2339 are both a Declaration of Harold Abilock.
Patent Owner relies upon Exhibits 2334 and 2339 and argues that the
challenged claims are patentable over TSE. PO Resp. 61–63, 67–68, 78.
Petitioner objects to these declarations for lack of relevance. Pet. Mot. to
Exclude 8–9. We find it unnecessary to consider the specific objection to
the admissibility of Exhibits 2334 and 2339, because Petitioner’s arguments
regarding patentability are not persuasive for the reasons provided above,
even assuming Exhibits 2334 and 2339 to be admissible.
Accordingly, we dismiss Petitioner’s Motion to Exclude as moot.
IV. CONCLUSION
For the foregoing reasons, we determine that Petitioner shows, by a
preponderance of the evidence, that claims 1–19 of the ’055 patent are
patent-ineligible under 35 U.S.C. § 101. Petitioner fails to show, by a
preponderance of the evidence, that claims 1–19 of the ’055 patent are
unpatentable under 35 U.S.C. § 103.

49

CBM2016-00009
Patent 7,685,055 B2
V. ORDER
In consideration of the foregoing, it is hereby:
ORDERED that claims 1–19 of the ’055 patent are patent-ineligible
under 35 U.S.C. § 101;
FURTHER ORDERED that Patent Owner’s Motion to Exclude
Evidence is dismissed;
FURTHER ORDERED that Petitioner’s Motion to Exclude Evidence
is dismissed; and
FURTHER ORDERED that, because this is a Final Written Decision,
parties to the proceeding seeking judicial review of the decision must
comply with the notice and service requirements of 37 C.F.R. § 90.2

50

CBM2016-00009
Patent 7,685,055 B2
PETITIONER:
Robert E. Sokohl
Lori Gordon
Richard M. Bemben
Stern, Kessler, Goldstein & Fox P.L.L.C.
lgordon-ptab@skgf.com
rsokohl-ptab@skgf.com
rbemben-ptab@skgf.com
PTAB@skgf.com

PATENT OWNER:
Leif R. Sigmond
Cole B. Richter
Michael D. Gannon
Jennifer M. Kurcz
McDonnell, Boehen, Hulbert & Berghoff LLP
sigmond@mbhb.com
richter@mbhb.com
gannon@mbhb.com
kurcz@mbhb.com
Jay Q. Knobloch
Steven F. Borsand
Trading Technologies International, INC.
cbm@tradingtechnologies.com
tt-patent-cbm@tradingtechnologies.com

51

Appendix

Trials@uspto.gov
Tel: 571-272-7822

Paper 61
Entered: October 17, 2017

UNITED STATES PATENT AND TRADEMARK OFFICE
_______________
BEFORE THE PATENT TRIAL AND APPEAL BOARD
_______________
IBG LLC,
INTERACTIVE BROKERS LLC,
TRADESTATION GROUP, INC., and
TRADESTATION SECURITIES, INC.,
Petitioner,
v.
TRADING TECHNOLOGIES INTERNATIONAL, INC.,
Patent Owner.
_______________
Case CBM2016-00054
Patent 7,693,768 B2
_______________
Before SALLY C. MEDLEY, MEREDITH C. PETRAVICK, and
JEREMY M. PLENZLER, Administrative Patent Judges.
PETRAVICK, Administrative Patent Judge.

FINAL WRITTEN DECISION
Covered Business Method Patent Review
35 U.S.C. § 328(a) and 37 C.F.R. § 42.73

CBM2016-00054
Patent 7,693,768 B2
INTRODUCTION
A. Background
IBG LLC, Interactive Brokers, LLC, TradeStation Group, Inc., and
TradeStation Securities, Inc. (collectively, “Petitioner”), filed a Petition
requesting covered business method (“CBM”) patent review of claims 1–23
(the “challenged claims”) of U.S. Patent No. 7,693,768 B2 (Ex. 1001, “the
’768 patent”). Paper 4 (“Pet.”). Petitioner challenges the patentability of
claims (“the challenged claims”) of the ’768 patent under 35 U.S.C. § 101
and § 103.
On October 18, 2016, we instituted a CBM patent review on the
following grounds:
References

Basis

Claims Challenged

N/A

§ 101

1–23

TSE1 and Belden2

§ 103

1–13, 15, 16, 18, and 21–23

TSE, Belden, and Cooper3

§ 103

14, 17, 19, and 20

Paper 10 (“Institution Decision” or “Inst. Dec.”).
Thereafter, Trading Technologies International, Inc. (“Patent Owner”)
filed a Patent Owner’s Response on January 1, 2017 (Paper 21, “PO. Resp.”)
and Petitioner filed a Reply (Paper 40, “Pet. Reply”) to Patent Owner’s
Response.

1

Tokyo Stock Exchange Operation System Division, Futures/Option
Purchasing System Trading Terminal Operation Guide (1998) (Ex. 1016).
Citations to this reference refer to its English translation (Ex. 1017).
2
PCT Pub. No. WO 90/11571, pub. Oct. 4, 1990 (Ex. 1012, “Belden”).
3
Alan Cooper, About Face: The Essentials of User Interface Design (1995)
(Ex. 1022).
2

CBM2016-00054
Patent 7,693,768 B2
Patent Owner filed a Motion for Observations (Paper 52, “PO Mot.
for Observations”) and Petitioner filed a Response (Paper 54) to Patent
Owner’s Motion for Observations.
Petitioner filed a Motion to Exclude (Paper 44, “Pet. MTE”) and
Patent Owner filed an Opposition (Paper 52) to Patent Owner’s Motion.
Petitioner filed a Reply (Paper 53) in support of its Motion.
Patent Owner filed a Motion to Exclude (Paper 48, “PO MTE”) and
Petitioner filed an Opposition (Paper 50, “PO MTE Opp.”) to Patent
Owner’s Motion. Patent Owner filed a Reply (Paper 54, “PO MTE Reply”)
in support of its Motion.
An oral hearing was held on June 23, 2017. Paper 58 (“Tr.”).
We have jurisdiction under 35 U.S.C. § 6. This Final Written
Decision is issued pursuant to 35 U.S.C. § 328(a) and 37 C.F.R. § 42.73.
For the reasons that follow, we determine that Petitioner has shown by a
preponderance of the evidence that claims 1–23 of the ’768 patent are
unpatentable.

B. Related Proceedings
The parties indicate that the ’768 patent is the subject of numerous
related U.S. district court proceedings. Pet. 2; Paper 6, 1–5.
The application that issued as the ’768 patent ultimately claims, under
35 U.S.C. § 320, the benefit of application 09/590,692, that issued as the
’132 patent. The ’132 patent was the subject of Technologies International,
Inc., v. CQG, Inc., 675 Fed. Appx. 1001 (Fed. Cir. 2017) (“CQG”). The
Federal Circuit determined that the claims of the ’132 patent are patent
eligible under 35 U.S.C. § 101.
3

CBM2016-00054
Patent 7,693,768 B2
U.S. Patent No. 6,772,132 (“the ’132 patent”) was also the subject of
petitions for CBM patent review in TD Ameritrade Holding Corp. v.
Trading Technologies International, Inc., CBM2014-00135 (PTAB), CQG,
Inc. v. Trading Technologies International, Inc., CBM2015-00058 (PTAB),
and IBG LLC v. Trading Technologies International, Inc., CBM2015-00182
(PTAB). Trial was instituted, but later terminated due to settlement, for
CBM2014-00135. Institution was denied for CBM2015-00058. Institution
was granted for CBM2015-00182, and a final written decision issued on
February 28, 2017.
Numerous other patents are related to the ’768 patent and the related
patents are or were the subject of numerous petitions for CBM patent review
and reexamination proceedings. Pet. 2; Paper 6, 5–7; Paper 8, 1.

C. The ’768 Patent
The ’768 patent is titled “Click Based Trading with Intuitive Grid
Display of Market Depth” and issued on April 6, 2010. Ex. 1001, (45), (54).
The invention of the ’768 patent “is directed to the electronic trading of
commodities.” Id. at 1:16–17. The ’768 patent discloses a graphical user
interface (“GUI”), named the Mercury display, and a method of using the
Mercury display to displaying market information and placing trade orders
for a commodity on an electronic exchange. Id. at 1:17–22, 3:5.
Before turning to a discussion of the Mercury display, a discussion of
a conventional method of trading using a GUI is helpful. Figure 2 of the
’768 patent is reproduced below.

4

CBM2016-00054
Patent 7,693,768 B2

Figure 2 of the ’768 patent depicts a common GUI (“the Fig. 2 GUI”)
that displays market information and is used to place trade orders for a
commodity on an electronic exchange. Id. at 5:8–12, Fig. 2; see also PO
Resp. 6–7 (describing the Fig. 2 GUI as “widely used”); Ex. 1018 ¶ 21
(describing the Fig. 3 GUI as a common dynamic screen); Ex. 2169 ¶¶ 61–
62, 69 (describing the Fig. 2 GUI as “ubiquitous by the time of the
invention” and “prevalent”). As can be seen from the above, the Fig. 2
GUI’s screen has a grid having columns and rows. Row 1 shows the inside
market. Ex. 1001, 5:14–16. The inside market is the highest bid price and
the lowest ask price. Id. at 4:56–58. Rows 2–5 show the market depth,
which are other bids or asks in the market. Id. at 4:52–56, 5:16–20. The
market information updates dynamically as the market updates. Id. at 5:23–
25. The inside market, however, is always displayed in row 1, a fixed
location. Ex. 2169 ¶ 54.
Other prior art GUIs, similar to the Fig. 2 GUI, arrange the market
information in the grid differently. Patent Owner’s declarant Christopher
Thomas testifies that similar dynamic GUIs “displayed the locations for the
5

CBM2016-00054
Patent 7,693,768 B2
best bid and ask prices such that the prices were displayed vertically (e.g.,
with the location for the best ask price being displayed above the location for
the best bid price).” Ex. 2169 ¶ 60.
In the Fig. 2 GUI, “the user could place an order by clicking on a
location (e.g., a cell) in one of the price or quantity columns.” Ex. 2169
¶¶ 58–59. Patent Owner’s declarant Christopher Thomas testifies that
“[s]ome of such dynamic screens permitted single action order entry that
consisted of a trader pre-setting a default quantity and then click (e.g., using
a single-click or a double-click) on a dynamic screen to cause a trade order
to be sent to the exchange at the pre-set quantity.” Ex. 1008 ¶ 20; see Ex.
1031, 7.
Other types of conventional trading GUIs used order entry tickets to
send trade orders to an electronic exchange. Ex. 2169 ¶ 50. An order entry
ticket is “in the form of a window, with areas for a trader to fill out order
parameters for an order, such as the price, quantity, an identification of the
item being traded, buy or sell, etc.” Id.; see also Ex. 1001, 2:21–23, 34–36
(describing a trader manually entering trade order parameters).

6

CBM2016-00054
Patent 7,693,768 B2
Figure 3 of the ’768 patent is reproduced below.

Figure 3 of the ’768 patent illustrates an example of the Mercury display
with example values for trading a commodity including prices, bid and ask
quantities relative to price, and trade quantities. Ex. 1001, 3:41–42, 7:1–3.
The Mercury display is similar to the Fig. 2 GUI in that both display
market information in a grid having rows and column and both provide for
single action order entry. See id. at 6:59–64, 7:32–33, 4:8–18, 9:1–54, Fig.
6, steps 1306–1315. The Mercury display differs from the Fig. 2 GUI in the
arrangement of the market information in the grid. In the Mercury display,
price values for the commodity are displayed in a price column 1005 (i.e., a
price axis). Id. The ’768 patent explains that the price column does not
display whole prices but rather representative ticks. Id. at 7:33–36. The
7

CBM2016-00054
Patent 7,693,768 B2
values in the price column of the Mercury display “are static; that is, they do
not normally change positions unless a re-centering command is received.”
Id. at 7:42–44. Bid and ask quantities are displayed in columns 1003 and
1004, respectively, and are aligned with the corresponding price value in
price column 1005. See id. at 7:27–33. The bid quantities and ask quantities
move up and down as the market changes, and, thus, the location of the
inside market moves up and down. See id. at 8:33–43.
Although Figure 3 of the ’768 patent displays the market depth, the
’768 patent discloses that:
How far into the market depth the present invention can
display depends on how much of the market depth the exchange
provides. Some exchanges supply an infinite market depth,
while others provide no market depth or only a few orders away
from the inside market. The user of the present invention can
also cho[o]se how far into the market depth to display on his
screen.
Id. at 5:1–7. The ’768 patent, thus, indicates that in some instances the
screen will display only the inside market (i.e., the highest bid price and the
lowest ask price) and not the market depth.
The Mercury display may also display other information. Column
1002 contains various parameters and information used to execute trades,
such as the default quantity displayed in cell 1016. See id. at 7:65–8:32.
The number next to the W in cell 1007 indicates the trader’s orders that are
in the market and not yet filled. Id. at 7:53–58.

D. Illustrative Claim
Claims 1 and 23 are independent. Claim 1 is illustrative of the
claimed subject matter and is reproduced below:
8

CBM2016-00054
Patent 7,693,768 B2
1. A method of placing a trade order for a commodity on an
electronic exchange using a graphical user interface and a user
input device, said method comprising:
receiving data relating to the commodity from the
electronic exchange, the data comprising an inside market with a
highest bid price and a lowest ask price currently available for
the commodity;
dynamically displaying via a computing device a first
indicator in one of a plurality of areas in a bid display region,
each area in the bid display region corresponding to a price level
along a price axis, the first indicator representing a quantity
associated with at least one order to buy the commodity at the
highest bid price;
dynamically displaying via the computing device a second
indicator in one of a plurality of areas in an ask display region,
each area in the ask display region corresponding to a price level
along the price axis, the second indicator representing a quantity
associated with at least one order to sell the commodity at the
lowest ask price;
displaying an order entry region comprising a plurality of
locations for receiving single action commands to send trade
orders, the plurality of location including:
(a) at least one first fixed location corresponding to a first
price level along the price axis associated with the highest bid
price currently available in the market, wherein upon receipt of
new data representing an updated highest bid price currently
available for the commodity, the at least one first fixed location
continues to correspond to the first price level even if the first
price level is no longer associated with the highest bid price
currently available in the market; and
(b) at least one second fixed location corresponding to a
second price level along the price axis associated with the lowest
ask price currently available in the market, wherein upon receipt
of new data representing an updated lowest ask price currently
available for the commodity, the at least one second fixed
9

CBM2016-00054
Patent 7,693,768 B2
location continues to correspond to the second price level even if
the second price level is no longer associated with the lowest ask
price currently available in the market;
updating the display of the first indicator such that the first
indicator is moved relative to the price axis to a different area in
the bid display region corresponding with a different price level
along the price axis in response to receipt of new data
representing an updated highest bid price currently available for
the commodity;
updating the display of the second indicator such that the
second indicator is moved relative to the price axis to a different
area in the ask display region corresponding with a different price
level along the price axis in response to receipt of new data
representing an updated lowest ask price currently available for
the commodity; and
setting a plurality of parameters for a trade order relating
to the commodity and sending the trade order to the electronic
exchange in response to a selection of a particular location of the
order entry region by a single action of a user input device.
Ex. 1001, 11:46–12:36.
ANALYSIS
A. Claim Construction
In a covered business method patent review, claim terms are given
their broadest reasonable interpretation in light of the specification in which
they appear and the understanding of others skilled in the relevant art. See
37 C.F.R. § 42.300(b); Cuozzo Speed Techs., LLC v. Lee, 136 S. Ct. 2131,
2144–46 (2016) (upholding the use of the broadest reasonable interpretation
standard). Applying that standard, claim terms are presumed to have their
ordinary and customary meaning as would be understood by one of ordinary
10

CBM2016-00054
Patent 7,693,768 B2
skill in the art in the context of the patent’s specification. See In re
Translogic Tech., Inc., 504 F.3d 1249, 1257 (Fed. Cir. 2007).

1. “single action”
Claims 1 and 23 both recite “a selection of a particular location of the
order entry region by a single action of a user input device.” Ex. 1001,
12:34–36, 14:55–57.
Petitioner contends that “single action” should be construed to be “any
action by a user within a short period of time, whether comprising one or
more clicks of a mouse button or other input device” as defined in the
specification of the ’768 patent. Pet. 14 (quoting Ex. 1001, 4:14–18).
Patent Owner states that Petitioner’s proposed construction “is
sufficient for these proceedings so long as the construction is limited to ‘an
action by a user . . .’ or ‘one action by a user . . .’ because the claim itself
specifically identifies that the action be a ‘single’ action.” PO Resp. 10
(emphasis omitted). Patent Owner argues that any other construction would
not be reasonable because it would be contrary to the specification and the
plain and ordinary meaning. Id.
A patentee may rebut the presumption that claim terms have ordinary
and customary meaning by providing a definition of the term in the
specification with reasonable clarity, deliberateness, and precision. In re
Paulsen, 30 F.3d 1475, 1480 (Fed. Cir. 1994). As Petitioner points out, the
’768 patent provides such a definition. Pet. 14. The specification of the
’768 patent states:
the specification refers to a single click of a mouse as a means
for user input and interaction with the terminal display as an
example of a single action of the user. While thus describes a
11

CBM2016-00054
Patent 7,693,768 B2
preferred mode of interaction, the scope of the present invention
is not limited to the use of a mouse as the input device or to the
click of a mouse button as the user’s single action. Rather, any
action by a user within a short period of time, whether
comprising one or more clicks of a mouse button or other input
device, is considered a single action of the user for the purposes
of the present invention.
Ex. 1001, 4:8–18 (emphasis added). As can be seen from the above, the
’768 patent defines “single action,” with reasonable clarity, deliberateness,
and precision, as “any action by a user within a short period of time, whether
comprising one or more click of a mouse button or other input device.” Id.
We, thus, construe “single action” according to its definition in the ’768
patent. In re Paulsen, 30 F.3d at 1480.
Patent Owner’s proposed construction is inconsistent with the
definition in the ’768 patent. The definition explicitly states that more than
one click of a mouse button by a user is considered a “single action” for the
purposes of the present invention. Ex. 1001, 4:8–18. Further, dependent
claim 9 similarly shows that “single action” should not be limited to one
action by a user, as it recites that the “single action . . . consists of a double
click of the user input device” (Ex. 1001, 12:66–13:8).
For the reasons given above, we construe “single action” to mean
“any action by a user within a short period of time, whether comprising one
or more clicks of a mouse button or other input device” (Ex. 1001, 4:14–18).

2. Entered Order Indicator
Claim 6 recites “an entered order indicator” and “the entered order
indicator represents an order pending at the electronic exchange.” Ex. 1001,
12:56–60. Patent Owner argues that “[a person of ordinary skill in the art]
12

CBM2016-00054
Patent 7,693,768 B2
would readily recognize that the entered order indicator must indicate to the
user that the user has an order at a particular price level along the price axis”
because the specification of the ’768 patent discloses “‘an entered/working’
column (E/W) that ‘displays the current status of the trader’s order.’” PO
Resp. 13 (citing Ex. 1001, 7:50–58, Figs. 3–4; Ex. 2169 ¶ 30).
As Petitioner points out, Patent Owner’s argument is inconsistent with
the plain language of claim 6, which explicitly states that an “entered order
indicator represents an order pending at the electronic exchange.” Pet.
Reply 2. The plain language does not require the entered order indicator to
indicate to the user that the user has an order at a particular price level along
the price axis. Patent Owner’s construction is an attempt to read a limitation
from the specification of the ’768 patent into the claims. If a feature is not
necessary to give meaning to what the inventor means by a claim term, it
would be “extraneous” and should not be read into the claim. Renishaw
PLC v. Marposs Societa’ Per Azioni, 158 F.3d 1243, 1249; E.I. du Pont de
Nemours & Co. v. Phillips Petroleum Co., 849 F.2d 1430, 1433
(Fed.Cir.1988).
The plain language of claim 6 state that an “entered order indicator
represents an order pending at the electronic exchange.” No further
construction is required.

3. Other Terms
Patent Owner proposes explicit constructions for other claim terms.
See PO Resp. 1–4. We do not need to explicitly construe these other claim
terms in order to resolve the issues before us. Vivid Techs., Inc. v. Am. Sci.
& Eng’g, Inc., 200 F.3d 795, 803 (Fed.Cir.1999) (Only terms which are in
13

CBM2016-00054
Patent 7,693,768 B2
controversy need to be construed, and then only to the extent necessary to
resolve the controversy.)

B. Covered Business Method Patent
1. Standing
Section 18 of the AIA4 provides for the creation of a transitional
program for reviewing covered business method patents. Section 18 limits
review to persons or their privies who have been sued or charged with
infringement of a “covered business method patent,” which does not include
patents for “technological inventions.” AIA § 18(a)(1)(B), (d)(1); see
37 C.F.R. § 42.302. Petitioner certifies that it was sued for infringement of
the ’768 patent. Pet. 3 (citing Exs. 1003, 1004). Patent Owner does not
dispute this. See generally PO Resp.

2. Whether the ’768 Patent is a CBM Patent
Under § 18(a)(1)(E) of the AIA, we may institute a transitional review
proceeding only for a CBM patent. A CBM patent is a patent that “claims a
method or corresponding apparatus for performing data processing or other
operations used in the practice, administration, or management of a financial
product or service, except that the term does not include patents for
technological inventions.” AIA § 18(d)(1); see also 37 C.F.R. § 42.301
(defining “[c]overed business method patent” and “[t]echnological
invention”). To determine whether a patent is eligible for a covered business
method patent review, the focus is on the claims. Secure Axcess, LLC v.

4

Leahy-Smith America Invents Act, Pub. L. No. 112–29, 125 Stat. 284, 329
(2011) (“AIA”).
14

CBM2016-00054
Patent 7,693,768 B2
PNC Bank N.A., 848 F.3d 1370, 1379 (Fed. Cir. 2017) (“It is the claims, in
the traditional patent law sense, properly understood in light of the written
description, that identifies a CBM patent.”). One claim directed to a CBM is
sufficient to render the patent eligible for CBM patent review. See id. at
1381 (“[T]he statutory definition of a CBM patent requires that the patent
have a claim that contains, however phrased, a financial activity element.”).
In our Institution Decision, we determined that the Petitioner had
shown that the ’768 patent is a CBM patent. Inst. Dec. 9–12. Patent Owner
urges us to reconsider our determination and find that the ’768 patent is not
eligible for CBM review. See PO Resp. 63–65. We, however, are not
apprised of any sufficient reason to change our original determination.

a. Method or Corresponding Apparatus for Performing
Data Processing or Other Operations Used in the
Practice, Administration or Management of a Financial
Product or Service”
The statute defines a “covered business method patent” as “[a] patent
that claims a method or corresponding apparatus for performing data
processing or other operations used in the practice, administration, or
management of a financial product or service.” AIA § 18(d)(1); see 37
C.F.R. § 42.301(a). A covered business method patent can be broadly
interpreted to encompass patents claiming activities that are financial in
nature. Transitional Program for Covered Business Method Patents—
Definitions of Covered Business Method Patent and Technological
Invention, 77 Fed. Reg. 48734, 48735 (Aug. 14, 2012); Blue Calypso, LLC
v. Groupon, Inc., 815 F.3d 1331, 1338–41 (Fed. Cir. 2016) (determining that
a patent was a covered business method patent because it claimed activities
15

CBM2016-00054
Patent 7,693,768 B2
that are financial in nature); Unwired Planet, LLC v. Google, Inc., 841 F.3d
1376, n. 5 (Fed. Cir. 2016) (stating that “we endorsed the ‘financial in
nature’ portion of the standard as consistent with the statutory definition of
‘covered business method patent’ in Blue Calypso”), Versata Development
Group, Inc. v. SAP America, Inc., 793 F.3d 1306, 1324–25 (Fed. Cir. 2015)
(“[The statute] on its face covers a wide range of finance-related
activities.”).
A patent need have only one claim directed to a covered business
method to be eligible for review. 77 Fed. Reg. at 48,736 (Response to
Comment 8). We take claim 1 as representative.
Petitioner asserts that claim 1 is directed to a covered business method
because it recites a method of placing a trade order for a commodity on an
electronic exchange including the steps of displaying market information
and sending a trade order, which are financial in nature. Pet. 4–5. As
Petitioner points out, claim 1 recites displaying market information,
including indicators of a highest bid and a lowest ask in the market, and
sending a trade order to an electronic trading exchange. Pet. 4; Ex. 1001,
11:46–12:34.
Displaying market information and sending a trade order to an
electronic exchange are activities that are financial in nature. A method for
placing a trade order for a commodity on an electronic exchange is a method
for performing data processing or other operations used in the practice,
administration, or management of a financial product or service.
Patent Owner does not dispute that the ’768 patent claims a method
used for a financial product or service, but does dispute that the ’768 patent
claims data processing. PO Resp. 90–91. Patent Owner’s argument is based
16

CBM2016-00054
Patent 7,693,768 B2
upon the assumption that “data processing” in the statute is interpreted
according to the definition of “data processing” found in the glossary for
class 705 of the United States Patent Classification System. See id. Patent
Owner, however, does not sufficiently explain why this definition is
controlling, as opposed to the plain meaning of “data processing.” We, thus,
are not persuaded that “data processing” as recited by the statute precludes
data processing for the purpose of displaying the data. The ’768 patent
discloses processing market information for display on a client terminal and
for sending an order to an exchange. See e.g., Ex. 1001, 4:60–61 (“The
present invention processes this information and maps it through simple
algorithms and mapping tables to positions in a theoretical grid program
. . .). We, thus, are not persuaded that the ’768 patent does not claim
“performing data processing . . . used in the practice, administration, or
management of a financial product or service” (AIA § 18(d)(1)).
In any event, the statute does not limit CBM patents to only those that
claim methods for performing data processing used in the practice,
administration, or management of a financial product or service. It includes
methods for performing “other operations” used in the practice,
administration, or management of a financial product or service. The statute
states that the “other operations” are those that are “used in the practice,
administration, or management of a financial product or financial service.”
AIA § 18(d)(1). There appears to be no disagreement that the claimed
method steps are operations used in the practice, administration, or
management of a commodity or trading a commodity on an electronic
exchange, e.g., a financial service. See generally PO Resp. 90–91. The ’768
patent, therefore, at least claims “other operations used in the practice,
17

CBM2016-00054
Patent 7,693,768 B2
administration, or management of a financial product or financial service”
(AIA § 18(d)(1)).
Patent Owner contends that the Legislative History confirms that the
claimed invention is not a covered business method because “it specifically
states that GUI tools for trading are not the types of inventions that fall
within CBM jurisdiction.” PO Resp. 92 (citing Ex. 2126, S5428, S5433).
Although the legislative history includes certain statements that
certain novel software tools and graphical user interfaces that are used by the
electronic trading industry worker are not the target of § 18 of the AIA (see
Ex. 2126, S5428, S5433), the language of the AIA, as passed, does not
include an exemption for user interfaces for commodities trading from
covered business method patent review. Indeed, “the legislative debate
concerning the scope of a CBM review includes statements from more than
a single senator. It includes inconsistent views . . . .” Unwired Planet, 841
F.3d at 1381. For example, in contrast to the statements cited by Patent
Owner, the legislative history also indicates that “selling and trading
financial instruments and other securities” is intended to be within the scope
of covered business method patent review. See Ex. 2126, S5432 (statements
of Sen. Schumer); see also id. at S54636–37 (statements of Sen. Schumer
expressing concern about patents claiming “double click”), 157 Cong. Rec.
S1360 at S1364 (Mar. 8, 2011) (statements of Sen. Schumer explain that
“method or corresponding apparatus” encompasses “graphical user interface
claims” and “sets of instructions on storage media claims.”) “[T]he
legislative history cannot supplant the statutory definition actually adopted. .
. . The authoritative statement of the Board’s authority to conduct a CBM
review is the text of the statute.” Unwired Planet, 841 F.3d at 1381. Each
18

CBM2016-00054
Patent 7,693,768 B2
claimed invention has to be evaluated individually to determine if it is
eligible for a CBM patent review. A determination of whether a patent is
eligible for a CBM patent review under the statute is made on a case-by-case
basis. 37 C.F.R. § 42.301(b).
For the reasons stated above, we are persuaded by Petitioner that the
’768 patent “claims a method or corresponding apparatus for performing
data processing or other operations used in the practice, administration, or
management of a financial product or service” and meets that requirement of
§ 18(d)(1) of the AIA.

3. Exclusion for Technological Inventions
Even if a patent includes claims that would otherwise be eligible for
treatment as a covered business method, review of the patent is precluded if
the claims cover only “technological invention[s],” as defined by 37 C.F.R.
§42.301(b). The definition of “covered business method patent” in §
18(d)(1) of the AIA does not include patents for “technological inventions.”
To determine whether a patent is for a technological invention, we consider
the following: “whether the claimed subject matter as a whole [(1)] recites a
technological feature that is novel and unobvious over the prior art; and [(2)]
solves a technical problem using a technical solution.” 37 C.F.R. §
42.301(b). Both prongs must be satisfied in order for the patent to be
excluded as a technological invention. See Versata, 793 F.3d at 1326–7;
Apple Inc. v. Ameranth, Inc., 842 F.3d 1229, 1240 (Fed. Cir. 2016). The
following claim drafting techniques, for example, typically do not render a
patent a “technological invention”:
(a) Mere recitation of known technologies, such as computer
hardware, communication or computer networks, software,
19

CBM2016-00054
Patent 7,693,768 B2
memory, computer-readable storage medium, scanners, display
devices or databases, or specialized machines, such as an ATM
or point of sale device.
(b) Reciting the use of known prior art technology to accomplish
a process or method, even if that process or method is novel and
non-obvious.
(c) Combining prior art structures to achieve the normal,
expected, or predictable result of that combination.
Office Patent Trial Practice Guide, 77 Fed. Reg. 48,756, 48,763–64 (Aug.
14, 2012). The Federal Circuit has held that a claim does not include a
“technological feature” if its “elements are nothing more than general
computer system components used to carry out the claimed process.” Blue
Calypso, 815 F.3d at 1341; see also Versata, 793 F.3d at 1327 (“the
presence of a general purpose computer to facilitate operations through
uninventive steps does not change the fundamental character of an
invention”).
With respect to the first prong, Petitioner contends that rather than
reciting a technical feature that is novel or unobvious over the prior art, the
claims of the ’768 patent generally recite trading software that is
implemented on a conventional computer. Pet. 5–7. When addressing
“whether the claimed subject matter as a whole recites a technological
feature that is novel and unobvious over the prior art,” Patent Owner alleges
that “Petitioners fail to address whether the claims recite a technical feature
that is novel and unobvious.” PO Resp. 91. That is incorrect. See Pet. 5–7;
Inst. Dec. 11 (discussing Petitioner’s contention).
We are persuaded by Petitioner’s contentions that at least claim 1 of
the ’768 patent does not recite a novel and non-obvious technological
feature. Pet. 5–7 (citing Ex. 1007 ¶¶ 73–74). The specification of the ’768
20

CBM2016-00054
Patent 7,693,768 B2
patent treats as well-known all potentially technological aspects of the
claims. For example, the ’768 patent discloses that its system can be
implemented “on any existing or future terminal or device” (Ex. 1001, 4:4–
7), each of which is known to include a display, and discloses that the input
device can be a mouse (id. at 4:9–11), which is a known input device. The
’768 patent further discloses that “[t]he scope of the present invention is not
limited by the type of terminal or device used.” Id. at 4:7–9. The ’768
patent also describes the programming associated with the GUI as
insignificant. See, e.g., id. at 4:60–66 (explaining that the “present invention
processes [price, order, and fill] information and maps it through simple
algorithms and mapping tables to positions in a theoretical grid program”
and “[t]he physical mapping of such information to a screen grid can be
done by any technique known to those skilled in the art”). That at least
claim 1 of the ’768 patent does not recite a novel and non-obvious
technological feature is further illustrated by our comparison of the Fig. 2
GUI to the Mercury display above (see Pet. 5) and by our discussion of that
claim being unpatentable under § 103 below. Accordingly, we are
persuaded that at least claim 1 does not recite a technological feature that is
novel and unobvious over the prior art.
With respect to the second prong, Petitioner contends that the claims
of the ’768 patent do not fall within § 18(d)(1)’s exclusion for
“technological inventions” because the ’768 patent does not solve a
technical problem using a technical solution. Pet. 8–9. Petitioner notes that
“[a]ccording to the ’768 patent, the ‘problem’ with prior art trading GUIs
was that the market price could change before a trader entered a desired
order, causing the trader to ‘miss his price.’” Id. at 8 (citing Ex. 1001, 2:50–
21

CBM2016-00054
Patent 7,693,768 B2
63). Petitioner contends that “the ’768 patent’s solution is not technical”
because Patent Owner “simply [] rearrange[d] how known and available
market data is displayed on a GUI” and “did not design a more accurate
mouse or a computer that responded faster.” Id. at 9.
Patent Owner argues that the ’768 patent provides a technical solution
to a technical problem. PO Resp. 91–92. Specifically, Patent Owner argues
that “the ’768 claims provide a new GUI construction that improves prior
GUIs because it address the problem of a user missing their intended price.”
Id. at 92. Patent Owner points to CQG for support. Id. at 91–92.
We are persuaded that the ’768 patent does not solve a technical
problem with a technical solution. Pet. 8–9. The ’768 patent purports to
solve the problem of a user missing an intended price because a price level
changed as the user tried to click to send an order at an intended price level
in a GUI tool. See Ex. 1001, 2:3–62. As written, claim 1 requires the use of
only known technology. Given this, we determine that at least claim 1 does
not solve a technical problem using a technical solution and at least claim 1
does not satisfy the second prong of 37 C.F.R. § 42.301(b).
The ’768 patent describes the problem it solves as follows:
[A]pproximately 80% [of the total time it takes to place an
order] is attributable to the time required for the trader to read the
prices displayed and to enter a trade order. The present invention
provides a significant advantage during the slowest portion of the
trading cycle—while the trader manually enters his order. . . .
In existing systems, multiple elements of an order must be
entered prior to an order being sent to market, which is time
consuming for the trader. Such elements include the commodity
symbol, the desired price, the quantity and whether a buy or sell
order is desired. The more time a trader takes entering an order,
the more likely the price on which he wanted to bid or offer will
change or not be available in the market. . . . In such liquid
22

CBM2016-00054
Patent 7,693,768 B2
markets, the prices of the commodities fluctuate rapidly. On a
trading screen, this results in rapid changes in the price and
quantity fields within the market grid. If a trader intend to enter
an order at a particular price, but misses the price because the
market prices moved before he could enter the order, he may lose
hundreds, thousands, even millions of dollars. The faster a trader
can trade, the less likely it will be that he will miss his price and
the more likely he will make money.
Ex. 1001, 2:35–62 (emphasis added). “The inventors have developed the
present invention which overcomes the drawbacks of the existing trading
systems and dramatically reduces the time it takes for a trader to place a
trade when electronically trading on an exchange.” Id. at 2:66–3:2.
As can be seen from the above, a problem disclosed in the ’768 patent
is the time it takes for a trader to manually enter trader orders on a market or
exchange that is rapidly changing, so as to make a profit. This is a financial
issue or a business problem, not a technical problem. See Pet. 5–7. If the
market or exchange did not rapidly change, then there would be no need for
a trader to enter orders rapidly.
The ’768 patent also describes that “the present invention ensure[s]
fast and accurate execution of trades by displaying market depth on a
vertical or horizontal plane, which fluctuates logically up or down, left or
right across the plane as the market prices fluctuate.” Ex. 1001, 3:5–9.
Claim 1, however, does not require displaying the market depth. See id. at
11:46–12:36. Claim 1 only requires displaying a first indicator that
represents a quantity associated with the highest bid price and a second
indicator that represents a quantity associated with the lowest ask price. Id.
In other words, claim 1 only requires displaying indicators that correspond
to the inside market. See also id. at 5:1–7 (disclosing displaying on the
23

CBM2016-00054
Patent 7,693,768 B2
inside market and not the market depth). The subject matter of claim 1, thus,
does not require the alleged technical solution to the problem of ensuring
fast and accurate trades.
Patent Owner’s reliance on CQG is misplaced. CQG addressed the
claimed subject matter of the ’134 patent and U.S. Patent No. 6,766,304.
The decision relied upon a feature not required by claim 1 of the ’768
patent— a static price axis. See Tr. 44–60 (discussing the differences
between the claims at issue in CQG and the claims of the ’768 patent); Pet.
30. Although claim 1 of the ’768 patent requires a price axis, it does not
require the price axis to be static. See Ex. 1001, 12:23–13:16. It does not
preclude the price axis from changing as the market information updates or
preclude a price value associated with the order entry location changing as it
is selected. See Tr. 44–60.
We are persuaded by Petitioner that at least claim 1 does not recite a
technological feature that is novel and unobvious over the prior art and does
not solve a technical problem using a technical solution. Accordingly, we
determine that the ’768 patent is not for a technological invention.

4. Conclusion
In view of the foregoing, we conclude that the ’768 patent is a covered
business method patent under AIA § 18(d)(1) and is eligible for review
using the transitional covered business method patent program.

C. Section 101 Patent-Eligible Subject Matter
Petitioner challenges claims 1–23 as directed to patent-ineligible
subject matter under 35 U.S.C. § 101. Pet. 15–31.
24

CBM2016-00054
Patent 7,693,768 B2
Under 35 U.S.C. § 101, we must first identify whether an invention
fits within one of the four statutorily provided categories of patenteligibility: “processes, machines, manufactures, and compositions of
matter.” Ultramercial, Inc. v. Hulu, LLC, 772 F.3d 709, 713–14 (Fed. Cir.
2014).
Initially, we note that Petitioner asserts that claim 23 is “broad enough
to encompass a transitory, propagating signal that is encoded, which is not
eligible for patenting.” Pet. 31 (citing In re Nuijten, 550 F.3d 1346, 1357
(Fed. Cir. 2007); Ex parte Mewherter, 107 USPQ2d 1857m 1859–60
(B.P.A.I. 2013) (precedential)). Petitioner explains that the specification
neither defines this term nor provides examples. Id. at 14. Petitioner argues
that addition of the phrase “having program code recorded thereon” to
“computer readable medium” does not limit the medium to non-transitory
media. Petitioner argues that “record” is defined as “to set down in writing”
or “to cause (as sound, visual images, or data) to be registered on something
(as a disc or magnetic tape) in reproducible form).” Id. at 15 (citing Ex.
1041, Merriam-Webster’s Collegiate Dictionary definition of record). In our
Institution Decision, we made an initial determination that the broadest
reasonable interpretation of the “computer readable medium” recited in
claim 23 is “any medium that participates in providing instruction to a
processor for execution and having program code recorded thereon.” Inst.
Dec. 8–9.
Patent Owner responds that there is insufficient evidence to support
Petitioner’s contention that one skilled in the art would have understood
“computer readable medium having program code recorded thereon” to
encompass a signal at the time of the invention. PO Resp. 89–90. Patent
25

CBM2016-00054
Patent 7,693,768 B2
Owner disputes that the limitation encompasses signals. Id. (citing Ex. 2169
¶ 33, testimony of Mr. Thomas). Patent Owner also argues that Ex Parte
Mewherter is inapplicable because it addresses the meaning of the term
“storage medium” after to 2002 and the effective filing date of the ’768
patent predates 2002. Id. at 90.
Petitioner responds to Patent Owner’s contentions by simply asserting
that “the Board should follow the precedential decision in Ex Parte
Mewherter.” Pet. Reply 11.
Petitioner’s response is unhelpful. For example, in its Reply,
Petitioner cites no evidence to rebut Patent Owner’s contentions regarding
how one skilled in the art would have understood “computer readable
medium having program code recorded thereon,” at the time of the invention
and does not respond to Patent Owner’s contentions regarding the
applicability of Ex Parte Mewherter. In fact, Petitioner does not even
acknowledge those contentions.
Accordingly, on this record, which is absent any further evidence or
meaningful argument from Petitioner, we are not persuaded that at the time
of the invention one skilled in the art would have understood “computer
readable medium having program code recorded thereon” as encompassing
transitory, propagating signals.
There is no dispute that the remaining claims fit within one of the four
statutorily provided categories of patent-eligibility. Claim 1, for example, is
directed to a process.

26

CBM2016-00054
Patent 7,693,768 B2
1. Eligibility
Patent-eligible subject matter is defined in § 101 of the Patent Act,
which recites:
Whoever invents or discovers any new and useful process,
machine, manufacture, or composition of matter, or any new and
useful improvement thereof, may obtain a patent therefor, subject
to the conditions and requirements of this title.
There are, however, three judicially created exceptions to the broad
categories of patent-eligible subject matter in § 101: laws of nature, natural
phenomena, and abstract ideas. Alice, 134 S. Ct. at 2354; Mayo
Collaborative Servs. v. Prometheus Labs., Inc., 132 S. Ct. 1289, 1293
(2012). Although an abstract idea, itself, is patent-ineligible, an application
of the abstract idea may be patent-eligible. Alice, 134 S. Ct. at 2355. Thus,
we must consider “the elements of each claim both individually and ‘as an
ordered combination’ to determine whether the additional elements
‘transform the nature of the claim’ into a patent-eligible application.” Id.
(citing Mayo, 132 S. Ct. at 1297–98). The claim must contain elements or a
combination of elements that are “sufficient to ensure that the patent in
practice amounts to significantly more than a patent upon the [abstract idea]
itself.” Id. (citing Mayo, 132 S. Ct. at 1294).
Claims 1 and 23 are independent and recite similar limitations. We
take claim 1 as representative.

2. Abstract Idea
“The ‘abstract idea’ step of the inquiry calls upon us to look at the
‘focus of the claimed advance over the prior art’ to determine if the claim’s
‘character as a whole’ is directed to excluded subject matter.’” Affinity Labs
27

CBM2016-00054
Patent 7,693,768 B2
of Texas v. DirectTV, LLC, 838 F.3d 1253, 1257 (Fed. Cir. 2016) (quoting
Elec. Power Grp., LLC v. Alstom S.A., 830 F.3d 1350, 1353 (Fed. Cir.
2016); see also Enfish, LLC v. Microsoft Corp., 822 F.3d 1327, 1335 (Fed.
Cir. 2016).
According to Petitioner, the claims are directed to the abstract idea of
“placing an order based on observed (plotted) market information, as well as
updating market information.” Pet. 17. Petitioner contends that “claim 1
could be performed in the human mind or with the aid of pen-and-paper with
little difficulty because the claim requires plotting only a few data points”
(id. at 18) and that the claims are directed to commodity trading which is ‘a
fundamental economic practice long prevalent in our system of commerce.’”
Pet. Reply 5 (citing Alice, 134 S. Ct. at 2356). Patent Owner disagrees. See
PO Resp. 79–87.
Claim 1 of the ’768 patent recites “a method of placing a trade order
for a commodity on an electronic exchange using a graphical user interface
and a user input device.” Ex. 1001, 11:46–48. Claim 1 recites steps of
displaying market information, bid and ask quantities, in regions along a
price axis. Id. at 11:53–64. The market information is an indicator of an
order to buy at the highest bid price and an indicator of an order to sell at the
lowest ask price. Id. In other words, the displayed market information is the
inside market. Claim 1 does not require displaying the market depth. Claim
1 also recites a step of updating the market information such that it moves
relative to the price axis as the market changes. Id. at 12:19–31. Claim 1
further recites steps of displaying a first and second fixed location in an
order entry region, steps of setting parameters for a trade order, and a step of

28

CBM2016-00054
Patent 7,693,768 B2
sending a trade order to an exchange in response to a single action of a user
input device Id. at 11:65–67, 12:32–36.
As can be seen from its steps, the focus of claim 1 is placing trade
orders based on displayed market information, as well as updating the
displayed market information. This focus is consistent with the ’768
patent’s statement that “[t]he present invention is directed to the electronic
trading of commodities. . . . It facilitates the display of and the rapid
placement of trade orders. . . .” Id. at 1:15–20. The focus of claim 1 is also
consistent with the problem disclosed by the ’768 patent of a trader missing
an intended price because the market changed during the time required for a
trader to read the prices displayed and to manually enter an order. Id. at
2:35–62.
Claim 1 does not recite any limitation that specifies how the computer
implements the steps or functions for using a GUI. For example, claim 1
recites displaying an arrangement of the market information on the GUI.
The bid quantity is displayed in the bid region at a location that corresponds
to a price along a price axis and the ask quantity is displayed in an ask
region at a location that corresponds to a price along the price axis. Id. at
11:53–64. Claim 1 does not specify how the computer maps the bid
quantities, ask quantities, and price axis to the display. The ’768 patent does
not disclose an unconventional or improved method of mapping the bid
quantities, ask quantities, and price axis to the display. It states that “[t]he
physical mapping of such information to a screen grid can be done by any
technique known to those skilled in the art” and that “[t]he present invention
is not limited by the method used to map the data to the screen.” Id. at 4:64–
67.
29

CBM2016-00054
Patent 7,693,768 B2
The ’768 patent discloses that at least 60 exchanges throughout the
world utilize electronic trading and discloses that it is known that electronic
trading includes analyzing displayed market information and updated market
information to send trade orders to an exchange. See id. at 1:26–2:22.
Similarly, Mr. Thomas indicates that traders in prior trading systems,
including pre-electronic open outcry systems, which have been used for over
one hundred years, send trade orders to an exchange based on price, such as
the inside market prices or other prices. Ex. 2169 ¶¶ 36, 62, and 63. Mr.
Thomas testifies that “[i]n the trading pit, traders utilize shouting and hand
signals to transfer information about buy and sell orders to other traders. To
avoid confusion, the inside market prices were the focus, and traders could
only shout and signal regarding their interest at the best bid/offer or at prices
that improves the best bid/offer.” Id. ¶ 36. The ’768 patent discloses that
electronic exchanges are known to provide the market depth for display that
is the inside market and a few orders away from the inside market. Ex.
1001, 5:3–5. Further, Exhibit 1020 discloses that long before the ’768 patent
traders maintained books that plotted bids and asks (e.g., the market depth)
along a price axis. See Ex. 1020, 44–46. Exhibit 1020 states “[s]pecialists
enter public orders, that are away from the market, in their books by price
and in the order they are received.” Id. at 44. Figure 4-2 of Exhibit 1020 is
reproduced below.

30

CBM2016-00054
Patent 7,693,768 B2

Figure 4-2 depicts a page of a book of a trader. Id. at 44–45. Orders to buy
or sell a commodity are plotted along a prices axis. For example, Figure 4–2
shows the best bid at 22¼ and the best ask at 22⅝. Id. at 44. Ex. 1020
states: “The NYSE specialist’s book is maintained on a CRT and referred to
as a display book. This electronic book sorts all orders coming to the
specialist in time and price sequence . . . .” Id. at 46.
Given this, we determine that placing an order based on displayed
market information, such as the inside market and few other orders, as well
as updating the market information is a fundamental economic and
conventional business practice. We are persuaded by Petitioner that the
method of claim 1 could be performed in the human mind or with the aid of
pen-and-paper with little difficulty because the claim requires plotting only a
few data points (i.e., the inside market). See Pet. 18 (citing Ex. 1020, 44–46;
Ex. 1007 ¶¶ 73–74).
31

CBM2016-00054
Patent 7,693,768 B2
Patent Owner argues that the claims of the ’768 patent are not directed
to a fundamental economic practice, longstanding commercial practice, or
business method. PO Resp. 85–87. Patent Owner contends the “claims did
not have a pre-electronic equivalent as electronic trading operates in
fundamentally different ways from open outcry. . . . In open outcry, trader
could not publish orders away from the inside market, and could pick and
choose with whom they wanted to trade.” Id. at 85 (citations omitted).
Patent Owner’s arguments are unpersuasive because they are not
commensurate with the scope of the claims. For example, claim 1 recites a
method of placing a trade order for a commodity on an exchange, which
includes steps of displaying the inside market and sending the trade order to
the electronic exchange. Ex. 1001, 11:46–12:36. Claim 1 does not recite
any steps as to how the electronic exchange matches or fills the order. See
id. Claim 1 requires publishing the inside market and does not require
publishing the market depth. See id.; see also id. at 5:1–7. Claim 1 does not
specify how the order is filled at the electronic exchange or preclude a trader
from picking and choosing with whom they want to trade. See id. at 11:46–
12:36.
The claims at issue here are like the claims at issue in Affinity Labs.
In Affinity Labs, the claim at issue recited an application that enabled a
cellular telephone to present a GUI displaying a list of media sources that
included selectable items for selecting a regional broadcasting channel.
Affinity Labs, 838 F.3d at 1255–56. The claim also recited that the cellular
telephone was enabled to transmit a request for the selected regional
broadcasting channel. Id. at 1256. The claims at issue here are also like the
claims at issue in Apple, Inc. v. Ameranth, Inc., 842 F.3d 1229 (Fed. Cir.
32

CBM2016-00054
Patent 7,693,768 B2
2016). See Pet. Reply 8–9. In Ameranth, the claim at issue recited a GUI
that displayed menu items in a specific arrangement, a hierarchical tree
format. Menu items were selected to generate a second menu from a first
menu. Ameranth, 842 F.3d at 1234. In both Affinity Labs and Ameranth, the
court determined that the claims were not directed to a particular way of
programming or designing the software, but instead merely claim the
resulting systems. The court thus determined that the claims were not
directed to a specific improvement in the way computers operate. Affinity
Labs, 838 F.3d at 1260–61; Ameranth, 842 F.3d at 1241. Here, the claims
also recite the resulting GUI and are not directed to specific improvements
in the way the computers operate. “Though lengthy and numerous, the
claims [that] do not go beyond requiring the collection, analysis, and display
of available information in a particular field, stating those functions in
general terms, without limiting them to technical means for performing the
functions that are arguably an advance over conventional computer and
network technology” are patent ineligible. Elec. Power Grp., 830 F.3d at
1351. “Generally, a claim that merely describes an ‘effect or result
dissociated from any method by which [it] is accomplished’ is not directed
to patent-eligible subject matter.” Ameranth, 842 F.3d at 1244 (quoting
Internet Patents Corp. v. Active Network, Inc., 790 F.3d 1343, 1348 (Fed.
Cir. 2015)).
The claims of the ’768 patent are unlike the claims at issue in DDR
Holdings, LLC v. Hotels.com, L.P., 773 F.3d 1245 (Fed. Cir. 2014) and
Enfish. See Pet. 29–30; Pet. Reply 6. In DDR Holdings, the court
determined that the claims did not embody a fundamental economic
principle or a longstanding commercial practice. The claims at issue in DDR
33

CBM2016-00054
Patent 7,693,768 B2
Holdings were directed to retaining website visitors, which the court
determined was a problem “particular to the Internet.” DDR Holdings, 773
F.3d at 1257. The court also determined that the invention was “necessarily
rooted in computer technology in order to overcome a problem specifically
arising in the realm of computer networks” and that the claimed invention
did not simply use computers to serve a conventional business purpose. Id.
In Enfish, the claim at issue was directed to a data storage and retrieval
system for a computer memory. Enfish, 822 F.3d at 1336–37. The court
determined that the claims were directed to an improvement in the
functioning of a computer and were not simply adding conventional
computer components to well-known business practices. Id. at 1338. Here,
in contrast, claim 1 is directed to a fundamental economic principle or a
longstanding commercial practice and not directed to an improvement in the
computer, but simply to the use of the GUI in a method of placing an order
based on displayed market information, as well as updating market
information. See Pet. 29–30.
Patent Owner argues that the GUI disclosed in the ’768 patent solves
an alleged problem of the Fig. 2 GUI, displaying the inside market at a fixed
location, while the displayed prices change as the market changes. See PO
Resp. 81–83. If a trader was focused on trading at a particular price, the
trader could miss its intended price using the Fig. 2 GUI because the price
could change as the trader clicked it. Id. at 2. Patent Owner contends that
the ’768 patent solves this problem “by combining a dynamic display of bid
and ask indicators that move relative to a price axis.” Id. at 4. The problem
of a price changing just as a trader clicks on the price is not disclosed in the
’768 patent. Patent Owner’s argument is unpersuasive because it is not
34

CBM2016-00054
Patent 7,693,768 B2
commensurate with the scope of the claim. Claim 1 does not require the
price axis to be static. See Ex. 1001, 11:46–12:36. It does not preclude the
values of the price axis from changing as the market information updates. In
other words, the claims allow for a price value associated with the order
entry location to change as market information updates and change at the
time a trader is selecting a corresponding order entry location. See Tr. 44–
60. The claimed subject matter does not solve the problem alleged by the
Patent Owner.5
Further, claim 1 of the ’768 patent is unlike the claims at issue in
McRO, Inc. v. Bandai Namco Games America Inc., 837 F.3d. 1299 (Fed.
Cir. 2016). In McRO, the court held that claims that recited “a specific
asserted improvement in computer animation” were not directed to an
unpatentable abstract idea because they go “beyond merely organizing
existing information into a new form or carrying out a fundamental
economic practice.” McRO, 837 F.3d at 135. Here, the claims merely
organize existing market information so that it is displayed or plotted along a
price axis. Plotting bids and asks along a price axis is not a specific
improvement to a functioning of a computer. See Ex. 1020, 44–46.

5

During oral hearing, Patent Owner noted the dissenting opinion in related
CBM2015-00181. Tr. 53:14–54:1. Since that time, however, it has become
increasingly clear that movement of the price axis is significant. See, e.g.,
Tr. 60:10–13 (Patent Owner acknowledging that movement of the price axis
does not solve the alleged problem). The Federal Circuit’s decision
addressing eligibility of patents related to the ’768 patent focused on solving
the problem alleged by Patent Owner. See Trading Techs. Int’l, Inc. v.
CQG, Inc., 675 F. App’x 1001, 1004–05 (Fed. Cir. Jan. 18, 2017) (nonprecedential).
35

CBM2016-00054
Patent 7,693,768 B2
Patent Owner argues that the claims of the ’786 patent are patent
eligible under CQG because the ’786 patent is a continuation of the patents
at issue in CQG. PO Resp. 78. The claims of the ’786 patent, however, are
broader in some aspects than the claims of the ’132 patent. For example, the
claims of the ’786 patent do not recite the static price axis feature claimed by
the ’132 patent. In CQG, the Federal Circuit referred to even those narrower
claims as on the line between patent eligibility and ineligibility (CQG at *4
(noting the “close question[] of eligibility”)). Thus, comparing the claims of
the patents involved in Trading Technologies is not particularly helpful here.

3. Inventive Concept
Next we turn to “the elements of each claim both individually and as
an ordered combination” to determine whether the additional elements
“transform the nature of the claim” into a “patent-eligible application.”
Mayo, 768 S. Ct. at 1297–98. The additional elements must be more than
“well-understood, routine, conventional activity.” Id. at 1298.
Petitioner contends that claim 1 does not recite an inventive concept.
Pet. 20–25; Pet. Reply 7–9. Patent Owner disagrees. PO Resp. 87–89.
First, claim 1 of the ’768 patent recites “a method of placing a trade
order for a commodity on an electronic exchange using a graphical user
interface and a user input device.” Ex. 1001, 11:46–48. The ’768 patent
discloses that its system can be implemented “on any existing or future
terminal or device” (id. at 4:4–8), which are known to include displays, and
discloses that the input device can be a mouse (id. at 4:8–18), which is a
known input device. A mere recitation of a GUI does not make the claim
patent eligible. See Affinity Labs, 838 F.3d at 1257–58; Ameranth, 842 F.3d
36

CBM2016-00054
Patent 7,693,768 B2
at 1236–1242; Internet Patent Corp., 790 F.3d at 1348–1349. A recitation
of a generic GUI merely limits the use of the abstract idea to a particular
technological environment. “Limiting the field of use of the abstract idea to
a particular existing technological environment does not render any claims
less abstract.” Affinity Labs, 838 F.3d at 1258 (citing Alice, 134 St. Ct. at
2358; Mayo, 132 S. Ct. at 1294).
Second, claim 1 recites steps of displaying indicators representing a
quantity associated with a highest order to buy the commodity or lowest
order to sell the commodity in a bid display region or ask display region,
respectively and moving the indictors upon receipt of market information.
Ex. 1001, 11:46–48. Locations in the bid or ask display region correspond
to a price level along a price axis. Id. Essentially, these limitations require
plotting the inside market along a price axis. Plotting information along an
axis is a well-understood, routine, conventional, activity. See Ex. 1020, 44–
46. The Fig. 2 GUI includes regions for displaying indicators of bid and ask
quantities and regions for displaying corresponding prices. For example, the
Fig. 2 GUI displays the bid quantity in BidQty column 202 at locations that
correspond to the bid prices in BidPrc column 203. Ex. 1001, 5:12–25. This
is akin to plotting information BidQty and AskQty along a price axis.
Further, Mr. Thomas testifies that prior GUIs, which are similar to the Fig. 2
GUI, “displayed the locations for the best bid and ask prices such that the
prices were displayed vertically (e.g., with the location for the best ask price
being displayed above the location for the best bid price).” Ex. 2169 ¶ 62;
see also Ex. 1017, 107, Ex. 1011, Fig. 2a (depicting a trading screen having
a central order price column and ask and bid orders in adjacent
corresponding columns). Displaying the best ask price above a best bid
37

CBM2016-00054
Patent 7,693,768 B2
price would be displaying a common column of price levels. The ’768
patent states:
the physical mapping of such information to a screen grid can be
done by any technique known to those skilled in the art. The
present invention is not limited by the method used to map the
data to the screen display.
Id. at 4:64–67. These steps of claim 1 require merely a rearrangement of
market information that was known to be displayed in corresponding
columns on a GUI. CyberSource Corp. v. Retail Decisions, Inc., 654 F.3d
1366, 1370 (Fed. Cir. 2011) (holding “[t]he mere collection and organization
of data” patent-ineligible).
Third, claim 1 also recites steps of displaying an order entry region for
receiving commands to send trade orders, setting trade order parameters, and
sending trade orders to the electronic exchange with a single action. Id. at
11:65–67, 12:32–36. Methods that permit single action entry of an order,
which has preset default parameters, by clicking on a cell in a display of a
GUI are known technology. Ex. 2169 ¶¶ 51, 58–59; Ex. 1008 ¶ 20. The
additional elements must be more that “well-understood, routine,
conventional, activity.” Mayo, 132 S. Ct. at 1298.
The individual elements of the claim do not transform the nature of
the claim into a patent-eligible application. They do not add significantly
more to the abstract idea or fundamental economic practice. Contrary to
Patent Owner’s argument, the claim simply recites the use of a generic GUI
with routine and conventional functions. Even considering all of the
elements as an ordered combination, the combined elements also do not
transform the nature of the claim into a patent-eligible application. Indeed,

38

CBM2016-00054
Patent 7,693,768 B2
as discussed above, the Fig. 2 GUI disclosed in the ’768 patent includes a
similar combination of elements.
For the reasons discussed above, the claims 1 and 23 of the ’768
patent are not directed to patent eligible subject matter under 35 U.S.C. §
101.

4. Dependent Claims
Petitioner contends that the additional elements recited by dependent
claims 2–22 do not add significantly more to the abstract idea so as to render
the claims patent-eligible. Pet. 25–29. Patent Owner makes no arguments
directed to the eligibility of the dependent claims. See generally PO Resp.
We are persuaded by Petitioner that dependent claims 2–22 patent ineligible
under 35 U.S.C. § 101. See Pet. 25–29 (citing Ex. 1007).

5. Conclusion
Having considered the information provided in the Petition, we are
persuaded that Petitioner has demonstrated claims 1–23 are unpatentable
under 35 U.S.C. § 101.

D. Obviousness Challenges
Section 103 forbids issuance of a claim when “the differences
between the subject matter sought to be patented and the prior art are such
that the subject matter as a whole would have been obvious at the time the
invention was made to a person having ordinary skill in the art.” 35 U.S.C.
§ 103. The ultimate determination of obviousness under § 103 is a question
of law based on underlying factual findings. In re Baxter Int’l, Inc., 678
39

CBM2016-00054
Patent 7,693,768 B2
F.3d 1357, 1362 (Fed. Cir. 2012) (citing Graham v. John Deere Co., 383
U.S. 1, 17–18 (1996)). These underlying factual considerations consist of:
(1) the “level of ordinary skill in the pertinent art,” (2) the “scope and
content of the prior art,” (3) the “differences between the prior art and the
claims at issue,” and (4) “secondary considerations” of non-obviousness
such as “commercial success, long-felt but unsolved needs, failure of others,
etc.” KSR Int’l Co. v. Teleflex Inc., 550 U.S. 398, 406 (2007) (quoting
Graham, 338 U.S. at 17–18).
Petitioner challenges claims 1–13, 15, 16, 18, and 21–23 as having
been obvious over TSE and Belden, claims 14, 17, 19, and 20 as having
been obvious over TSE, Belden, and Cooper.

1. TSE Printed Publication Status
Petitioner argues that TSE is prior art under 35 U.S.C. § 102(a).
Pet. 11–12. In support of its showing that TSE qualifies as prior art,
Petitioner relies on the November 21, 2005, deposition testimony of Atsushi
Kawashima taken during litigation between Patent Owner and a third party,
eSpeed, Inc. Id.; Ex. 1019.
Whether a document qualifies as a printed publication under 35
U.S.C. § 102(a) is a question of law based on underlying findings of fact. In
re Enhanced Sec. Research, LLC, 739 F.3d 1347, 1354 (Fed. Cir. 2014)
(citing In re Hall, 781 F.2d 897, 899 (Fed. Cir. 1986)). The Federal Circuit
“has interpreted § 102 broadly, explaining that even relatively obscure
documents qualify as prior art so long as the public has a means of accessing
them.” Id. (citing Hall, 781 F.2d at 899).
Our leading case on public accessibility is In re Hall, 781 F.2d
897 (Fed. Cir. 1986). In Hall we concluded that “a single
40

CBM2016-00054
Patent 7,693,768 B2
cataloged thesis in one university library” constitutes “sufficient
accessibility to those interested in the art exercising reasonable
diligence.” Id. at 900. Thereafter, in Constant v. Advanced
Micro–Devices, Inc., we explained that “[a]ccessibility goes to
the issue of whether interested members of the relevant public
could obtain the information if they wanted to.” 848 F.2d 1560,
1569 (Fed. Cir. 1988). Therefore, “[i]f accessibility is proved,
there is no requirement to show that particular members of the
public actually received the information.” Id.
Enhanced Sec. Research, LLC, 739 F.3d at 1354. The determination of
whether a document is a “printed publication” under 35 U.S.C. § 102
involves a case-by-case inquiry into the facts and circumstances surrounding
its disclosure to members of the public. In re Klopfenstein, 380 F.3d 1345,
1350 (Fed. Cir. 2004).
TSE is entitled “Futures/Option Purchasing System Trading Terminal
Operation Guide” of the “Tokyo Stock Exchange Operation System
Division.” Ex. 1017, 1.6 In the middle of page 5 is the annotation “August,
1998” above the words “Tokyo Stock Exchange Operation System
Division.” Id. at 5. Petitioner argues that TSE is prior art under 35 U.S.C.
§ 102(a) because it was published in August of 1998 by giving two copies to
each of the about 200 participants in the Tokyo Stock Exchange, who were
free to do whatever they wanted with their copies of the publication. Pet. 11
(citing Ex. 1019, 12–33).
In support of its arguments regarding TSE as prior art, Petitioner
directs us to portions of Mr. Kawashima’s testimony. At the time of his
testimony, Mr. Kawashima testified that he was employed by the Tokyo
Stock Exchange and was so at the time of the TSE manual, August 1998.
6

References are to pages located at center bottom of the English translation
of TSE (Ex. 1017).
41

CBM2016-00054
Patent 7,693,768 B2
Ex. 1019, 5–11. He further testified that TSE “is the current TSE futures
options trading system terminal document, manual” that was prepared
August of 1998 by the Tokyo Stock Exchange and that he was in charge of
preparing the document. Id. at 10–11. Mr. Kawashima also testified that the
purpose of the manual was that “in 1998 we replaced the futures options
trading system and so this new manual was prepared because there were
changes to the way the trading terminals were operating.” Id. at 12.
Kawashima further testified that the manual was distributed to “participants”
in August of 1998, who were “securities companies for banks who are able
to carry out futures options trading at the TSE” and that the “manual was
given to explain those changes” made with respect to the operation of the
TSE trading system and terminals. Id. at 12, 14. Mr. Kawashima testified
that the manual was given to around 200 “participant” companies—all
companies that conduct futures option trading on the Tokyo Stock
Exchange. Id. at 13.7 According to Mr. Kawashima, two copies were
distributed to each company, by having a person from each company come
to the Tokyo Stock Exchange operating system section to pick up their
copies of the manual, and that there was no restriction on what the
participants could do with the 1998 manual once they received it. Id. at 14–
15. Mr. Kawashima personally distributed the TSE manual to some of the
participants. Ex. 2163, 60:13–24.
Notwithstanding Patent Owner’s arguments, which we address below,
we are persuaded by Petitioner’s showing, which we adopt as our own, that

7

We understand the then “participants” included such companies as
Goldman Sachs Securities, Merrill Lynch, and Morgan Stanley. Ex. 2163,
58:5–17; Ex. 2169 ¶ 32.
42

CBM2016-00054
Patent 7,693,768 B2
TSE qualifies as prior art under 35 U.S.C. § 102(a). Petitioner asserts, with
supporting evidence, that TSE was distributed to participants in the Tokyo
Stock Exchange. Pet. 11; Ex. 1019, 12, 14. Based on the evidence before
us, the participants were securities companies for banks. The purpose of the
distribution of the manual was to alert the securities companies of changes
to the way the trading terminals of the Tokyo Stock Exchange operated. Ex.
1019, 12, 14. Indeed, TSE is a user manual that includes, for example, in
Chapter 2, instructions for terminal system configuration to enable a
participant, such as a security company to connect to the Tokyo Stock
Exchange. Ex. 1017, 10–25. Chapter 15, entitled “Response To A
Problem” provides detailed explanations should a problem arise with
terminal equipment, communication circuit difficulties, central system
recovery difficulties, etc., along with in-house procured terminal problem
handling instructions. Id. at 5. Thus, TSE is more than a user manual for
how to trade on the Tokyo Stock Exchange, but also includes how to
electronically connect to the Tokyo Stock Exchange.
The evidence that is before us, both circumstantial and direct, supports
a finding that TSE was made accessible to securities companies and all of
the personnel in such a company, who would have employed technical
support personnel, such as computer scientists or engineers, who would have
needed a copy of the TSE manual to configure their own system to
electronically communicate, and to continue to trade securities, with the
Tokyo Stock Exchange. Thus, the securities companies would have
included computer scientists or engineers, as well as traders. We find that
all such persons who worked at the securities companies would have been
interested members of the relevant public.
43

CBM2016-00054
Patent 7,693,768 B2

2. Patent Owner’s Contentions
Patent Owner argues that the evidence fails to prove TSE is prior art.
PO Resp. 14–24. We begin by addressing Patent Owner’s assertions that
Mr. Kawashima’s testimony should be given little or no weight because his
testimony is not corroborated and he is an interested witness. Id. at 22–24.
Patent Owner argues that Kawashima’s employer—the Tokyo Stock
Exchange—challenged Patent Owner’s Japanese counterpart to U.S. Patent
No. 6,766,304 by providing TSE to the Japanese Patent Office. Id. at 24.
Patent Owner further argues that the Tokyo Stock Exchange wanted the
Japanese Patent Office to rely on “these documents” to prevent Patent
Owner from obtaining the Japanese patent. Id. (citing Ex. 2163, 39:23–
40:20, 42:14–43:10; Ex. 1019, 110:10–14). Patent Owner concludes that
because Kawashima’s employer tried to use TSE to prevent Patent Owner
from obtaining the 6,766,304 patent, Kawashima is not disinterested. Id.
We are not persuaded that Kawashima is an interested witness and
that his testimony should be given little weight. First, the patent involved
here is not the same as the patent involved before the Japanese Patent Office
and we do not understand what Patent Owner means by “these documents.”
In any event, Patent Owner has not shown that what occurred in a
proceeding before the Japanese Patent Office involving a different patent is
relevant to the facts of this proceeding. Patent Owner has not shown
sufficiently that Mr. Kawashima had an interest, himself, regarding the
outcome of the Japanese Patent Office proceeding. Even assuming that the
Tokyo Stock Exchange had an interest in that earlier proceeding, it does not
follow necessarily that Mr. Kawashima himself had an interest in it as well.
44

CBM2016-00054
Patent 7,693,768 B2
We have considered the evidence to which we are directed, but do not find
that evidence (passages from Mr. Kawashima’s original and cross
examination) to support Patent Owner’s assertions that Mr. Kawashima is
biased. Indeed, when asked if the Tokyo Stock Exchange preferred that
vendors like Trading Technologies not have patents on trading screens, Mr.
Kawashima testified, that that was “not something I would know.” Ex.
2163, 41:6–12. Lastly, Patent Owner has not demonstrated sufficiently that
Mr. Kawashima’s meetings with Petitioner’s attorneys prior to his cross
examination is demonstrative of “bias.” PO Resp. 24. Patent Owner has not
shown why Mr. Kawashima’s meeting with Petitioner’s counsel prior to his
deposition would make him biased. For these reasons, we are not persuaded
that Mr. Kawashima is an interested witness.
We also are not persuaded by Patent Owner’s argument that because
Mr. Kawashima’s testimony is uncorroborated we should give it little
weight. PO Resp. 22–23. In support of the argument, Patent Owner cites to
cases regarding an interested witness. See, e.g., id. at 22. As explained
above, Patent Owner has not shown sufficiently that Mr. Kawashima is an
interested witness. The other arguments made, e.g., that there is no evidence
of when the manuals were picked up or by whom or what a person did with
the document once they received it, are factors to consider when determining
whether a document was publically accessible, which we address below.
For all of these reasons, we credit the testimony of Mr. Kawashima.
We find that the facts discussed above regarding Mr. Kawashima’s
testimony (Ex. 1019) are supported by a preponderance of the evidence and

45

CBM2016-00054
Patent 7,693,768 B2
are undisputed.8 Although Mr. Kawashima was cross-examined, Patent
Owner does not direct attention to portions of his cross examination
testimony, or any other evidence, that would outweigh Mr. Kawashima’s
original testimony (Ex. 1019) regarding what the TSE manual was, why it
was distributed, how it was distributed, when it was distributed, and to
whom it was distributed.
Patent Owner argues that Petitioner has not established that TSE was
publically available. PO Resp. 14–16. In particular, Patent Owner argues
that there is no evidence that anyone actually received a copy of TSE or
whether the receivers of such document were persons of ordinary skill in the
art. Id. (quoting Blue Calypso, LLC v. Groupon, Inc., 815 F.3d 1331, 1348
(Fed. Cir. 2016) (a reference will be considered publicly accessible if it was
“disseminated or otherwise made available to the extent that persons
interested and ordinarily skilled in the subject matter or art exercising
reasonable diligence, can locate it.’”)).
Patent Owner’s argument that there is no evidence that anyone
actually received a copy of TSE is misplaced. The proponent of a document
need not show that particular members of the interested public actually
received the information. See, e.g., In re Enhanced Sec. Research, LLC, 739
F.3d 1347, 1354 (Fed. Cir. 2014); Constant v. Advanced Micro-Devices,
Inc., 848 F.2d 1560, 1569 (Fed. Cir. 1988); Blue Calypso, LLC v. Groupon,
Inc., 815 F.3d 1331, 1348 (Fed. Cir. 2016). Rather, accessibility goes to the
8

The burden of showing something by a preponderance of the evidence
simply requires the trier of fact to believe that the existence of a fact is more
probable than its nonexistence. Concrete Pipe & Products of California,
Inc. v. Construction Laborers Pension Trust for Southern California, 508
U.S. 602, 622 (1993).
46

CBM2016-00054
Patent 7,693,768 B2
issue of whether persons interested and ordinarily skilled in the subject
matter could obtain the information if they wanted to. Id. Here, we have
before us persuasive evidence that TSE was made publically accessible by
providing two copies to each of the about 200 participants (securities
companies for banks) in the Tokyo Stock Exchange, who were free to do
whatever they wanted with their copies of the publication. Ex. 1019, 12, 14.
For these same reasons, we are not persuaded by Patent Owner’s implicit
argument that Petitioner need show that the two copies of the TSE manual
available for pick up by the 200 participant companies actually were picked
up. In any event, Mr. Kawashima testified that he personally distributed the
TSE manual to some of the participants. Ex. 2163, 60:13–24.
Patent Owner argues that the participants (securities companies for
banks) who allegedly received copies of the TSE manual are not persons of
ordinary skill in the art, which Patent Owner submits would be GUI
designers, and not traders at a stock exchange. PO Resp. 16–17. We are not
persuaded by Patent Owner’s argument.
The patent before us is a business method patent, the subject matter of
which is represented by both the business and technical sides of the
spectrum. Here, where the patent is directed to trading commodities on an
exchange using a computer, we must consider all interested members of the
public, which would include not only technical personnel, but traders as
well. Traders of commodities at securities companies for banks would be
interested members of the public.
In any event, there is sufficient evidence for us to find that the
securities companies for banks also would have employed technical
personnel as well, and even a “GUI designer.” As explained above, the
47

CBM2016-00054
Patent 7,693,768 B2
purpose of the TSE manual was to alert the securities companies of changes
to the way the trading terminals of the Tokyo Stock Exchange operated. Ex.
1019, 12, 14. The TSE manual includes information and instructions of how
to electronically connect to the Tokyo Stock Exchange. TSE is not simply a
“how to trade commodities” user manual as Patent Owner seems to suggest.
The strong circumstantial evidence supports finding that TSE was made
accessible to securities companies who would have employed technical
support personnel, such as computer scientists or engineers, to configure
their system to electronically communicate, and to continue to trade
securities, with the Tokyo Stock Exchange, based on the changes in
operation of the terminals explained in the TSE manual. Thus, the securities
companies would have included computer scientists or engineers, as well as
traders. Lastly, even assuming that a person of ordinary skill in the art is
narrowly limited to a “GUI designer” as Patent Owner asserts, we find that
securities companies for banks (“participants”) provided their own front-end
order entry software, and that such participants would have employed GUI
designers to formulate the front-end order entry software to facilitate trading
on the Tokyo Stock Exchange. Ex. 2169 ¶ 32.
Patent Owner argues that because participants of the Tokyo Stock
Exchange were contractually prohibited from modifying the terminals or
software, there was no reason to provide the manual to GUI designers. PO
Resp. 17. Patent Owner has not shown sufficiently that such a contractual
provision would have prevented persons interested or even ordinarily skilled
in the subject matter from receiving copies of TSE. For all of the above
reasons, we are persuaded that TSE was publically accessible.

48

CBM2016-00054
Patent 7,693,768 B2
Patent Owner additionally argues that there is no evidence that a
person having ordinary skill in the art could have located TSE using
“reasonable diligence,” because there is no evidence that such a person
searching for TSE would find it, such as being placed in a library, indexed,
or catalogued, or directions to locate TSE. PO Resp. 20. We determine
above, that the record evidence supports a determination that TSE was
publically accessible to persons interested and ordinarily skilled in the
subject matter. Patent Owner’s arguments are premised on the notion that
none of the personnel at the securities banks are interested and ordinarily
skilled in the subject matter, which we reject. Thus, Patent Owner’s
argument is moot.
For all of the above reasons, we determine that TSE qualifies as prior
art.
3. Claims 1 and 23
With respect to claims 1 and 23, Petitioner cites TSE as teaching the
majority of limitations of the claims. Pet. 31–53. Petitioner cites Belden for
the “single action” limitation in the claims, including the “setting” and
“sending” via the “single action.” See id. at 41–46, 50–53. Petitioner
proposes modifying TSE based on the teachings of Belden. See id. at 36–37.
The testimony of Petitioner’s declarant Kendyl Román supports Petitioner’s
analysis. See Ex. 1007 ¶¶ 77–123.
TSE describes a trading system that facilitates trading with an
electronic exchange by receiving bid and offer information, displaying it to a
user, and accepting and sending bid and offer orders. Ex. 1017, 6–13, 35. A
trading terminal displays a GUI for depicting market information on a Board

49

CBM2016-00054
Patent 7,693,768 B2
Screen, which is shown in the figure reproduced below (“TSE’s Board
Screen”).

The figure reproduced above is illustrated on page 107 of TSE and depicts
TSE’s Board Screen. The Board Screen includes a central order price at
column 11—a price display. Id. at 111. The Board Screen can be placed in
a “Scrolling Screen” mode where “the price display positions do not change
automatically.” Id. at 115. TSE describes a number of ways to scroll the
Board Screen to vertically scroll, including using the up/down scroll buttons,
vertically moving the cursor, and pressing the up or down key on the
keyboard. Id. at 116. To the left and right of order price column 11, at a
location corresponding to price, are bid and offer indicators consisting of
numbers representing the quantity of orders in respective columns 12, 13,
and 14. Id. at 112. The Board Screen is automatically updated with new bid
50

CBM2016-00054
Patent 7,693,768 B2
and offer information from a central system every three seconds. Id. at 91.
TSE explains that “[t]he board information on each Board Screen is
automatically updated even if it has been scrolled vertically.” Id.
Román’s FIG. A, reproduced below, illustrates the market information
received and displayed in TSE.

Román’s FIG. A is an annotated version of the figure illustrated on page 107
of TSE depicting a Board Screen, and is found at page 45 of the Román
Declaration. Mr. Román’s annotations indicate the portions of the Board
Screen considered to correspond to various claim elements. The ’768 patent
51

CBM2016-00054
Patent 7,693,768 B2
explains that “[f]or a commodity being traded, the ‘inside market’ is the
highest bid price and the lowest ask price.” Ex. 1001, 4:60–62. As
illustrated above in Román’s FIG. A, TSE receives and displays inside
market information.
TSE describes a user entering an order by double-clicking at a
location along the price axis, which automatically displays a pop-up window
displaying the selected price. Id. at 134, 137. A Figure appearing on page
137 of TSE is reproduced below.

The Figure appearing on page 137 of TSE depicts the displaying of the popup new order entry window. TSE discloses that double-clicking on a
specific area of the Board/Quotation Screen displays a new order entry
window, which is automatically set with the information from the doubleclicked area. Ex. 1017, 133, 139. The new order entry window includes a
send button for sending the order to a central system. Id. at 137, 143.
Clicking the send button sends an order to the exchange. Id. at 143.
52

CBM2016-00054
Patent 7,693,768 B2
As Petitioner points out, “TSE does not teach that the claimed
‘sending’ is achieved ‘in response to a selection of a particular location of
the order entry region by a single action of a user input device.’” Pet. 34.
Petitioner relies upon Belden to teach single-action order entry. Id.
Belden is titled “Simulated Live Market Trading System” and
published on October 4, 1990. Ex. 1012, (54), (43). Belden discloses an
electronic trading system for trading commodities, which has a display with
icons representing active trades. Id. at 26–27.9 Belden discloses that
“[t]rading is done by using the mouse to move a cursor onto the icon of a
trader and pushing a button, i.e., ‘clicking’ on the icon.” Id. at 12. Belden
discloses that a trader “benefits from the speed with which he can take or
liquidate positions.” Id. at 4.
Petitioner provides rationale for combining the teachings of Belden
with that of TSE. Pet. 36–37, 45–46, 52–53. Petitioner reasons that a
person skilled in the art “would have been motivated to incorporate Belden’s
single-action order techniques in TSE’s electronic trading system to achieve
the predictable and desirable results of reducing the time needed to place an
order and reduce operator error.” Pet. 37 (citing Ex. 1007 ¶ 90). Petitioner
additionally notes that “Belden provides motivation for the combination.”
Pet. 36 (citing Ex. 1012, 4 (noting the speed benefits)).
Upon review of Petitioner’s evidence and analysis and taking into
account Patent Owner’s arguments and evidence, discussed below, we
determine the Petitioner shows by a preponderance of the evidence that
claims 1 and 23 are unpatentable under 35 U.S.C. § 103 over TSE and
9

We refer to the pagination inserted into Exhibit 1012 and not the original
pagination.
53

CBM2016-00054
Patent 7,693,768 B2
Belden. In reaching our determination, we considered Patent Owner’s
argument and evidence of secondary considerations, also discussed below.
Patent Owner disputes that TSE and Belden teaches all the limitations
of claims 1 and 23 and argues that Petitioner fails to provide any evidence of
motivation to combine Belden and TSE. PO Resp. 24. First, Patent Owner
disputes that TSE and Belden teaches the “order entry region” and “single
action” limitations. PO Resp. 25–26. Patent Owner argues that “TSE does
not include the claimed ‘order entry region’ because selecting an area along
the alleged price axis only opens a separate order entry window, it cannot be
used to send orders.” PO Resp. 35 (citing Ex. 1017, 137). Patent Owner
explains that “[b]ecause of the separate order entry window, TSE does not
disclose the claimed ‘order entry region’ and functions of the claimed
‘graphical areas’ along a price axis.” PO Resp. 26 (citing Ex. 2169 ¶ 166).
With respect to Belden, Patent Owner argues that Belden does not suggest
the order entry region because “it is completely lacking any showing of a
price axis and therefore cannot possibly disclose the claimed order entry
region.” PO Resp. 26. Patent Owner further contends that “even if TSE and
Belden were combined in the manner suggested by Petitioners, one still
would not arrive at the claimed invention because the suggested combination
lacks an ‘order entry region’ as claimed.” Id. Patent Owner further
contends that “Belden does not show a single action to both set parameters
and send an order from an area that correspond to a price level along a price
axis.” Id. at 26–27.
The problem with Patent Owner’s response is that it does not address
the combined teachings of TSE and Belden asserted by Petitioner. See In re
Merck & Co., Inc. 800 F.2d 1091, 1097 (Fed. Cir. 1986) (Non-obviousness
54

CBM2016-00054
Patent 7,693,768 B2
cannot be shown by attacking references individually when the ground is
predicated upon the teachings of a combination of references.) Regardless
of whether Belden sends an order message, or executes a trade (as Patent
Owner contends), there is no dispute it does this with a single action
command received by a graphical area (clicking on an icon). See, e.g., Ex.
1012, 12, 33. As noted above, Petitioner’s challenge proposes modifying
TSE to send its orders based on a “single action,” which is taught by Belden
as explained above. There is no dispute, and we agree, that TSE teaches
sending trade orders. See PO Resp. 25–26 (explaining that in TSE,
“selecting an area along the price axis only opens a separate order entry
window” and “clicking ‘send[]’ to send the order”). There is also no
dispute, and we agree, that TSE teaches automatically setting a price for the
trade order. See Ex. 1017, 137 (“Depending on the place that is double
clicked, the . . . ‘Order Price’ . . . [is] set automatically.”). Petitioner’s
proposed modification simply eliminates opening the separate window used
to send trade orders in TSE and, instead, sends those orders automatically
with the single action that was used previously to open the order entry
window. The combined teachings of TSE and Belden provide an order entry
region having the single action features recited in the claims.
Second, Patent Owner disputes that TSE and Belden teaches the
claimed first and second fixed locations and updating the display of the first
and second indicators. PO Resp. 27–29. Patent Owner argues that “TSE
does not disclose that the bid/ask quantity indicators are updated on the
display in scroll mode.” Id. at 27–28. Patent Owner also argues that “TSE
does not disclose that the user can bring up the new order entry window
while in scroll mode” because “the scroll mode does not display updated
55

CBM2016-00054
Patent 7,693,768 B2
market conditions . . . and as such a trader would not want to being the order
entry process from a screen that does not accurately convey market
conditions.” Id. at 28–29. Contrary to Patent Owner’s argument TSE states
that “[t]he principal features relating to the display of board and quotation
information are . . . [t]he board information on each Board Screen is
automatically update[d] even if it has been scrolled vertically.” Ex. 1017,
91; see also Ex. 1007 ¶ 102 (testimony of Mr. Román). Patent Owner points
to the testimony of Mr. Abilock, a Japanese translator, to assert that “the
Japanese version of TSE does not make clear whether this updating occurs
in memory only or on screen” and concludes that a person of ordinary skill
in the art would have understood that the board information is only updated
in memory. PO Resp. 28 (Ex. 2178 ¶¶ 20, 23–26). Mr. Abilock is a
translator, and his testimony does not sufficiently support Patent Owner’s
conclusion as to what would be understood by a person of ordinary skill in
the art. See Pet. Reply 16, n. 1. We, thus, are not persuaded by Patent
Owner that TSE does not permit the user to access the new order entry
window in scroll mode. See Pet. Reply 16–17.
Third, Patent Owner argues that “Petitioners’ purported motivation to
combine—that Belden is ‘applicable to all markets’ . . . is misplaced” and
that “‘speed’ in Belden refers to instantaneous trade-making of open outcry
pits.” PO Resp. 29–30. Regardless of the specific type of market to which
Belden is related, we are persuaded that one skilled in the art would have
appreciated that reducing the number of steps required to execute an order
would result in a decrease in the amount of time required to place that order,
and that users in various types of markets would have appreciated that
mitigating the delay between choosing to place an order and placing that
56

CBM2016-00054
Patent 7,693,768 B2
order would be beneficial. Patent Owner also argues that “TSE actually
teaches away . . . by instructing the trader to click on the board screen to
open an entirely separate new order input window. . . .” PO Resp. 31–32. A
reference teaches away from a claimed invention if it “criticizes, discredits,
or otherwise discourages” modifying the reference to arrive at the claimed
invention. In re Fulton, 391 F.3d 1195, 1201 (Fed. Cir. 2004). A disclosure
of instructing the trader to click on the board screen to open an entirely
separate new order input window does not discourage modifying TSE to
alternatively using single action order entry.
Patent Owner further alleges that Petitioner is using impermissible
hindsight to arrive at the claimed invention and not from teachings of Belden
or TSE. PO Resp. 32. Patent Owner’s argument is not persuasive because it
does not address Petitioner’s supporting evidence. As discussed above, we
determine that Petitioner has shown by a preponderance of the evidence that
one of ordinary skill in the art would have combined TSE and Belden. See
Pet. 36–37 (citing Ex. 1007 ¶ 90; Ex. 1012, 4). Further, Patent Owner’s own
declarant, Mr. Thomas, indicates that single-action, as taught by Belden, is a
known alternative for order tickets. See Ex. 1063, 72:7–74:10; Ex. 1008 ¶¶
19–20.
For the reasons set forth above, we are persuaded that Petitioner has
established, by a preponderance of the evidence that claims 1 and 23 are
taught by the combination of TSE and Belden, and that one skilled in the art
would have combined those teachings.

57

CBM2016-00054
Patent 7,693,768 B2
4. Claims 2–5, 10, 15, 16, 18, and 21–22
Petitioner additionally challenges claims 2–5, 10, 15, 16, 18, and 21–
22 as being unpatentable over TSE and Belden. Pet. 73–75, 77–80. We
have reviewed Petitioner’s challenges to those claims, which Patent Owner
does not dispute, as well as the evidence supporting those challenges.
We are persuaded by Petitioner’s arguments and evidence, which we
adopt, that the features recited in those claims are taught by the combination
of TSE and Belden and that one skilled in the art would have combined
those teachings. We determine the Petitioner shows by a preponderance of
the evidence that claims 2–5, 10, 15, 16, 18, and 21–22 are unpatentable
under 35 U.S.C. § 103 over TSE and Belden

5. Claim 6
Claim 6 depends from claim 4 and further recites “dynamically
displaying an entered order indicator in association with a price level along
the price axis, wherein the entered order indicator represents an order
pending at the electronic exchange.” Ex. 1001, 12:56–60.
Petitioner points to the figure on page 107 of TSE, reproduced above,
as showing an entered order indicator. Pet. 55–56. Petitioner argues that the
“ask order for a quantity of 5 at a price level of 13023” is an entered order
indictor. Id. at 5 (citing Ex. 1007 ¶ 132).
Upon review of Petitioner’s evidence and analysis and taking into
account Patent Owner’s arguments and evidence, discussed below, we
determine the Petitioner shows by a preponderance of the evidence that
claim 6 is unpatentable under 35 U.S.C. § 103 over TSE and Belden.
58

CBM2016-00054
Patent 7,693,768 B2
Patent Owner disputes that TSE discloses an entered order indicator.
PO Resp. 32–33. Patent Owner argues that there is no display in TSE to
represent a user’s trade order and that “in TSE the bids and asks at each level
of the display represent all of the orders pending.” Id. Patent Owner’s
argument is not persuasive because it is not commensurate with the scope of
the claim. As discussed above, claim 6 does not require the entered order
indicators to represent a user’s trade order.

6. Claims 7–9
Claim 7 depends from claim 6 and further recites “sending a message
to the electronic exchange to delete the order represented by the entered
order indicator in response to a single action of the user input device with a
pointer of the user input device positioned over the entered order indicator.”
Ex. 1001, 12:61–65. Claims 8 and 9 depend from claim 7.
Petitioner argues:
Each of TSE and Belden teaches that traders interact with
a GUI on a client device to “send[] a message to the electronic
exchange to delete” an order. (TSE at 0006-13 (overview of
system, including clients), 0077-80 (clients exchanging
messages with central system), 0143 (sending input order to
central system), 0155 (canceling orders); Belden 0014-19
(describing interaction between user terminals and host), 0037
(canceling orders).)
Belden further teaches deleting an order “represented by
the entered order indicator in response to a single action of the
user input device with a pointer of the user input device
positioned over the entered order indicator.” Belden teaches that
a trader can cancel an entered order using a mouse by clicking on
the order in the trading arena. (Belden at 0037.) For example,
“[t]o cancel a bid in MAR89 bonds” using a mouse, “point and
59

CBM2016-00054
Patent 7,693,768 B2
click on your bid icon for MAR89 bonds with the mouse.” (Id;
see also id. at 0038 (canceling all bids).)
Thus, both TSE and Belden teach canceling trade orders.
It would have been obvious to a POSA to implement Belden’s
single-action order canceling in TSE’s electronic trading system
to achieve the predictable and desirable results of reducing the
time needed to cancel an order and of reducing operator error.
(Román Decl. ¶ 136; see also Shneiderman at 0101-02 (desirable
to reduce number of operator actions such as keystrokes).)
Pet. 56–57. Patent Owner disagrees and argues that “the Petition fails to
provide any motivation to combine the single-action deletion [of Belden]
with TSE.” PO Resp. 34.
We are not persuaded by Petitioner’s arguments and evidence that the
combination of TSE and Belden teaches the limitation of claim 7. 10
“In an inter partes review, the burden of persuasion is on the petitioner to
prove ‘unpatentability by a preponderance of the evidence,’ 35 U.S.C. §
316(e), and that burden never shifts to the patentee.” In re Magnum Oil
Tools Int'l, Ltd., 892 F.3d at 1375 (quoting Dynamic Drinkware, LLC v.
Nat'l Graphics, Inc., 800 F.3d 1375, 1378 (Fed. Cir. 2015). Claim 7
depends from claim 6 and, as discussed above, Petitioner relies upon the buy

10

As Petitioner notes, we rejected a similar argument by Patent Owner in
CBM2015-00181. Pet. Reply 17–18 (citing Ex. 1060, 52–55). U.S. Patent
No. 7,676, 411 B2 (“the ’411 patent”) was the subject of claim of
CBM2015-00181. Ex. 1060, 1. Unlike the claims here, the claim 9 of the
’411 patent explicitly required that the entered order indicator represented a
user’s trade order. Id. at 52. In CBM2015-00181, Petitioner did not cite to
TSE’s bid and ask quantities to teach the entered order indictor but cited to
Belden and argued that it would have been obvious to display the entered
order indicator aligned with the price axis in TSE. See id. at 52–54.
Petitioner does not make this argument here.
60

CBM2016-00054
Patent 7,693,768 B2
and ask quantities on the TSE’s Board Screen depicted in the figure on page
107 of TSE to teach the claimed entered order indicator. Pet. 55–5.
Petitioner’s argument with respect to claim 7 does not sufficiently explain
why one of ordinary skill in art would have modified TSE such that an order
can be canceled by a single action of the user input device with a pointer of
the user input device positioned over the buy and ask quantities on the TSE’s
Board Screen depicted in the figure on page 107. Mr. Román also does not
provide a sufficient explanation. See Ex. 1007 ¶ 136. “To satisfy it burden
of proving obviousness, a petitioner cannot employ mere conclusory
statements. The petitioner must instead articulate specific reasoning, based
on evidence of record, to support the legal conclusion of obviousness.” In re
Magnum Oil Tools Int'l, Ltd., 892 F.3d at 1380 (citing KSR, 550 U.S. at
418).
We determine the Petitioner fails to show by a preponderance of the
evidence that claims 7–9 are unpatentable under 35 U.S.C. § 103 over TSE
and Belden.

7. Claim 11
Claim 11 depends from claim 1 and further recites “wherein the bid
and ask display regions are displayed in a window, the method further
comprising centering the display of the first and second indicators in the
window upon receipt of a centering instruction.” Ex. 1001, 13:12–15.
Petitioner contends that selection of the “home button [H]” while in
the Scroll Screen in TSE teaches this feature. Pet. 58–60 (citing Ex. 1017,
115–116; Ex. 1007 ¶ 142). Upon review of Petitioner’s evidence and
analysis and taking into account Patent Owner’s arguments and evidence,
61

CBM2016-00054
Patent 7,693,768 B2
discussed below, we determine the Petitioner shows by a preponderance of
the evidence that claims 11 is unpatentable under 35 U.S.C. § 103 over TSE
and Belden.
Patent Owner argues that “[t]his is not a manual re-centering
command because it switches between modes (scroll mode to basic-board
mode), also referred to as a modal shift, [and] returns the user to the basic
Board screen.” PO Resp. 35. Patent Owner contends that “a [person of
ordinary skill in the art] would not understand this mode switching to be a
re-centering command.” Id. (citing Ex. 2169 ¶ 170).
Patent Owner’s contentions are not persuasive. There is no dispute,
and we agree, that TSE teaches manual re-centering by switching between
modes. See Ex. 1017, 116 (discussing switching from the “Scrolling
Screen” to the “Basic Board Screen” by “[u]se the mouse to click the ‘H’
(Home) button on the Board Screen); see also id. at 110 (further explaining
operation of the “home button,” noting that “[c]licking [the home] button
with the mouse after the board information has been scrolled causes the
screen to return to the Basic Board Screen, with the board display center
price at the center”). The fact that re-centering is achieved by switching
between modes does not change the fact that this is a re-centering command.
The testimony from Patent Owner’s declarant, Mr. Thomas, is also
unpersuasive because it, too, is not tied to any requirement in the claims, and
instead requires re-centering without changing modes. The claims simply
require “re-centering,” and are silent as to whether a mode must remain the
same. See Ex. 2169 ¶ 170.

62

CBM2016-00054
Patent 7,693,768 B2

8. Claims 14, 17, 19, and 20
With respect to dependent claims 14, 17, 19, and 20, Petitioner
contends that the combination of TSE and Belden teaches each limitation of
the claims except that the first and second locations of the order entry region
are within a cell and that the areas in the bid and ask display regions are a
cell of a grid. Pet. 67–71. Petitioner contends that TSE suggests that its
Board Screen uses a grid of cells because the figures on pages 137 and 138
of TSE depicts a cursor in a rectangular region of price columns 11 and 12
but does not explicitly disclose cells. Id. at 67. Petitioner relies upon
Cooper to teach that it is well known to use a grid of cells because it allows
for objects to neatly line up. Id. at 68. Petitioner states:
it would have been obvious to a POSA to combine a grid of cells
(as disclosed by Cooper) with TSE’s Board Screen. . . . The
combination would have been nothing more than combining
prior art GUI elements according to known methods to yield the
predictable and desirable result of aligning or arranging the
various number in the rows and columns of TSE’s Board Screen.
Id. at 68. The testimony of Mr. Román supports Petitioner’s analysis. See
Ex. 1007 ¶¶ 161–166.
We are persuaded by Petitioner’s arguments and evidence, which we
adopt, that the features recited in these claims are taught by the combination
of TSE, Belden, and Cooper and that one skilled in the art would have
combined those teachings. We determine the Petitioner shows by a
preponderance of the evidence that claims 14, 17, 19, and 20 are
unpatentable under 35 U.S.C. § 103 over TSE, Belden, and Cooper.

63

CBM2016-00054
Patent 7,693,768 B2
9. Secondary Considerations
As part of our obviousness analysis, we consider the arguments and
corresponding evidence submitted by Patent Owner regarding secondary
considerations of non-obviousness. See Graham v. John Deere Co., 383
U.S. 1, 17–18 (1966). To be relevant, evidence of non-obviousness must be
commensurate in scope with the claimed invention. In re Kao, 639 F.3d
1057, 1068 (Fed. Cir. 2011). There must be a nexus between the merits of
the claimed invention and the evidence of secondary considerations. In re
GPAC Inc., 57 F.3d 1573, 1580 (Fed. Cir. 1995). “Nexus” is a legally and
factually sufficient connection between the objective evidence and the
claimed invention, such that the objective evidence should be considered in
determining non-obviousness. Demaco Corp. v. F. Von Langsdorff
Licensing Ltd., 851 F.2d 1387, 1392 (Fed. Cir. 1988).
Patent Owner contends that “there is a mountain of objective indicia
of non-obviousness that proves the claimed invention is not obvious.” PO
Resp. 43.

a. MD Trader
Patent Owner contends that “MD Trader [is] the commercial
embodiment of the invention” (PO Resp. 45, 56), and refers to MD Trader
throughout its discussion of secondary considerations of non-obviousness
(id. at 35–78).
“There is a presumption of nexus for objective considerations when
the patentee shows that the asserted objective evidence is tied to a specific
product and that product ‘is the invention disclosed and claimed in the
patent.” WBIP, LLC v. Kohler Co., 829 F.3d 1317, 1329 (Fed. Cir. 2016).
64

CBM2016-00054
Patent 7,693,768 B2
A patent challenger may rebut the presumption of nexus with evidence that
shows the proffered objective evidence was due to extraneous factors other
than the patented invention. Id.
As Petitioner notes, however, “the [Patent Owner Response] fails to
explain how MD Trader embodies the claims.” Pet. Reply 20. The only
discussion provided in Patent Owner’s Response as to how MD Trader
includes the features recited in the challenged claims is a general allegation
noted above that “MD Trader [is] the commercial embodiment of the
invention . . . Ex. 2173, ¶¶ 20–23; Ex. 2169, ¶¶ 97, Ex. 2170, ¶¶ 24–
31Ex.2169; Ex.2233 (explaining how each claim element is present in MD
Trader).” PO Resp. 56. Such an incorporation by reference is inappropriate,
as Patent Owner’s Response fails to explain how MD Trader includes the
features of the claims. See 37 C.F.R. § 42.6(a)(3) (“Arguments must not be
incorporated by reference from one document into another document.”);
Paper 38, 3–4 (explaining that we will not consider any arguments that are
not adequately explained in the Patent Owner’s Response).
Nevertheless, and as explained below, Patent Owner’s contentions
regarding secondary considerations fail even if we assume that MD Trader
includes the claim elements.

b. Unrecognized Problems
Patent Owner contends that “[t]he inventive GUI tool solved problems
presented by conventional GUIs,” which “exhibited problems with speed
and accuracy.” PO Resp. 46. Patent Owner, however, offers no persuasive
authority for the proposition that “unrecognized problems” is a secondary
consideration of non-obviousness. See id. at 47 (citing Leo Pharm. Prods.,
65

CBM2016-00054
Patent 7,693,768 B2
Ltd. v. Rea, 726 F.3d 1346, 1353–54, 1357 (Fed. Cir. 2013)). An inventor’s
discovery of a previously unrecognized problem is generally accounted for
in the analysis of the scope of the prior art and a motivation to combine prior
art elements, rather than it being a secondary consideration of nonobviousness. See Leo Pharm. Prods., 726 F.3d at 1353–54; see also S.
Alabama Med. Sci. Found. v. Gnosis S.P.A., 808 F.3d 823, 827 (Fed. Cir.
2015). We note that Patent Owner’s contentions regarding “unrecognized
problems” are not tied to any of the asserted references or rationale
discussed above with respect to the challenges to claims 1–23 under § 103.
Accordingly, these contentions are not persuasive of non-obviousness.

c. Unexpected Results
Patent Owner contends that “[u]nexpected superior properties from an
invention support the conclusion that the invention was not obvious to a
[person of ordinary skill in the art].” PO Resp. 48 (citing Procter & Gamble
Co. v. Teva Pharm. USA, Inc. 566 F.3d 989, 997 (Fed. Cir. 2009); In re
Soni, 54 F.3d 746, 750 (Fed. Cir. 1995)). As the authority cited by Patent
Owner explains,
[t]he basic principle behind [unexpected results supporting nonobviousness] is straightforward—that which would have been
surprising to a person of ordinary skill in a particular art would
not have been obvious. The principle applies most often to the
less predictable fields, such as chemistry, where minor changes
in a product or process may yield substantially different results.
In re Soni, 54 F.3d at 750.
Patent Owner contends that “[a]lthough the invention achieved
Brumfield’s intended benefit of increasing the likelihood that the user would
get his/her desired price, this was not a problem widely appreciated by
66

CBM2016-00054
Patent 7,693,768 B2
others.” PO Resp. 48. Patent Owner further contends that “the invention
provided several other unexpected benefits as well.” Id. This is not
persuasive of “unexpected results.”
Patent Owner does not allege that the GUI operated in some
unexpected manner. Indeed, it is hard to imagine computer code (i.e., a set
of instructions) operating in an unexpected manner, particularly when the
’786 patent describes the programming associated with the GUI as
insignificant. See, e.g., Ex. 1001, 4:60–67 (explaining that “present
invention processes [price, order, and fill] information and maps it through
simple algorithms and mapping tables to positions in a theoretical grid
program” and “[t]he physical mapping of such information to a screen grid
can be done by any technique known to those skilled in the art”).
Accordingly, we are not persuaded by Patent Owner’s contentions
regarding unexpected results.

d. Initial Skepticism
Patent Owner contends that “MD Trader was received with skepticism
by TT’s own sales personnel.” PO Resp. 52 (citing Ex. 2169 ¶¶ 99–100,
103; Ex. 2211, 715:19–716:18; Ex. 2173 ¶¶ 16–19; Ex. 2170 ¶¶ 22–28; Ex.
2171 ¶¶ 39–40; Ex. 2173 ¶¶ 16–19). Initially, we reiterate that “[a]rguments
must not be incorporated by reference from one document into another
document” (37 C.F.R. § 42.6(a)(3)) and arguments not made in the Patent
Owner’s Response will not be considered (Paper 38).
Patent Owner’s arguments related to “initial skepticism” are based
primarily on the premise that “a [person of ordinary skill in the art] would
have rejected outright a price axis with relative movement.” PO Resp. 54.
67

CBM2016-00054
Patent 7,693,768 B2
Those contentions are unpersuasive. As noted above, TSE expressly teaches
this feature. To the extent the other contentions related to “initial
skepticism” are directed to traders simply being resistant to change,
generally, those contentions are also unpersuasive. See, e.g., id. at 54
(discussing profitable traders being hesitant towards any type of change
because change can alter their confidence). Those contentions are not tied in
any meaningful way to the features of the claims.
That traders would have been resistant to accept anything different is
not persuasive of non-obviousness.

e. Commercial Success
Patent Owner contends that MD Trader “became a huge commercial
success.” PO Resp. 56. As noted above, Patent Owner does not explain, in
its Patent Owner Response, how MD Trader embodies the claimed
invention. Even if MD Trader includes each feature recited in the claims,
“[e]vidence of commercial success . . . is only significant if there is a nexus
between the claimed invention and the commercial success.” Ormco Corp.
v. Align Tech., Inc., 463 F.3d 1299, 1311–12 (Fed. Cir. 2006). As explained
above, the Patent Owner Response is silent as to any nexus between the
alleged commercial success and the claimed invention. Petitioner argues
there is no presumption of nexus, and that Patent Owner has not established
the requisite nexus. Pet. Reply 19–20. We agree with Petitioner.
Patent Owner admits that MD Trader is part of a suite of software and
not sold separately. Ex. 1064, 92:11–15. A limited exception to the
presumption of nexus exists where the patented invention is only a
component of the product to which the asserted objective considerations are
68

CBM2016-00054
Patent 7,693,768 B2
tied. Demaco, 851 F.2d at 1392. Here, because MD Trader is a component
of a suite of software, Patent Owner enjoys no presumption of nexus. Patent
Owner fails to offer any meaningful discussion of nexus in its Patent Owner
Response, other than a general assertion at the end of its discussion that
“MD Trader was successful due to the patented features.” PO Resp. 46.
Patent Owner’s contentions regarding commercial success fail for this
reason alone.
Even if we were to assume nexus, Petitioner persuasively rebuts that
presumption. Petitioner responds, for example, that Patent Owner’s increase
in sales could easily have been the result of increases in the market itself
during the relevant time period. Pet. Reply 24. Petitioner explains that “in
the U.S., both the trading volume and the number of actively traded
commodities contracts exploded in the early-to-mid 2000s” and “[t]rading
volume increased six-fold; the number of actively traded contacts increased
five-fold.” Id. (citing Ex. 1072, 35–37). Exhibit 1072 is a document from
the Commodity Futures Trading Commission (CFTC), and pages 35–37
support the trading volume increase alleged by Petitioner.
Petitioner also points to several unclaimed features being responsible
for the alleged commercial success. Pet. Reply 20–21. In support of this
contention, Petitioner cites Patent Owner’s own testimony from traders in
the industry (Ex. 2223), noting, for example, that “Ryan . . . testified that
MD Trader’s ability to display multiple trade windows . . . was a reason he
used MD Trader,” “Grisafi identified one-click re-centering as a key feature”
and “McElveen identified speed, precision, and one-click re-centering as []
key features.” Id. (citing Ex. 2223, 3–4, 22, 40). Patent Owner
acknowledges that, “in this industry . . . anything that is even remotely
69

CBM2016-00054
Patent 7,693,768 B2
appreciated as providing an edge is tried and spreads quickly if successful.”
PO Resp. 56 (emphasis added).
Furthermore, Patent Owner does not provide information regarding
sales volume or market share as compared to providers of competing
products. Rather, Patent Owner only alleges an increase in its own sales,
without reference to the market. See PO Resp. 56–61. This information,
without market share information, is only weak evidence, if any, of
commercial success. See In re Applied Materials 692 F.3d at 1299.

f. Copying
Patent Owner additionally contends that the invention was widely
copied by others. PO Resp. 62–69. “[C]opying requires the replication of a
specific product.” Iron Grip Barbell Co. v. USA Sports, Inc., 392 F.3d 1317,
1325 (Fed. Cir. 2004).
Patent Owner refers to products allegedly including the claimed
features, as well as consent judgements where others acknowledged
infringement. PO Resp. 62–69. This is not persuasive evidence of copying.
See Iron Grip, 392 F.3d at 1325 (“Not every competing product that
arguably falls within the scope of a patent is evidence of copying.
Otherwise every infringement suit would automatically confirm the
nonobviousness of the patent.”).
Although Patent Owner repeatedly alleges that others copied the
invention, there is no explanation, in the Patent Owner Response, to support
those alleged copiers attempting to replicate specific products. For example,
Patent Owner contends that “Mr. Deux, founder of licensee NinjaTrader,
also acknowledged copying of the invention.” PO Resp. 64 (citing Ex. 2169
70

CBM2016-00054
Patent 7,693,768 B2
¶¶ 128–130; Ex. 2247, 210:8–212:25). The evidence cited by Patent Owner,
however, does not support that contention. For example, the cited portion of
Exhibit 2247 is just another example of Patent Owner alleging copying
based on the existence of similar products.
Patent Owner has failed to establish widespread copying.

g. Industry Praise
Patent Owner contends that widespread praise in the industry also
supports non-obviousness. PO Resp. 69–71. In support of its “widespread
praise” contentions, Patent Owner notes, for example, that the invention was
characterized as a “unique vision,” “ingenious,” “paradigm change,”
“revolutionary… not just an incremental improvement,” “outside of the
box,” “huge innovation,” “significant advance,” “determining factor in our
success,” “radically different,” “far superior,” “very significant departure
[from the prior art],” “invaluable tool,” “stroke of genius,” “so significant
that I cannot put a price on its value.” Id. at 69–70. Patent Owner proceeds
to conclude that “[e]ach one of these was directed to the claimed features.”
Id. at 54.
As with commercial success, however, evidence of industry praise is
only relevant when it is directed to the merits of the invention claimed. See
Ormco, 463 F.3d at 1311. Patent Owner offers no sufficient explanation, in
its Patent Owner Response, as to how any of the alleged praise is due to
specific features that are present in the claims.

71

CBM2016-00054
Patent 7,693,768 B2
h. Industry Acquiescence
Patent Owner contends that non-obviousness is further shown by
“widespread acquiescence and acceptance in the industry, with many
licenses and consent judgments acknowledging infringement and validity.”
PO Resp. 71–72. Although licenses taken under the patent in suit may
constitute evidence of non-obviousness, only little weight can be attributed
to such evidence if the patentee does not demonstrate “a nexus between the
merits of the invention and the licenses of record.” In re GPAC Inc., 57 F.3d
at 1580 (internal quotation and citations omitted). Furthermore, as Petitioner
notes, litigation-induced licensing, alone, does not establish nonobviousness. See Pet. Reply 26 (citing EWP Corp. v. Reliance Universal
Inc., 755 F.2d 898, 907–8 (Fed. Cir. 1985)).
We note that Patent Owner’s contention regarding licensing to traders
is more related to commercial success than licensing in the context of
secondary considerations of non-obviousness. See PO Resp. 71 (discussing
traders purchasing software licenses, the MD Trader product).
i. Failure of Others
Patent Owner additionally contends that the alleged failure of others
to make the invention supports non-obviousness. PO Resp. 72–75. Patent
Owner’s contentions on this issue are not directed to any particular attempt
and failure of others to make the claimed invention. See id. Indeed, it is
difficult to image that would be the case with the claimed invention, as the
’768 patent explains that there is nothing special about the programming
required. Ex. 1001, 4:60–67.
Rather, Patent Owner’s contentions are directed to the allegation that
the claimed invention did not exist before arrived at by Patent Owner. PO
72

CBM2016-00054
Patent 7,693,768 B2
Resp. 72–75. This does not establish non-obviousness. Iron Grip, 392 F.3d
at 1325 (“Absent a showing of long-felt need or the failure of others, the
mere passage of time without the claimed invention is not evidence of
nonobviousness.”). Patent Owner does not allege any long-felt need existed.
In fact, Patent Owner advances the opposite position, that the problem was
not even recognized by others. See PO Resp. 74 (“Prior to the invention,
[persons of ordinary skill in the art] failed to even appreciate the
problems.”).
j. Other Evidence
Patent Owner additionally cites another party’s attempt to invalidate
the ’768 patent as evidence of non-obviousness. PO Resp. 75–76. Patent
Owner concludes that party’s “actions show that experts in the field
recognized that prior art, including the TSE, was insufficient to render the
invention obvious.” Id. at 76. We are apprised of no persuasive reason as to
why those contentions establish non-obviousness in this proceeding.

k. Weighing Secondary Considerations
As explained above, Patent Owner has not established the majority of
its alleged secondary considerations of non-obviousness. Weighing the
evidence before us, Patent Owner’s contentions regarding secondary
considerations of non-obviousness do not outweigh the strong case of
obviousness discussed above. For example, as noted above, TSE teaches
each feature of claim 1 other than the “single action” setting and sending,
which is taught by Belden. As noted above, Belden itself, for example,
provides motivation for the proposed modifications to TSE (e.g., increased
speed).
73

CBM2016-00054
Patent 7,693,768 B2
Accordingly, we are persuaded that Petitioner has established, by a
preponderance of the evidence, that claims 1–6 and 10–23 are unpatentable
under 35 U.S.C. § 103.

I. Motions to Exclude
1. Patent Owner’s Motion to Exclude
Patent Owner moves to exclude Exhibit 1016 (TSE) and Exhibit 1017
(TSE Translation). Paper 48 (“PO MTE”). Patent Owner seeks to exclude
Exhibits 1016 and 1017 because they have not been authenticated per rule
901 of the Federal Rules of Evidence (FRE). PO MTE 1. Patent Owner
further argues that Exhibit 1017 should be excluded under FRE 106 and 403
because it is incomplete and misleading. Id.
First, Patent Owner argues that Petitioner fails to sufficiently
authenticate Exhibits 1016 and 1017 as required by FRE 901. PO MTE 2–5;
PO MTE Reply 1–4. Petitioner relies upon the testimony of Mr.
Kawashima11 to authenticate Exhibits 1016 and 1017. PO MTE Opp. 1–10
(citing Exs. 1019, 2163). Patent Owner argues that the November 2005
deposition of Mr. Kawashima (Ex. 1019) does not sufficiently authenticate
Exhibits 1016 and 1017 for many of the same reasons discussed above with
respect to the public accessibility of TSE.
Patent Owner’s argument is not persuasive. Patent Owner has not
met its burden to show that either Exhibit 1016 or Exhibit 1017 should be
excluded from the record. For the same reasons as discussed above, Patent

11

Patent Owner argues that the November 2005 deposition testimony of Mr.
Kawashima’s (Exhibit 1019) is hearsay. MTE 2. Patent Owner, however,
does not move to exclude Exhibit 1019.
74

CBM2016-00054
Patent 7,693,768 B2
Owner’s arguments are unpersuasive. As Petitioner argues, Mr.
Kawashima’s testimony sufficiently establishes the authenticity. See PO
MTE Opp. 3–10.
Accordingly, we deny Patent Owner’s Motion to Exclude with respect
to Exhibits 1016 and 1017.
Second, Patent Owner argues Exhibit 1017 is inadmissible under FRE
106 and 403 because it is incomplete and misleading. PO MTE 5–6; PO
MTE Reply 4–5. Patent Owner argues that Exhibit 1017 “omit[s] two
translator’s notes from Patent Owner’s original translation.” Id. (citing Ex.
2178, 39–40).
Patent Owner’s argument is not persuasive. FRE 106 provides that:
If a party introduces all or part of a writing or recorded
statement, an adverse party may require the introduction, at that
time, of any other part —or any other writing or recorded
statement — that in fairness ought to be considered at the same
time.
As Petitioner points out, “rather than providing a basis for excluding
evidence, Fed. R. Evid. 106 is a vehicle for entry of additional evidence.”
Here, the two translator’s notes from Patent Owner’s original translation
already appear in the record. Ex. 2178, 39–40.
FRE 403 provides:
The court may exclude relevant evidence if its probative value is
substantially outweighed by a danger of one or more of the
following: unfair prejudice, confusing the issues, misleading the
jury, undue delay, wasting time, or needlessly presenting
cumulative evidence.
Patent Owner has not met its burden to show Exhibit 1017 should be
excluded from the record under FRE 304. Patent Owner asserts that Exhibit
1017 should be excluded but does not provide a sufficient explanation why
75

CBM2016-00054
Patent 7,693,768 B2
the probative value is substantially outweighed by being misleading. See PO
MTE 5–6. Here, the two translator’s notes from Patent Owner’s original
translation already appear in the record (Ex. 2178, 39–40) and we are
capable of assigning the appropriate weight to Exhibit 1017.
Accordingly, we deny Patent Owner’s Motion to Exclude with respect
to Exhibits 1017 for these additional reasons.

2. Petitioner’s Motion to Exclude
Petitioner moves to exclude various ones of Patent Owner’s Exhibits.
Paper 44. Because the outcome of this trial does not change based on
whether or not we exclude those exhibits, we dismiss Petitioner’s Motion to
Exclude as moot.
CONCLUSION
For the foregoing reasons, we determine that Petitioner has shown, by
a preponderance of the evidence, that claims 1–23 of the ’768 patent are
unpatentable.
ORDER
In consideration of the foregoing, it is hereby:
ORDERED that claims 1–23 of the ’768 are unpatentable;
FURTHER ORDERED that Patent Owner’s Motion to Exclude
Evidence is denied;
FURTHER ORDERED that Petitioner’s Motion to Exclude Evidence
is dismissed; and

76

CBM2016-00054
Patent 7,693,768 B2
FURTHER ORDERED that, because this is a Final Written Decision,
parties to the proceeding seeking judicial review of the decision must
comply with the notice and service requirements of 37 C.F.R. § 90.2.
PETITIONER:
Robert E. Sokohl
Lori A. Gordon
Richard M. Bemben
STERNE, KESSLER, GOLDSTEIN & FOX P.L.L.C.
rsokohl-ptab@skgf.com
lgordon-PTAB@skgf.com
rbemben-PTAB@skgf.com

PATENT OWNER:
Leif R. Sigmond, Jr.
Michael D. Gannon
Jennifer M. Kurcz
BAKER & HOSTETLER LLP
lsigmond@bakerlaw.com
mgannon@bakerlaw.com
jkurcz@bakerlaw.com
Jay Q. Knobloch
Steven F. Borsand
TRADING TECHNOLOGIES INTERNATIONAL, INC.
jay.knobloch@tradingtechnologies.com
steve.borsand@tradingtechnologies.com

77

Appendix

Trials@uspto.gov
Tel: 571-272-7822

Paper 37
Entered: November 17, 2017

UNITED STATES PATENT AND TRADEMARK OFFICE
_______________
BEFORE THE PATENT TRIAL AND APPEAL BOARD
_______________
IBG LLC, INTERACTIVE BROKERS LLC,
TRADESTATION GROUP, INC., and
TRADESTATION SECURITIES, INC.,
Petitioner,
v.
TRADING TECHNOLOGIES INTERNATIONAL, INC.,
Patent Owner.
____________
CBM 2016-00087
Patent 7,412,416 B2
_______________

Before SALLY C. MEDLEY, MEREDITH C. PETRAVICK, and
JEREMY M. PLENZLER, Administrative Patent Judges.
MEDLEY, Administrative Patent Judge.

FINAL WRITTEN DECISION
35 U.S.C. § 328(a) and 37 C.F.R. § 42.73

CBM2016-00087
Patent 7,412,416 B2
I. INTRODUCTION
IBG LLC, Interactive Brokers LLC, Tradestation Group, Inc., and
Tradestation Securities, Inc., (“Petitioner”)1 filed a Petition requesting a
review of claims 1–24 of U.S. Patent No. 7,412,416 B2 (Ex. 1001, “the ’416
patent”) under the transitional program for covered business method patents.2
Paper 3 (“Pet.”). Trading Technologies International, Inc. (“Patent Owner”)
did not file a Patent Owner Preliminary Response. Upon consideration of the
Petition, we instituted a covered business method patent review of claims 1–
24 of the ’416 patent (Paper 11 (“Dec.”)).
Subsequent to institution, Patent Owner filed a Patent Owner Response
(Paper 19 (“PO Resp.”)) and Petitioner filed a Reply (Paper 23 (“Pet.
Reply”)). Patent Owner filed a Motion to Exclude (Paper 29 (“PO Mot. to
Exclude”)) Exhibits 1015, 1016, 1018, and portions of Exhibit 1060.
Petitioner filed an Opposition to the Motion to Exclude (Paper 31 (“Pet.
Exclude Opp.”)), and Patent Owner filed a Reply (Paper 33 (“PO Exclude
Reply”)). An oral hearing was held on August 10, 2017, and a transcript of
the hearing is included in the record (Paper 36 (“Tr.”)).
For the reasons that follow, we determine that Petitioner has shown by
a preponderance of the evidence that claims 1–24 of the ’416 patent are
unpatentable.

1

Petitioner indicates that IBG LLC, Interactive Brokers LLC, TradeStation
Group, Inc., TradeStation Securities, Inc., TradeStation Technologies, Inc.,
and IBFX, Inc. are real parties-in-interest. Pet. 2.
2
See § 18(a) of the Leahy-Smith America Invents Act, Pub. L. No. 112-29,
2

CBM2016-00087
Patent 7,412,416 B2
A. Related Matters
The ’416 patent is involved in the following lawsuit: TradeStation
Technologies v. Trading Technologies International, Inc., No. 0:16-cv-60296
(S.D. Fl.). Pet. 2. In compliance with 37 C.F.R. § 42.302(a), Petitioner
certifies, and it is not disputed, that Petitioner has been sued for infringement
of the ’416 patent. Id. at 3–4. On this record, we determine that Petitioner
may petition for review of the ’416 patent pursuant to 37 C.F.R. § 42.302(a).
B. The ’416 Patent
The Specification of the ’416 patent describes a graphical user
interface (“GUI”) for an electronic trading system that allows a remote trader
to view trends for an item, which assists the trader to anticipate demand for
an item. Ex. 1001, 1:14–16, 2:8–11. Figure 3A of the ’416 patent is
reproduced below.

125 Stat. 284, 329 (2011) (“AIA”).
3

CBM2016-00087
Patent 7,412,416 B2
Figure 3A depictes a GUI that includes: 1) value axis 332, which
indicates the value at which an item is being traded, 2) multiple offer icons
304(1)–304(8), and 3) multiple bid icons 300(1)–300(8). Id. at 6:3–10, 6:44–
54. The offer icons and the bid icons represent orders in the marketplace. Id.
A trader can place an order by dragging-and-dropping an order icon
(e.g., bid order icon 320) to a desired location on the chart, triggering a popup window (e.g., Fig. 3D) that allows the trader to send the order. Id. at
8:28–56, Fig. 3D.
C. Illustrative Claims
Claims 1 and 14 of the ’416 patent are the only independent claims and
are reproduced below.
1.

A method for facilitating trading and displaying
information regarding the buying and selling of a good, the
method comprising:
displaying a chart on a graphical user interface
comprising a vertical axis of price values and a horizontal
axis of time;
displaying indicators representing historical trading data
for the good at locations along the vertical axis of price
values and the horizontal axis of time;
providing a plurality of locations on the graphical user
interface to place an order icon with a pointer of a user
input device, each location corresponding to a particular
price value along the vertical axis of price values;
placing an order icon for a particular quantity of the good
at a specific location of the plurality of locations along the
vertical axis of price values with a pointer of an input
4

CBM2016-00087
Patent 7,412,416 B2
device, wherein the specific location on which the order
icon is placed corresponds to a particular price value;
generating an order to buy or sell the particular quantity
of the good at the particular price value responsive to
placing the order icon at the specific location; and
sending the order to an electronic trading system, wherein
the order is for the particular quantity of the good and at
the particular price value determined based on the
location where the order icon was placed.
14.

A computer readable medium, for an electronic exchange
in which a good is bought and sold responsive to orders
submitted by traders, each order specifying a value and
quantity for the order, the computer readable medium
containing a program containing instructions to cause a
processor to perform the following steps:
displaying a chart on a graphical user interface
comprising a vertical axis of price values and a horizontal
axis of time;
displaying indicators representing historical trading data
for the good at locations along the vertical axis of price
values and the horizontal axis of time;
providing a plurality of locations on the graphical user
interface to place an order icon with a pointer of a user
input device, each location corresponding to a particular
price value along the vertical axis of price values;
placing an order icon for a particular quantity of the good
at a specific location of the plurality of locations along the
vertical axis of price values with a pointer of an input
device, wherein the specific location on which the order
5

CBM2016-00087
Patent 7,412,416 B2
icon is placed corresponds to a particular price value;
generating an order to buy or sell the particular quantity
of the good at the particular price value responsive to
placing the order icon at the specific location; and
sending the order to an electronic trading system, wherein
the order is for the particular quantity of the good and at
the particular price value determined based on the
location where the order icon was placed.
D. Grounds of Unpatentability
We instituted review of claims 1–24 on the following grounds:
References
n/a
n/a

Basis

Challenged Claims

§ 101
§ 112 ¶ 4

1–24
2 and 15

E. Covered Business Method Patent
A covered business method patent is “a patent that claims a method or
corresponding apparatus for performing data processing or other operations
used in the practice, administration, or management of a financial product or
service, except that the term does not include patents for technological
inventions.” Leahy-Smith America Invents Act, Pub. L. No. 112-29, 125
Stat. 284, 329 (2011) (“AIA”) § 18(d)(1); see 37 C.F.R. § 42.302. To
determine whether a patent is for a technological invention, we consider
“whether the claimed subject matter as a whole recites a technological feature
that is novel and unobvious over the prior art; and solves a technical problem
using a technical solution.” 37 C.F.R. § 42.301(b). For purposes of
6

CBM2016-00087
Patent 7,412,416 B2
determining whether a patent is eligible for a covered business method patent
review, the focus is on the claims. Secure Axcess, LLC v. PNC Bank N.A.,
848 F.3d 1370, 1379 (Fed. Cir. 2017) (“It is the claims, in the traditional
patent law sense, properly understood in light of the written description, that
identifies a CBM patent.”). One claim directed to a CBM is sufficient to
render the patent eligible for CBM patent review. See id. at 1381 (“[T]he
statutory definition of a CBM patent requires that the patent have a claim that
contains, however phrased, a financial activity element.”).
In our Institution Decision, we determined that Petitioner had shown
that the ’416 patent is a CBM patent. Dec. 6–9. Patent Owner urges us to
reconsider our determination and find that the ’416 patent is not eligible for
CBM patent review. See PO Resp. 68–76. We are not persuaded to change
our original determination.
1.

Method or Corresponding Apparatus for Performing Data
Processing or Other Operations Used in the Practice,
Administration or Management of a Financial Product or Service

The statute defines a “covered business method patent” as “[a] patent
that claims a method or corresponding apparatus for performing data
processing or other operations used in the practice, administration, or
management of a financial product or service.” AIA § 18(d)(1); see 37
C.F.R. § 42.301(a). A covered business method patent can be broadly
interpreted to encompass patents claiming activities that are financial in
nature. Transitional Program for Covered Business Method Patents—
Definitions of Covered Business Method Patent and Technological
Invention, 77 Fed. Reg. 48734, 48735 (Aug. 14, 2012); Blue Calypso, LLC v.
7

CBM2016-00087
Patent 7,412,416 B2
Groupon, Inc., 815 F.3d 1331, 1338–41 (Fed. Cir. 2016) (determining that a
patent was a covered business method patent because it claimed activities that
are financial in nature); Unwired Planet, LLC v. Google, Inc., 841 F.3d 1376,
n.5 (Fed. Cir. 2016) (stating that “we endorsed the ‘financial in nature’
portion of the standard as consistent with the statutory definition of ‘covered
business method patent’ in Blue Calypso”), Versata Dev. Grp., Inc. v. SAP
America, Inc., 793 F.3d 1306, 1324–25 (Fed. Cir. 2015) (“[The statute] on its
face covers a wide range of finance-related activities.”).
A patent need have only one claim directed to a covered business
method to be eligible for review. 77 Fed. Reg. at 48736 (Response to
Comment 8). We take claim 1 as representative.
Petitioner argues that the ’416 patent is a patent that claims a method
for performing data processing or other operations used in the practice,
administration, or management of a financial product or service. Pet. 4–6.
Petitioner argues that claim 1 expressly requires the performance of a
financial transaction by its recitation of facilitating trading and displaying
information regarding the buying and selling of a good, including the steps
of: (1) displaying a chart on a GUI comprising a vertical axis of price values
and a horizontal axis of time; (2) displaying indicators representing historical
trading data for the good on the chart; (3) providing a plurality of locations
on the GUI to place an order icon; (4) placing an order icon for a particular
quantity of the good at a specific location along the vertical axis; (5)
generating an order to buy or sell the particular quantity of the good; and (6)
sending the order to an electronic trading system. Id. at 5.
8

CBM2016-00087
Patent 7,412,416 B2
Notwithstanding Patent Owner’s arguments, which we address below,
we are persuaded by Petitioner’s showing, and find that the ’416 patent is
directed to a method for performing data processing or other operations used
in the practice, administration, or management of a financial service. Here,
Petitioner asserts, and we agree, that the claim 1 method steps for displaying
historical trading data, placing an order icon for a particular quantity of a
good at a location along a price axis, and sending an order to an electronic
trading system are each financial activities. Pet. 5.
Patent Owner argues that the Petition is silent as to whether the ’416
patent is directed to performing “data processing” or “other operations,” and
that Petitioner’s showing focuses solely on whether the ’416 patent is
financial in nature. PO Resp. 69–70. We disagree with Patent Owner.
Petitioner does address whether the patent is directed to data processing or
other operations. See, e.g., Pet. 6 (the ’416 patent claims are directed to a
method “for facilitating trading in an electronic trading system”) (emphasis
added). The definition for a covered business method patent is “a patent that
claims a method or corresponding apparatus for performing data processing
or other operations used in the practice, administration, or management of a
financial product or service . . . .” 37 C.F.R. § 42.301(a) (emphasis added).
Petitioner relies on the “other operations” part of the definition to make its
case. This is exemplified, for example, in Petitioner’s showing that the
preamble recites a method for facilitating trading and displaying information
regarding the buying and selling of a good, which would be “other
operations” used in the practice of a financial service (trading on an
exchange).
9

CBM2016-00087
Patent 7,412,416 B2
Patent Owner also argues that the ’416 claims are not directed to “data
processing.” PO Resp. 70–72. As explained immediately above, however,
the definition for a covered business method patent is not limited to a patent
that claims a method for performing data processing. In any event, we are
not persuaded by Patent Owner’s arguments, because such arguments are
premised on the assumption that “data processing” should be interpreted
according to the definition of “data processing” found in the glossary for
class 705 of the United States Patent Classification System, which is a
“systematic operation on data in accordance with a set of rules which results
in a significant change in data.” Id. at 71 (citing Ex. 2121, 4). Patent Owner
does not sufficiently explain why this definition is controlling as opposed to
the plain meaning of data processing, which includes a computer performing
operations on data. See, e.g., Pet. Reply 24–25 (citing Ex. 1066; Ex. 1067).
Claim 1 is directed to, for example, “displaying a chart on a graphical
user interface,” which must be done with a computer performing operations
on data in order to display the data as a chart on a graphical user interface.
The ’416 patent discloses processing market information for display on a
client terminal. See e.g., Ex. 1001, 5:6–15 (“[C]lient terminals 104 generate
icons for bid and offer orders (called bid and offer icons), historical charts
and trader icons, and determine the placement of bid and offer icons and
trader icons responsive to the information received from the transaction
server 200.”) For these reasons, we also determine that the ’416 patent
claims a method for performing data processing.
In addition, Patent Owner argues that the legislative history of the AIA
confirms that the claimed invention is not a covered business method because
10

CBM2016-00087
Patent 7,412,416 B2
“[T]he ’416 patent, which claims the structure, makeup, and functionality of
a GUI tool (i.e., not remotely close to a business method) is not that type of
patent.” PO Resp. 76–79 (citing Ex. 2126; Ex. 2127).
Although the legislative history includes certain statements that certain
novel software tools and graphical user interfaces that are used by the
electronic trading industry worker are not the target of § 18 of the AIA (see
Ex. 2126, S5428, S5433), the language of the AIA, as passed, does not
include an exemption for user interfaces for commodities trading from
covered business method patent review. Indeed, “the legislative debate
concerning the scope of a CBM review includes statements from more than a
single senator. It includes inconsistent views . . . .” Unwired Planet, 841
F.3d at 1381. For example, in contrast to the statements cited by Patent
Owner, the legislative history also indicates that “selling and trading financial
instruments and other securities” is intended to be within the scope of
covered business method patent review. See Ex. 2126, S5432 (statements of
Sen. Schumer); see also id. at S5436–37 (statements of Sen. Schumer
expressing concern about patents claiming “double click”), Ex. 2127, S1364
(Mar. 8, 2011) (statements of Sen. Schumer explaining that “method or
corresponding apparatus” encompasses “graphical user interface claims” and
“sets of instructions on storage media claims”). “[T]he legislative history
cannot supplant the statutory definition actually adopted. . . . The
authoritative statement of the Board’s authority to conduct a CBM review is
the text of the statute.” Unwired Planet, 841 F.3d at 1381. Each claimed
invention has to be evaluated individually to determine if it is eligible for a
CBM patent review. A determination of whether a patent is eligible for a
11

CBM2016-00087
Patent 7,412,416 B2
CBM patent review under the statute is made on a case-by-case basis. 37
C.F.R. § 42.301(b).
For the reasons stated above, we are persuaded that the ’416 patent
“claims a method or corresponding apparatus for performing data processing
or other operations used in the practice, administration, or management of a
financial product or service” and meets that requirement of § 18(d)(1) of the
AIA.
2.

Exclusion for Technological Inventions

Even if a patent includes claims that would otherwise be eligible for
treatment as a covered business method, review of the patent is precluded if
the claims cover only “technological invention[s],” as defined by 37 C.F.R.
§42.301(b). The definition of “covered business method patent” in
§ 18(d)(1) of the AIA does not include patents for “technological
inventions.” To determine whether a patent is for a technological invention,
we consider the following: “whether the claimed subject matter as a whole
[(1)] recites a technological feature that is novel and unobvious over the prior
art; and [(2)] solves a technical problem using a technical solution.” 37
C.F.R. § 42.301(b). Both prongs must be satisfied in order for the patent to
fall within the exception for a technological invention. See Versata, 793 F.3d
at 1326–27; Apple Inc. v. Ameranth, Inc., 842 F.3d 1229, 1240 (Fed. Cir.
2016). The following claim drafting techniques, for example, typically do
not render a patent a “technological invention”:
(a) Mere recitation of known technologies, such as computer
hardware, communication or computer networks, software,
memory, computer-readable storage medium, scanners, display
12

CBM2016-00087
Patent 7,412,416 B2
devices or databases, or specialized machines, such as an ATM or
point of sale device.
(b) Reciting the use of known prior art technology to accomplish a
process or method, even if that process or method is novel and
non-obvious.
(c) Combining prior art structures to achieve the normal, expected, or
predictable result of that combination.
Office Patent Trial Practice Guide, 77 Fed. Reg. 48,756, 48,763–64
(Aug. 14, 2012). The Federal Circuit has held that a claim does not include a
“technological feature” if its “elements are nothing more than general
computer system components used to carry out the claimed process.” Blue
Calypso, 815 F.3d at 1341; see also Versata, 793 F.3d at 1327 (“the presence
of a general purpose computer to facilitate operations through uninventive
steps does not change the fundamental character of an invention”).
Petitioner asserts that the ’416 patent claims fail to recite any
technological feature that is novel and unobvious over the prior art, and do
not solve a technical problem with a technical solution. Pet. 6–10. In
particular, Petitioner contends that independent claims 1 and 14 recite trading
software that is implemented using conventional computer hardware, such as
personal computers, servers and networks, and do not include a technological
feature or implement a technological solution. Id. at 7. Petitioner further
argues that the ’416 patent itself describes that the computing device used to
display the graphical user interface and that performs the claimed method and
functions need not be any specific hardware, but can be “personal computers,
terminals as part of a network, or any other computing device.” Id. at 8
13

CBM2016-00087
Patent 7,412,416 B2
(quoting Ex. 1001, 4:34–36). Petitioner also argues that electronic trading
was well known as of the filing date, going back as far as 1971 when
NASDAQ set up the first electronic stock exchange. Id. at 8 (citing Ex.
1026).
We agree with Petitioner that at least claim 1 is directed to wellunderstood, routine, and conventional steps of facilitating trading and
displaying information regarding the buying and selling of a good to a trader,
who uses the information to facilitate trading a commodity. For example, the
“BACKGROUND OF THE INVENTION” section of the ’416 patent
explains that it was well known for an electronic exchange to record all
transactions for a particular item and to replay or post to the individual
traders outstanding bids with the highest values and outstanding offers with
the lowest value, along with a quantity specified for each order, to facilitate
trading a commodity. Ex. 1001, 1:34–41. There is no indication in the ’416
patent that the inventors invented gathering market information, displaying it
to a trader, and using the information to facilitate trading a commodity. The
use of a computer to perform these functions also was known in the art at the
time of the invention (see, e.g., Ex. 1026), and the ’416 patent does not claim
any improvement of a computing device.
Petitioner argues that the claimed subject matter does not solve a
technical problem using a technical solution, because the problem is a
business, financial, or trader problem and the solution is functional, such as
rearranging available market data and providing locations to place a trade on
a GUI. Pet. 9–10. We agree with Petitioner that the problem noted in the
Specification of the ’416 patent is not a technical one. The ’416 patent
14

CBM2016-00087
Patent 7,412,416 B2
Specification highlights the problem and importance of informing a trader of
certain stock market events so that the trader may use such information to
facilitate trading a commodity. Ex. 1001, 1:27–33, 2:8–11. Informing a
trader of certain stock market trends or events is an activity that is financial
in nature.
Patent Owner argues that the ’416 patent claims a technological GUI
tool that improves upon prior GUIs using a particular combination of GUI
features and functionality (the particular makeup, structure and features of a
GUI tool), and, thus, falls under the technological exception. Id. at 72–74.
Patent Owner, however, does not tie its arguments to the actual claim
language to explain which of the steps of the broad method claim 1, for
example, recite an improved technological GUI tool or how the claimed steps
solve a technical problem. We do not find that claim 1 solves a technical
problem. Rather, claim 1 recites method steps of receiving, displaying, and
updating market data, and generating an order to buy or sell a good based on
that information.
Patent Owner argues that Technologies International, Inc. v. CQG,
Inc., 675 Fed. Appx. 1001 (Fed. Cir. 2017) (“CQG”) dictates that the ’416
patent claims cover technological inventions (PO Resp. 75–76). CQG
involved U.S. Patent Nos. 6,772,132 and 6,677,340. The Federal Circuit
determined that the claims of those patents are patent eligible under 35
U.S.C. § 101. The claims before us, however, are broader than the claims
involved in CQG. The Specification of the ’416 patent is different from the
specification of the patents involved in CQG. Thus, comparing the claims of
the patents involved in CQG is not particularly helpful here. Moreover, the
15

CBM2016-00087
Patent 7,412,416 B2
CQG decision relied upon a feature not required by claim 1 of the ’416
patent— a static price axis. Although claim 1 of the ’416 patent requires a
vertical axis of price and a horizontal axis of time, the claim does not require
a static price axis.
For all of the foregoing reasons, the subject matter of the claims is not
a “technological invention” under 37 C.F.R. § 42.301(b), and the ’416 patent
is eligible for a covered business method patent review.
II. ANALYSIS
A. Claim Interpretation
In a covered business method patent review, claim terms in an
unexpired patent are given their broadest reasonable construction in light of
the specification of the patent in which they appear. 37 C.F.R. § 42.300(b).
Under the broadest reasonable construction standard, claim terms are given
their ordinary and customary meaning, as would be understood by one of
ordinary skill in the art in the context of the entire disclosure. In re
Translogic Tech., Inc., 504 F.3d 1249, 1257 (Fed. Cir. 2007).
For purposes of this decision, we need not interpret any limitations of
the claims expressly.
B. The Level of Ordinary Skill in the Art
Notwithstanding the parties’ submissions of the level of ordinary skill
in the art, we find that the level of ordinary skill in the art is reflected by the
prior art of record. See Okajima v. Bourdeau, 261 F.3d 1350, 1355 (Fed. Cir.
2001); In re GPAC Inc., 57 F.3d 1573, 1579 (Fed. Cir. 1995); In re Oelrich,
579 F.2d 86, 91 (CCPA 1978).
16

CBM2016-00087
Patent 7,412,416 B2
C. 35 U.S.C. § 101 Asserted Ground of Unpatentability
Petitioner contends that claims 1–24 of the ’416 patent are not patent
eligible under 35 U.S.C. § 101. Pet. 20–41. Patent Owner opposes. PO
Resp. 6–68.
Under 35 U.S.C. § 101, we must first identify whether an invention fits
within one of the four statutorily provided categories of patent-eligibility:
“processes, machines, manufactures, and compositions of matter.”
Ultramercial, Inc. v. Hulu, LLC, 772 F.3d 709, 713–14 (Fed. Cir. 2014).
Initially, we note that Petitioner asserts that claims 14–22 are “broad
enough to encompass a transitory, propagating signal that is encoded, which
is not eligible for patenting.” Pet. at 42 (citing In re Nuijten, 500 F.3d 1346,
1357 (Fed. Cir. 2007)). Independent claim 14 recites a “computer readable
medium containing a program containing instructions to cause a processor to
perform the following steps.” Petitioner contends that the Specification does
not define “computer readable medium” or provide examples of a “computer
readable medium.” Id. at 16. Petitioner further argues that “[u]nder the
broadest reasonable interpretation (‘BRI’), the scope of this term is broad
enough to encompass a transitory, propagating signal that is encoded” and
that the additional language of “containing a program containing instructions
to cause a processor to perform the following steps” does not limit the
medium to non-transitory media. Pet. 16–17 (citing In re Nuijten, 550 F.3d
1346, 1357 (Fed. Cir. 2007)); Pet. Reply 22–23.
In our Institution Decision, we made an initial determination, based on
the limited record before us at that time, that the broadest reasonable
interpretation of “computer readable medium” in the context of claim 14
17

CBM2016-00087
Patent 7,412,416 B2
“encompasses a transitory, propagating signal that is encoded.” Inst. Dec.
11. Patent Owner argues, among other things, that Petitioner fails to
establish that the claims cover signals, because there is nothing in the
Specification of the ’416 patent that allows the computer readable medium to
be read as being a signal or other transitory medium, and that a person having
ordinary skill in the art would have understood that a computer readable
medium containing a program would not be a signal or other transitory
medium. PO Resp. 66–67 (citing Ex. 2168 ¶ 45; Ex. 2169 ¶ 64). Petitioner
responds to Patent Owner’s contentions by asserting that “[t]he Board should
follow the precedential decision in Ex Parte Mewherter and hold that claims
14–22, which recite a term of art in patent law, encompass transitory signals
and are thus non-statutory.” Pet. Reply 22. Petitioner further argues that
Patent Owner’s expert, Christopher Thomas, admitted that “computer
readable medium” is “a patent term.” Id. at 22–23.
Petitioner’s response is unhelpful. For example, in its Reply,
Petitioner fails to direct us to evidence to rebut Patent Owner’s contentions
regarding how one skilled in the art would have understood the disputed
phrase at the time of the invention.
Accordingly, on this record, which is absent any further evidence or
meaningful argument from Petitioner, we are not persuaded that at the time
of the invention one skilled in the art would have understood “computer
readable medium containing a program containing instructions to cause a
processor to perform the following steps,” as encompassing transitory,
propagating signals.
18

CBM2016-00087
Patent 7,412,416 B2
There is no dispute that the remaining claims fit within one of the four
statutorily provided categories of patent-eligibility. Claim 1, for example, is
directed to a process.
1. Eligibility
Section 101 of Title 35, United States Code, provides:
Whoever invents or discovers any new and useful process,
machine, manufacture, or composition of matter, or any new and
useful improvement thereof, may obtain a patent therefor,
subject to the conditions and requirements of this title.
The Supreme Court recognizes three exceptions to these statutory
classes: laws of nature, natural phenomena, and abstract ideas. Alice Corp.
Pty. Ltd. v. CLS Bank Int’l, 134 S. Ct. 2347, 2354 (2014); Mayo
Collaborative Servs. v. Prometheus Labs., Inc., 132 S. Ct. 1289, 1293
(2012). Although an abstract idea by itself is not patentable, a practical
application of an abstract idea may be deserving of patent protection. Alice,
134 S. Ct. at 2355. We must “consider the elements of each claim both
individually and ‘as an ordered combination’ to determine whether the
additional elements ‘transform the nature of the claim’ into a patent-eligible
application.” Id. (citing Mayo, 132 S. Ct. at 1298, 1297). The claim must
contain elements or a combination of elements that are “‘sufficient to ensure
that the patent in practice amounts to significantly more than a patent upon
the [abstract idea] itself.’” Id. (citing Mayo, 132 S. Ct. at 1294).
2. Abstract Idea
Petitioner argues that the claims encompass an abstract idea because
they are directed to a fundamental economic practice. Pet. 22–25. In
particular, Petitioner argues that the claims’ recitation of displaying a chart
19

CBM2016-00087
Patent 7,412,416 B2
with vertical price axis and a horizontal time axis, displaying indicators
representing historical trading data along those axes, placing an order icon at
a particular location of a plurality of locations, and generating and sending
the order to an electronic trading system, is nothing more than the abstract,
fundamental economic practice of graphing (or displaying) trading data to
assist a trader to place an order. Id. Petitioner further argues that the abstract
idea is old, well-known, and prevalent. Id. at 23–24 (citing Ex. 1033, 8–15).
Additionally, Petitioner contends that the claims are directed to solving a
business problem (anticipating market movement) and can be performed
using pen and paper, or using only human mental steps, further indicating
that the claims are directed to an abstract concept. Id. at 24–27 (citing Ex.
1012 ¶¶ 67–70; Ex. 1001, 1:28–31, 1:53–63; Ex. 1033, 8–15; Ex. 1037, 3).
“The ‘abstract idea’ step of the inquiry calls upon us to look at the
‘focus of the claimed advance over the prior art’ to determine if the claim’s
‘character as a whole’ is directed to excluded subject matter.” Affinity Labs
of Texas v. DirectTV, LLC, 838 F.3d 1253, 1257 (Fed. Cir. 2016) (quoting
Elec. Power Grp., LLC v. Alstom S.A., 830 F.3d 1350, 1353 (Fed. Cir.
2016)); see also Enfish, LLC v. Microsoft Corp., 822 F.3d 1327, 1335 (Fed.
Cir. 2016). There is no definitive rule to determine what constitutes an
“abstract idea.” Rather, the Federal Circuit has explained that “both [it] and
the Supreme Court have found it sufficient to compare claims at issue to
those claims already found to be directed to an abstract idea in previous
cases.” Enfish, 822 F.3d at 1334; see also Amdocs (Israel) Ltd. v. Openet
Telecom, Inc., 841 F.3d 1288, 1294 (Fed. Cir. 2016) (explaining that, in
determining whether claims are patent-eligible under § 101, “the decisional
20

CBM2016-00087
Patent 7,412,416 B2
mechanism courts now apply is to examine earlier cases in which a similar or
parallel descriptive nature can be seen—what prior cases were about, and
which way they were decided”).
Claim 1 is similar to independent claim 14 and is representative.
Notwithstanding Patent Owner’s arguments, which we address below, we
determine that Petitioner has shown3 that claim 1 is directed to the abstract
idea of displaying a chart with a vertical price axis and a horizontal time axis,
displaying indicators representing historical trading data along those axes,
placing an order icon at a particular location of a plurality of locations, and
generating and sending the order to an electronic trading system to assist a
trader to place an order, which is a fundamental economic practice.
The preamble of claim 1 recites a method for facilitating trading and
displaying information regarding the buying and selling of a good. The
method steps of claim 1 include displaying a chart on a graphical user
interface having a vertical axis of price values and a horizontal axis of time,
placing an order icon for a quantity of a good at a location along the vertical
axis of price levels, and generating and sending the order to an electronic
trading system. We agree with Petitioner that claim 1 encompasses the
abstract idea of the fundamental economic practice of graphing (or
displaying) trading data to assist a trader to place an order, steps that can be
performed using pen and paper, or even in a trader’s mind. Pet. 22–25

3

As explained above, determining whether a claim is directed to an abstract
idea calls upon us to look at the focus of the claimed advance over the prior
art. In order to do so, we must make findings of fact as to the prior art at the
time of the invention. Those facts must be supported by a preponderance of
21

CBM2016-00087
Patent 7,412,416 B2
(citing CyberSource Corp. v. Retail Decisions, 654 F.3d 1366, 1372 (Fed.
Cir. 2011) (unpatentable mental process performed with aid of pen and
paper)); Ex. 1012 ¶¶ 67–70; Ex. 1001, 1:28–31, 1:53–63; Ex. 1033, 8–15;
Ex. 1037, 3. We further agree with Petitioner that the ’416 patent claims
simply provide a graphical representation on a computer of what traders have
done in their minds since trading began. Pet. 26 (citing Ex. 1001, 1:28–31,
1:53–63); see also Ex. 1027, 44–46.
When we compare claim 1 at issue to those claims already found to be
directed to an abstract idea in previous cases, we are persuaded that claim 1 is
more similar to those claims found to encompass an abstract idea than those
determined not to encompass an abstract idea. Claim 1 is similar to the
claims in Electric Power, which did “not go beyond requiring the collection,
analysis, and display of available information in a particular field, stating
those functions in general terms, without limiting them to technical means for
performing the functions that are arguably an advance over conventional
computer and network technology.” Elec. Power Grp., LLC v. Alstom S.A.,
830 F.3d 1350, 1353 (Fed. Cir. 2016).
In comparison, claim 1 is unlike the claims at issue in DDR Holdings,
LLC v. Hotels.com, L.P., 773 F.3d 1245 (Fed. Cir. 2014) and Enfish. In
DDR Holdings, the court determined that the claims did not embody a
fundamental economic principle or a longstanding commercial practice. The
claims at issue in DDR Holdings were directed to retaining website visitors,
which the court determined was a problem “particular to the Internet.” DDR

the evidence. 35 U.S.C. § 326(e).
22

CBM2016-00087
Patent 7,412,416 B2
Holdings, 773 F.3d at 1257. The court also determined that the invention
was “necessarily rooted in computer technology in order to overcome a
problem specifically arising in the realm of computer networks,” and that the
claimed invention did not simply use computers to serve a conventional
business purpose. Id. In Enfish, the claim at issue was directed to a data
storage and retrieval system for a computer memory. Enfish, 822 F.3d at
1336–37. The court determined that the claims were directed to an
improvement in the functioning of a computer and were not simply adding
conventional computer components to well-known business practices. Id. at
1338. Here, claim 1 is directed to a fundamental economic principle or a
longstanding commercial practice and not directed to an improvement in the
functioning of the computer.
We have considered all of Patent Owner’s arguments regarding why
the claims are not directed to an abstract idea but are not persuaded by such
arguments. See, e.g., PO Resp. 12–39. Patent Owner argues that the claims
“set forth a GUI that is comprised of specific structure, makeup, and
functionality that provide a specific means or method (generally speaking,
placing order icons in specific locations) for achieving the result of a more
intuitive interface.” Id. at 12–13. Patent Owner argues that the claims are
analogous to the claimed inventions in CQG, McRO, Inc. v. Bandai Namco
Games America Inc., 837 F.3d. 1299 (Fed. Cir. 2016) (“McRO”), and Enfish.
Id. at 13–15. We disagree.
Claim 1 of the ’416 patent is unlike the claims at issue in McRO. In
McRO, the court held that claims that recited “a specific asserted
improvement in computer animation” were not directed to an unpatentable
23

CBM2016-00087
Patent 7,412,416 B2
abstract idea because they go “beyond merely organizing existing
information into a new form or carrying out a fundamental economic
practice.” McRO, 837 F.3d at 135. Here, the claims merely organize
existing market information so that it is displayed in order for a trader to
place an order, which is not a specific improvement to the functioning of a
computer.
With respect to CQG, and as explained above, the claims before us are
much broader than the claims involved there. The Specification of the ’416
patent is different from the patents involved in CQG. Thus, comparing the
claims of the patents involved in CQG is not particularly helpful here.
Moreover, the CQG decision relied upon a feature not required by claim 1 of
the ’416 patent— a static price axis. Although claim 1 of the ’416 patent
requires displaying a chart on a graphical user interface comprising a vertical
price axis and a horizontal time axis, the claim does not require a static price
axis. Nor are we persuaded that the claims are analogous to those in Enfish
for reasons already discussed.
Patent Owner also argues that Petitioner’s arguments overgeneralize
the claimed invention and ignore the claim elements that make up the
specifically claimed GUI. PO Resp. 15–21, 35. We disagree that Petitioner
has overgeneralized the claimed invention or ignored the claim elements.
Petitioner’s arguments are commensurate in scope with the breadth of the
claims. Nor are we persuaded by Patent Owner’s arguments that Petitioner
has not shown that the claimed invention preempts the broad concept of
graphing (or displaying) trading data or generating a trade order. Id. at 21–
24. In particular, Patent Owner argues that while it is understood that pre24

CBM2016-00087
Patent 7,412,416 B2
emption may not be the sole test, it is a guide for understanding whether the
claims are directed to the purported abstract idea. Id. Even Patent Owner,
recognizes (id. at 22), however, that preemption is not the sole test for
determining patent eligibility. In McRO our reviewing court explained that
in considering preemption we should consider whether the claims “focus on a
specific means or method that improves the relevant technology or are
instead directed to a result or effect that itself is the abstract idea and merely
invoke generic processes and machinery.” McRO, 837 F.3d at 1314 (citing
Enfish, 822 F.3d at 1335). Here, we determine that the claims are directed to
an end result of displaying market data and placing a trade order based on the
displayed data that invokes generic processes.
Patent Owner argues that the claimed invention provides a solution
(and is not directed to a fundamental economic practice) by reciting a specific
implementation of generating a trade order based on placement of an icon in
a specific location of a chart, and as such, differentiates the claimed GUI tool
from other GUI tools for generating trade orders. PO Resp. 24–27, 35–39.
Patent Owner also argues that GUIs are technology (id. at 28–31), the claims
of the ’416 patent recite an improvement to existing GUIs (id. at 31–34), and
GUI’s are akin to mechanical devices (id. at 34–35). We have considered all
of these arguments, but are not persuaded by such arguments for reasons
already provided.
In addition, and to the extent that Patent Owner asserts that claims that
require a GUI are automatically patent eligible, that assertion is not
commensurate with our reviewing court’s holdings on the issue of patent
eligibility. For example, the claim at issue in Affinity Labs recited an
25

CBM2016-00087
Patent 7,412,416 B2
application that enabled a cellular telephone to present a GUI displaying a list
of media sources that included selectable items for selecting a regional
broadcasting channel. Affinity, 838 F.3d at 1255–56. The claim also recited
that the cellular telephone was enabled to transmit a request for the selected
regional broadcasting channel. Id. at 1256. In Ameranth, the claim at issue
recited a GUI that displayed menu items in a specific arrangement, a
hierarchical tree format. Menu items were selected to generate a second
menu from a first menu. Apple, 842 F.3d at 1234. In both Affinity Labs and
Ameranth, the court determined that the claims were not directed to a
particular way of programming or designing the software, but instead merely
claim the resulting systems and determined that the claims are not directed to
a specific improvement in the way computers operate. Affinity Labs, 838
F.3d at 1260–61; Ameranth, 842 F.3d at 1241. The same is true here in that
the claims are not directed to any particular way of programming or
designing software, but merely claim the resulting system and not any
specific improvement in the way a computer operates.
Patent Owner also argues that the steps recited in the claims cannot be
performed with pen and paper or in the human mind. PO Resp. 35–39. We
disagree for the reasons stated above, namely that we agree with Petitioner
that the ’416 patent claims simply provide a graphical representation on a
computer of what traders have done in their minds since trading began. Pet.
22–25 (citing CyberSource Corp. v. Retail Decisions, 654 F.3d 1366, 1372
(Fed. Cir. 2011) (unpatentable mental process performed with aid of pen and
paper)); Ex. 1012 ¶¶ 67–70; Ex. 1001, 1:28–31, 1:53–63; Ex. 1033, 8–15;
Ex. 1037, 3.
26

CBM2016-00087
Patent 7,412,416 B2
3. Inventive Concept
To be patent eligible, a claim to an otherwise abstract idea must recite
additional elements that constitute an inventive concept. Alice, 134 S. Ct. at
2357. One looks to “[t]he elements of each claim both individually and ‘as
an ordered combination’ to determine whether the additional elements
‘transform the nature of the claim’ into a patent-eligible application.” Mayo,
132 S. Ct. at 1297–98. The additional elements must be more than “wellunderstood, routine, conventional, activity.” Id. at 1298.
Petitioner argues that the claims do not recite an inventive concept.
Pet. 27–35. Petitioner argues that the claims recite insignificant and
conventional extra-solution activities of data gathering, dragging-anddropping, sending orders, and arranging data and locations to place a trade on
a display using conventional, well-known components (a computer device
and input device). Id. Petitioner also argues that the claims are not rooted in
computer technology. Id. at 35–40.
Notwithstanding Patent Owner’s arguments, which we address below,
we are persuaded that Petitioner has shown that none of the additional claim
elements in claim 1 or claims 2–24 transforms the nature of the claims into
patent-eligible subject matter. Claim 1 recites a method for facilitating
trading and displaying information regarding the buying and selling of a
good. The method steps of claim 1 include displaying a chart on a graphical
user interface having a vertical axis of price values and a horizontal axis of
time, placing an order icon for a quantity of a good at a location along the
vertical axis of price levels, and generating and sending the order to an
electronic trading system. The Specification of the ’416 patent does not
27

CBM2016-00087
Patent 7,412,416 B2
disclose a particular way for data gathering, dragging-and-dropping, sending
orders, and arranging data and locations to place a trade on a display, nor
does the Specification provide or disclose any particular algorithms or rules
for performing the recited functions of claim 1. All of the method steps of
claim 1 are performed on a generic computer using known algorithms, as the
’416 patent itself acknowledges that the computing device used to display the
graphical user interface and that performs the claimed method and functions
need not be any specific hardware, but can be “personal computers, terminals
as part of a network, or any other computing device.” Ex. 1001, 4:34–36.
Based on the record before us, the functional steps of data gathering,
dragging-and-dropping, sending orders, and arranging data and locations to
place a trade on a display, were not novel or non-obvious, but rather known
in the art at the time of the invention. See, e.g., Pet. 29. We also agree with
Petitioner that none of claims 2–24 transforms the nature of the claims into a
patent-eligible application. Pet. 32–35. We agree that these claims recite
well-understood, routine, conventional extra-solution activity that is not
related to an inventive concept. Mayo, 132 S. Ct. at 1298.
Moreover, and to the extent that the claims require a GUI, a mere
recitation of a GUI does not make the claim patent eligible. See Affinity
Labs, 838 F.3d at 1257–58, Ameranth, 842 F.3d at 1236–42, Internet Patent
Corp., 790 F.3d at 1348–49. A recitation of a generic GUI merely limits the
use of the abstract idea to a particular technological environment. “Limiting
the field of use of the abstract idea to a particular existing technological
environment does not render any claims less abstract.” Affinity Labs, 838
F.3d at 1258 (citing Alice, 134 St. Ct. at 2358; Mayo, 132 S. Ct. at 1294).
28

CBM2016-00087
Patent 7,412,416 B2
Patent Owner argues that the claims, in light of the Specification, pass
part two of Alice because they recite an inventive concept. PO Resp. 39–43.
Patent Owner contends that the combination of displaying market
information and selecting and moving an icon to place an order is an
inventive concept that transforms the abstract idea into a particular
application. Id. at 41–43. Patent Owner relies upon the testimony of Mr.
Christopher Thomas to show that the claimed invention was not well-known
or conventional. Id. at 42 (citing Ex. 2169 ¶¶ 48–50). Mr. Thomas’s
testimony is conclusory and does not specifically address the claimed
invention. Selecting and moving an icon is a well-understood, routine,
conventional activity that does not add significantly more to the abstract idea.
See Ex. 1029, 247–249 (disclosing that drag-and-drop (i.e., clicking and
holding a button while moving some object across a screen) is old and well
known). Conventional post-solution activity is not sufficient to transform the
abstract idea into patent-eligible subject matter. See Parker v. Flook, 437
U.S. 584, 590–92 (1978). The claims require nothing more than a generic
computer to perform the method of the claims.
Patent Owner does not explain sufficiently what about the claims, or
even the specification, qualifies as an inventive concept. For example, Patent
Owner argues that the claimed combination specifies GUI features and
functionality with great detail, and that the claims recite “structure of a
specific GUI that functions differently from prior art GUIs to solve GUIcentric problems.” PO Resp. 40. Claim 1, for example, does not recite a
GUI tool, nor does Patent Owner explain sufficiently what it is about method
claim 1 that requires a GUI tool or makes it a GUI tool, or how the GUI tool
29

CBM2016-00087
Patent 7,412,416 B2
provides an enhanced display. Patent Owner fails to focus on the claims
before us or explain with respect to the actual elements of these claims why
such elements constitute an inventive concept. We are not persuaded by
Patent Owner’s arguments.
The individual elements of the claims do not transform the nature of
the claims into a patent-eligible application. They do not add significantly
more to the abstract idea or fundamental economic practice. Contrary to
Patent Owner’s argument, the claims simply recite the use of a generic
computer with routine and conventional functions. Further, considering all
of the elements as an ordered combination, we determine that the combined
elements also do not transform the nature of the claims into a patent-eligible
application.
Lastly, we have considered all of Patent Owner’s arguments regarding
case law and the claims and issues in those cases, along with how Petitioner
allegedly misconstrues the claims and law to assert that the claims are not
patent eligible. PO Resp. 43–63. We are aware of the cited cases and have
discussed relevant case law throughout this opinion. We reiterate that we
find the ’416 claims to be similar to the claims in Electric Power and
disagree with Patent Owner’s argument that unlike the claims in Electric
Power, “the claims of the ’416 patent recite the process of constructing the
interface rather than simply claiming a generic interface for displaying the
results of an abstract process.” PO Resp. 51. Again, Patent Owner does not
explain sufficiently what it is about the claims that recites the alleged
patentable interface. We also disagree that Petitioner misconstrued the
claims and law as provided above in this decision.
30

CBM2016-00087
Patent 7,412,416 B2
We have considered Petitioner’s showing and all of Patent Owner’s
arguments, and determine, for all of the above reasons, Petitioner has shown
sufficiently that claims 1–24 of the ’416 patent are not directed to patent
eligible subject matter under 35 U.S.C. § 101.
D. 35 U.S.C. § 112 ¶ 4 Asserted Ground of Unpatentability
Petitioner contends that claims 2 and 15 are unpatentable under § 112
¶ 4 as failing to further limit their respective base claims 1 and 14. Pet. 85.
The fourth paragraph of § 112 states, “a claim in dependent form shall
contain a reference to a claim previously set forth and then specify a further
limitation of the subject matter claimed.” 35 U.S.C. § 112 ¶ 4.
Each of claims 1 and 14 recites “displaying indicators representing
historical trading data for the good.” Each of claims 2 and 15 depends from
claims 1 and 14 respectively and recites “wherein the historical trading data
is of the good, another good, or a combination of goods.”
Petitioner argues that claims 2 and 15 do not further limit the claimed
subject matter of claims 1 and 14, but rather broaden the claimed subject
matter of those claims. Pet. 85. In our Institution Decision, we made an
initial determination that the claims were more likely than not unpatentable
under 35 U.S.C. § 112 ¶ 4. Dec. 23–24. Patent Owner is silent with respect
to Petitioner’s challenge to claims 2 and 15 under 35 U.S.C. § 112 ¶ 4.
Based on the record before us, we agree with Petitioner that dependent claims
2 and 15 fail to specify a further limitation of the subject matter claimed, but
rather expand the subject matter claimed by claiming that the association of

31

CBM2016-00087
Patent 7,412,416 B2
historical trading data from a good is to the same good, another good, or a
combination of goods.
Based on the record before us, we determine that Petitioner has shown
sufficiently that claims 2 and 15 are unpatentable under 35 U.S.C. § 112 ¶ 4.
D. Patent Owner’s Motion to Exclude
Patent Owner moves to exclude Exhibit 1015 and 1016 (TSE4), Mr.
Kawashima’s deposition (Ex. 1018), and portions of Exhibit 1060 (the cross
examination testimony of Mr. Thomas). PO Mot. to Exclude 1. Patent
Owner seeks to exclude Exhibits 1015 and 1016 as not relevant under Rules
401 and 402 of the Federal Rules of Evidence (FRE) and because the exhibits
have not been authenticated under FRE 901. Id. at 1–4. Patent Owner also
seeks to exclude Exhibit 1018 as hearsay, and pages 248, and 263–269 of
Exhibit 1060 (the cross examination testimony of Mr. Thomas) as prejudicial
and confusing. Id. at 4–13. In rendering our Final Decision, we did not and
need not consider Exhibits 1015, 1016, 1018 or pages 248, and 263–269 of
Exhibit 1060. We have determined that Petitioner has demonstrated, by a
preponderance of the evidence, that the challenged claims are unpatentable,
without considering Exhibits 1015, 1016, 1018 or pages 248, and 263–269 of
Exhibit 1060. Accordingly, Patent Owner’s Motion to Exclude is dismissed.

4

TOKYO STOCK EXCHANGE OPERATION SYSTEM DIVISION, FUTURES/OPTION
PURCHASING SYSTEM TRADING TERMINAL OPERATION GUIDE (1998) (Ex.
1016) (“TSE”). Exhibit 1015 is the Japanese version of TSE.
32

CBM2016-00087
Patent 7,412,416 B2
III. CONCLUSION
For the foregoing reasons, we determine that Petitioner has shown, by
a preponderance of the evidence, that claims 1–24 of the ’416 patent are
patent ineligible under 35 U.S.C. § 101, and that claims 2 and 15 also are
unpatentable under 35 U.S.C. § 112 ¶ 4.
IV. ORDER
It is:
ORDERED that claims 1–24 of the ’416 patent are patent-ineligible
under 35 U.S.C. § 101;
FURTHER ORDERED that claims 2 and 15 are unpatentable under 35
U.S.C. § 112 ¶ 4;
FURTHER ORDERED that Patent Owner’s Motion to Exclude is
dismissed; and
FURTHER ORDERED that, because this is a Final Written Decision,
parties to the proceeding seeking judicial review of the decision must comply
with the notice and service requirements of 37 C.F.R. § 90.2.

33

CBM2016-00087
Patent 7,412,416 B2
PETITIONER:
Robert E. Sokohl
Lori A. Gordon
Richard M. Bemben
STERNE, KESSLER, GOLDSTEIN & FOX
rsokohl-PTAB@skgf.com
lgordon-PTAB@skgf.com
rbemben-PTAB@skgf.com
John C. Phillips
Adam Kessel
FISH & RICHARDSON P.C.
PTABINBOUND@fr.com
kessel@fr.com

PATENT OWNER:
Leif Sigmond
Michael Gannon
Jennifer Kurcz
BAKER & HOSTETLER LLP
lsigmond@bakerlaw.com
mgannon@bakerlaw.com
jkurcz@bakerlaw.com
Steven F. Borsand
Jay Q. Knobloch
TRADING TECHNOLOGIES INTERNATIONAL, INC.
jay.knobloch@tradingtechnologies.com
steve.borsand@tradingtechnologies.com

34

Appendix

Trials@uspto.gov
Tel: 571-272-7822

Paper 28
Entered: November 17, 2017

UNITED STATES PATENT AND TRADEMARK OFFICE
_______________
BEFORE THE PATENT TRIAL AND APPEAL BOARD
_______________
TRADESTATION TECHNOLOGIES, INC.,
Petitioner,
v.
TRADING TECHNOLOGIES INTERNATIONAL, INC.,
Patent Owner.
____________
CBM2016-00086
Patent 7,818,247 B2
_______________

Before SALLY C. MEDLEY, MEREDITH C. PETRAVICK, and
JEREMY M. PLENZLER, Administrative Patent Judges.
MEDLEY, Administrative Patent Judge.

FINAL WRITTEN DECISION
35 U.S.C. § 328(a) and 37 C.F.R. § 42.73

CBM2016-00086
Patent 7,818,247 B2
I. INTRODUCTION
TradeStation Technologies, Inc., (“Petitioner”) 1 filed a Petition
requesting a covered business method patent review of claims 1–21 of
U.S. Patent No. 7,818,247 B2 (Ex. 1001, “the ’247 patent”) under the
transitional program for covered business method patents. 2 Paper 2 (“Pet.”).
Trading Technologies International, Inc. (“Patent Owner”) did not file a
Patent Owner Preliminary Response. Upon consideration of the Petition, we
instituted a covered business method patent review of claims 1–21 of the
’247 patent (Paper 8 (“Dec.”)).
Subsequent to institution, Patent Owner filed a Patent Owner Response
(Paper 14 (“PO Resp.”)) and Petitioner filed a Reply (Paper 18 (“Pet.
Reply”)). An oral hearing was held on August 10, 2017, and a transcript of
the hearing is included in the record (Paper 27 (“Tr.”)).
For the reasons that follow, we determine that Petitioner has shown by
a preponderance of the evidence that claims 1–21 of the ’247 patent are
unpatentable.
A. Related Matters
The ’247 patent is involved in the following lawsuit: TradeStation
Technologies v. Trading Technologies Int’l, Inc., No. 0:16-cv-60296 (S.D.
Fl.). Pet. 2. In compliance with 37 C.F.R. § 42.302(a), Petitioner certifies,
and it is not disputed, that Petitioner has been sued for infringement of the

1

Petitioner indicates that TradeStation Group, Inc., TradeStation Securities,
Inc., TradeStation Technologies, Inc., and IBFX, Inc. are real parties-ininterest. Pet. 2.
2
See § 18(a) of the Leahy-Smith America Invents Act, Pub. L. No. 112-29,
2

CBM2016-00086
Patent 7,818,247 B2
’247 patent. Id. at 15. On this record, we determine that Petitioner may
petition for review of the ’247 patent pursuant to 37 C.F.R. § 42.302(a).
B. The ’247 Patent
The Specification of the ’247 patent describes trading tools for trading
and monitoring a commodity on an electronic exchange. The tools increase a
user’s efficiency and reduce the time it takes to enter an order or quote. Ex.
1001, Abstract, 2:63–67.
C. Illustrative Claims
Claim 1 and dependent claim 3 are representative:
1.

A method for displaying market information
corresponding to a commodity being traded at an electronic
exchange, comprising:
receiving by a computer device market data relating to the
commodity from the electronic exchange, the market data
comprising a quantity of an order that is pending at a first
price level;
displaying by the computer device a first graphical area
corresponding to the first price level;
displaying by the computer device a second graphical area
corresponding to a second price level, the second price
level corresponding to a price level for the commodity
that is different than the first price level, wherein the first
and second graphical areas are arranged in an axial
direction;
color-coding the first graphical area using a first color to
indicate that the order is pending at the first price level;

125 Stat. 284, 329 (2011) (“AIA”).
3

CBM2016-00086
Patent 7,818,247 B2

determining by the computer device from the market data
that there is no order pending at the second price level;
color-coding the second graphical area using a second
color to indicate that there is no order pending at the
second price level;
updating the first graphical area such that the first
graphical area is color-coded using the second color in
response to new market data indicating that there is no
order pending at the first price level; and
updating the second graphical area such that the second
graphical area is color-coded using the first color in
response to new market data indicating that there is an
order pending at the second price level.
Ex. 1001, 34:31–60.
3. The method of claim 1, further comprising:
displaying an order entry region comprising a plurality of
graphical areas corresponding to a plurality of price
levels, the plurality of graphical areas in the order entry
region arranged in the axial direction, such that selection
of one of the plurality of graphical areas of the order entry
region sends a trade order to the electronic exchange for
the commodity, the trade order comprising a price based
on the selected graphical area and a default order
quantity; and
sending the trade order to the electronic exchange in
response to the selection of one of the plurality of
graphical areas of the order entry region by a single action
of a user input device.
Id. at 35:4–17.

4

CBM2016-00086
Patent 7,818,247 B2
D. Ground of Unpatentability
We instituted review of claims 1–21 of the ’247 patent on the ground
that the claims are unpatentable under 35 U.S.C. § 101.
E. Covered Business Method Patent
A covered business method patent is “a patent that claims a method or
corresponding apparatus for performing data processing or other operations
used in the practice, administration, or management of a financial product or
service, except that the term does not include patents for technological
inventions.” Leahy-Smith America Invents Act, Pub. L. No. 112-29, 125
Stat. 284, 329 (2011) (“AIA”) § 18(d)(1); see 37 C.F.R. § 42.302. To
determine whether a patent is for a technological invention, we consider
“whether the claimed subject matter as a whole recites a technological feature
that is novel and unobvious over the prior art; and solves a technical problem
using a technical solution.” 37 C.F.R. § 42.301(b). For purposes of
determining whether a patent is eligible for a covered business method patent
review, the focus is on the claims. Secure Axcess, LLC v. PNC Bank N.A.,
848 F.3d 1370, 1379 (Fed. Cir. 2017) (“It is the claims, in the traditional
patent law sense, properly understood in light of the written description, that
identifies a CBM patent.”). One claim directed to a CBM is sufficient to
render the patent eligible for CBM patent review. See id. at 1381 (“[T]he
statutory definition of a CBM patent requires that the patent have a claim that
contains, however phrased, a financial activity element.”).
In our Institution Decision, we determined that Petitioner had shown
that the ’247 patent is a CBM patent. Dec. 4–7. Patent Owner urges us to
reconsider our determination and find that the ’247 patent is not eligible for
5

CBM2016-00086
Patent 7,818,247 B2
CBM patent review. See PO Resp. 63–76. We are not persuaded to change
our original determination.
1.
Method or Corresponding Apparatus for Performing Data
Processing or Other Operations Used in the Practice, Administration
or Management of a Financial Product or Service
The statute defines a “covered business method patent” as “[a] patent
that claims a method or corresponding apparatus for performing data
processing or other operations used in the practice, administration, or
management of a financial product or service.” AIA § 18(d)(1); see 37
C.F.R. § 42.301(a). A covered business method patent can be broadly
interpreted to encompass patents claiming activities that are financial in
nature. Transitional Program for Covered Business Method Patents—
Definitions of Covered Business Method Patent and Technological
Invention, 77 Fed. Reg. 48734, 48735 (Aug. 14, 2012); Blue Calypso, LLC v.
Groupon, Inc., 815 F.3d 1331, 1338–41 (Fed. Cir. 2016) (determining that a
patent was a covered business method patent because it claimed activities that
are financial in nature); Unwired Planet, LLC v. Google, Inc., 841 F.3d 1376,
n.5 (Fed. Cir. 2016) (stating that “we endorsed the ‘financial in nature’
portion of the standard as consistent with the statutory definition of ‘covered
business method patent’ in Blue Calypso”), Versata Dev. Grp., Inc. v. SAP
America, Inc., 793 F.3d 1306, 1324–25 (Fed. Cir. 2015) (“[The statute] on its
face covers a wide range of finance-related activities.”).
A patent need have only one claim directed to a covered business
method to be eligible for review. 77 Fed. Reg. at 48736 (Response to
Comment 8). We take claim 3 as representative.
6

CBM2016-00086
Patent 7,818,247 B2
Petitioner argues that the ’247 patent is a patent that claims a method
for performing data processing or other operations used in the practice,
administration, or management of a financial product or service. Pet. 15–18.
In particular, Petitioner argues that at least claim 3, which depends directly
from claim 1, expressly requires the performance of a financial transaction
by, for example, the recitation of receiving market data relating to the
commodity [being traded at an electronic exchange] (claim 1), and further
sending a trade order to the electronic exchange for the commodity. Pet. 17
(citing Ex. 1001, 34:31–37, 35:4–13 3). Petitioner asserts that the claims are
financial in nature, such as receiving market data relating to a commodity and
comprising a quantity of an order that is pending at a first price level,
displaying an indicator corresponding to a current highest bid price level or a
current lowest ask price level provided in the market data, sending the trade
order to the electronic exchange for the commodity, and displaying the price
level, etc. Id. at 16–17.
Notwithstanding Patent Owner’s arguments, which we address below,
we are persuaded by Petitioner’s showing, and find that the ’247 patent is
directed to a method for performing data processing or other operations used
in the practice, administration, or management of a financial service. Here,
Petitioner asserts, and we agree, that claim 3 is directed to a method for
displaying market information, which is a financial activity. Petitioner
further asserts, and we agree, that claim 3 also is directed to receiving trader
inputs for a trade and sending a trade order to an exchange, which is a

3

We understand this citation to be a typographical error, and instead should
7

CBM2016-00086
Patent 7,818,247 B2
financial activity.
Patent Owner argues that the Petition is silent as to whether the ’247
patent is directed to performing “data processing” or “other operations,” and
that Petitioner’s showing focuses solely on whether the ’247 patent is
financial in nature. PO Resp. 65–66. We disagree with Patent Owner.
Petitioner does address whether the patent is directed to data processing or
other operations. Pet. 17 (the ’247 patent claims expressly require “the
performance of a financial transaction.”) (emphasis added). The definition
for a covered business method patent is “a patent that claims a method or
corresponding apparatus for performing data processing or other operations
used in the practice, administration, or management of a financial product or
service . . . .” 37 C.F.R. § 42.301(a) (emphasis added). Petitioner relies on
the “other operations” part of the definition to make its case. This is
exemplified in showing that it is the method step of sending a trade order to
the electronic exchange that Petitioner relies on as showing “other
operations” which are used in the practice of a financial service (trading on
an exchange).
Patent Owner also argues that the ’247 claims are not directed to “data
processing.” PO Resp. 66–68. As explained immediately above, the
definition for a covered business method patent is not limited to a patent that
claims a method for performing data processing. In any event, we are not
persuaded by Patent Owner’s arguments, because such arguments are
premised on the assumption that “data processing” should be interpreted

be 35:4–17.
8

CBM2016-00086
Patent 7,818,247 B2
according to the definition of “data processing” found in the glossary for
class 705 of the United States Patent Classification System, which is a
“systematic operation on data in accordance with a set of rules which results
in a significant change in data.” Id. at 66 (citing Ex. 2121, 4). Patent Owner
does not sufficiently explain why this definition is controlling as opposed to
the plain meaning of data processing.
Claim 1 is directed to, for example, “displaying by a computer device
market data relating to the commodity.” The ’247 patent discloses
processing market information for display on a client terminal and for
sending an order to an exchange. See, e.g., Ex. 1001, 6:42–45 (“The trading
application, . . . , processes this information and maps it to positions in a
theoretical grid program or any other comparable mapping technique for
mapping data to a screen.”). For these reasons, we also determine that the
’247 patent claims a method for performing data processing.
In addition, Patent Owner argues that the legislative history of the AIA
confirms that the claimed invention is not a covered business method because
“the ’247 patent, which claims the structure, makeup, and functionality of a
GUI tool (i.e., not remotely close to a business method) is not that type of
patent.” PO Resp. 73–76 (citing Ex. 2126; Ex. 2127).
Although the legislative history includes certain statements that certain
novel software tools and graphical user interfaces that are used by the
electronic trading industry worker are not the target of § 18 of the AIA (see
Ex. 2126, S5428, S5433), the language of the AIA, as passed, does not
include an exemption for user interfaces for commodities trading from
covered business method patent review. Indeed, “the legislative debate
9

CBM2016-00086
Patent 7,818,247 B2
concerning the scope of a CBM review includes statements from more than a
single senator. It includes inconsistent views . . . .” Unwired Planet, 841
F.3d at 1381. For example, in contrast to the statements cited by Patent
Owner, the legislative history also indicates that “selling and trading financial
instruments and other securities” is intended to be within the scope of
covered business method patent review. See Ex. 2126, S5432 (statements of
Sen. Schumer); see also id. at S5436–37 (statements of Sen. Schumer
expressing concern about patents claiming “double click”), Ex. 2127, S1364
(Mar. 8, 2011) (statements of Sen. Schumer explaining that “method or
corresponding apparatus” encompasses “graphical user interface claims” and
“sets of instructions on storage media claims”). “[T]he legislative history
cannot supplant the statutory definition actually adopted. . . . The
authoritative statement of the Board’s authority to conduct a CBM review is
the text of the statute.” Unwired Planet, 841 F.3d at 1381. Each claimed
invention has to be evaluated individually to determine if it is eligible for a
CBM patent review. A determination of whether a patent is eligible for a
CBM patent review under the statute is made on a case-by-case basis. 37
C.F.R. § 42.301(b).
For the reasons stated above, we are persuaded that the ’247 patent
“claims a method or corresponding apparatus for performing data processing
or other operations used in the practice, administration, or management of a
financial product or service” and meets that requirement of § 18(d)(1) of the
AIA.

10

CBM2016-00086
Patent 7,818,247 B2
2.

Exclusion for Technological Inventions

Even if a patent includes claims that would otherwise be eligible for
treatment as a covered business method, review of the patent is precluded if
the claims cover only “technological invention[s],” as defined by 37 C.F.R.
§42.301(b). The definition of “covered business method patent” in
§ 18(d)(1) of the AIA does not include patents for “technological
inventions.” To determine whether a patent is for a technological invention,
we consider the following: “whether the claimed subject matter as a whole
[(1)] recites a technological feature that is novel and unobvious over the prior
art; and [(2)] solves a technical problem using a technical solution.” 37
C.F.R. § 42.301(b). Both prongs must be satisfied in order for the patent to
fall within the exception for a technological invention. See Versata, 793 F.3d
at 1326–27; Apple Inc. v. Ameranth, Inc., 842 F.3d 1229, 1240 (Fed. Cir.
2016). The following claim drafting techniques, for example, typically do
not render a patent a “technological invention”:
(a) Mere recitation of known technologies, such as computer
hardware, communication or computer networks, software,
memory, computer-readable storage medium, scanners, display
devices or databases, or specialized machines, such as an ATM or
point of sale device.
(b) Reciting the use of known prior art technology to accomplish a
process or method, even if that process or method is novel and
non-obvious.
(c) Combining prior art structures to achieve the normal, expected, or
predictable result of that combination.
Office Patent Trial Practice Guide, 77 Fed. Reg. 48,756, 48,763–64 (Aug.
11

CBM2016-00086
Patent 7,818,247 B2
14, 2012). The Federal Circuit has held that a claim does not include a
“technological feature” if its “elements are nothing more than general
computer system components used to carry out the claimed process.” Blue
Calypso, 815 F.3d at 1341; see also Versata, 793 F.3d at 1327 (“the presence
of a general purpose computer to facilitate operations through uninventive
steps does not change the fundamental character of an invention”).
Petitioner asserts that the ’247 patent claims fail to recite any
technological feature that is novel and unobvious over the prior art, and do
not solve a technical problem with a technical solution. Pet. 18–28.
Petitioner contends that the only arguably technical feature in the claims
(e.g., claim 1 and all claims depending therefrom) is a “computer device” that
performs standard computing functions such as “receiving,” “displaying,”
and “updating.” Id. at 20. Petitioner argues that such terms, however, are
merely generic technical terms referring to conventional technology that
cannot qualify as novel and unobvious technological features. Id. Petitioner
also argues that the ’247 patent itself acknowledges that “the trading tools
may be implemented on any existing or future terminal or device.” Id.
(quoting Ex. 1001, 5:20–21). Petitioner contends that the various
technologies mentioned in the ’247 patent (computer, terminal, mouse,
gateway server, workstation, router, etc.) all were standard, off-the-shelf
products commonly used at the time. Id. Petitioner argues that the alleged
novel feature—color-coding graphical areas based on market data—does not
solve a technical problem, but rather a business problem, and further, such
color-coding was not novel or non-obvious, but rather known in the art at the
time of the invention. Id. at 21–22 (citing Ex. 1009, 189; Ex. 1010, 3).
12

CBM2016-00086
Patent 7,818,247 B2
We agree with Petitioner that the claims are directed to wellunderstood, routine, and conventional steps of receiving market information,
color-coding and displaying such information to a trader, who uses the
information to facilitate trading a commodity. For example, the
“BACKGROUND OF THE INVENTION” section of the ’247 patent
explains that it was well known for an electronic exchange to connect to
participant computers, allowing traders to participate in the market, by using
software that creates specialized interactive trading screens in the traders’
desktops to facilitate trading a commodity. Ex. 1001, 1:60–67. There is no
indication in the ’247 patent that the inventors invented gathering market
information, displaying it to a trader, and using the information to facilitate
trading a commodity. The use of a computer to perform these functions also
was known in the art at the time of the invention, and the ’247 patent does
not claim any improvement of a computing device.
Petitioner argues that the claimed subject matter does not solve a
technical problem using a technical solution, because the problem is a
financial one and the solution is functional, such as rearranging and colorcoding available market data on a display. Pet. 22–23. We agree with
Petitioner that the problem noted in the Specification of the ’247 patent is not
a technical one. The ’247 patent Specification highlights the problem and
importance of reducing the time it takes to evaluate market data and enter an
order. Ex. 1001, 2:64–67. Informing a trader of certain stock market trends
or events is an activity that is financial in nature.
Patent Owner argues that the ’247 patent claims a technological GUI
tool that improves upon prior GUIs using a particular combination of GUI
13

CBM2016-00086
Patent 7,818,247 B2
features and functionality (the particular makeup, structure and features of a
GUI tool), and, thus, falls under the technological exception, because the
claims solve a technical problem. Id. at 69–70. Patent Owner, however,
does not tie its arguments to the actual claim language to explain which of the
steps of the broad method claims 1 or 3, for example, recite an improved
technological GUI tool or how the claimed steps solve a technical problem.
We do not find, for example, that either claim 1 or claim 3 recites an
improved technological GUI tool or solves a technical problem.
Patent Owner argues that Trading Technologies International, Inc., v.
CQG, Inc., 675 Fed. Appx. 1001 (Fed. Cir. 2017) (“CQG”) dictates that the
’247 patent claims cover technological inventions (PO Resp. at 71–73).
CQG involved U.S. Patent Nos. 6,772,132 and 6,677,340. The Federal
Circuit determined that the claims of those patents are patent eligible under
35 U.S.C. § 101. The claims before us, however, are much broader than the
claims involved in CQG. The Specification of the ’247 patent is different
from the specification of the patents involved in CQG. Thus, comparing the
claims of the patents involved in CQG is not particularly helpful here.
Moreover, the CQG decision relied upon a feature not required by claim 1 of
the ’247 patent— a static price axis. Although claim 1 of the ’247 patent
requires first and second geographical areas arranged in an axial direction,
the claim does not require an axis, let alone a static price axis.
For all of the foregoing reasons, the subject matter of the claims is not
a “technological invention” under 37 C.F.R. § 42.301(b), and the ’247 patent
is eligible for a covered business method patent review.
14

CBM2016-00086
Patent 7,818,247 B2
II. ANALYSIS
A. Claim Interpretation
In a covered business method patent review, claim terms in an
unexpired patent are given their broadest reasonable construction in light of
the specification of the patent in which they appear. 37 C.F.R. § 42.300(b).
Under the broadest reasonable construction standard, claim terms are given
their ordinary and customary meaning, as would be understood by one of
ordinary skill in the art in the context of the entire disclosure. In re
Translogic Tech., Inc., 504 F.3d 1249, 1257 (Fed. Cir. 2007).
For purposes of this decision, we need not interpret any limitations of
the claims expressly.
B. The Level of Ordinary Skill in the Art
Notwithstanding the parties’ submissions of the level of ordinary skill
in the art, we find that the level of ordinary skill in the art is reflected by the
prior art of record. See Okajima v. Bourdeau, 261 F.3d 1350, 1355 (Fed. Cir.
2001); In re GPAC Inc., 57 F.3d 1573, 1579 (Fed. Cir. 1995); In re Oelrich,
579 F.2d 86, 91 (CCPA 1978).
C. 35 U.S.C. § 101 Asserted Ground of Unpatentability
Petitioner contends that claims 1–21 of the ’247 patent are not patent
eligible under 35 U.S.C. § 101. Pet. 29–54. Patent Owner opposes. PO
Resp. 6–63.
Section 101 of Title 35, United States Code, provides:
Whoever invents or discovers any new and useful process,
machine, manufacture, or composition of matter, or any new and
15

CBM2016-00086
Patent 7,818,247 B2
useful improvement thereof, may obtain a patent therefor,
subject to the conditions and requirements of this title.
The Supreme Court recognizes three exceptions to these statutory
classes: laws of nature, natural phenomena, and abstract ideas. Alice Corp.
Pty. Ltd. v. CLS Bank Int’l, 134 S. Ct. 2347, 2354 (2014); Mayo
Collaborative Servs. v. Prometheus Labs., Inc., 132 S. Ct. 1289, 1293
(2012). Although an abstract idea by itself is not patentable, a practical
application of an abstract idea may be deserving of patent protection. Alice,
134 S. Ct. at 2355. We must “consider the elements of each claim both
individually and ‘as an ordered combination’ to determine whether the
additional elements ‘transform the nature of the claim’ into a patent-eligible
application.” Id. (citing Mayo, 132 S. Ct. at 1298, 1297). The claim must
contain elements or a combination of elements that are “‘sufficient to ensure
that the patent in practice amounts to significantly more than a patent upon
the [abstract idea] itself.’” Id. (citing Mayo, 132 S. Ct. at 1294).
1.

Abstract Idea

Petitioner argues that the claims encompass an abstract idea because
they are directed to a fundamental economic practice. Pet. 31–34. In
particular, Petitioner argues that the claims recite receiving market
information, color-coding graphical areas based on market information, and
then updating the display based on newly received market information.
Petitioner further asserts that the ’247 patent explains that display of trading
data was intended to assist a trader in digesting market data and to reduce the
time it takes to enter an order. Id. at 31 (citing Ex. 1001, 2:64–67). As such,
Petitioner contends, the claims are directed to the abstract, fundamental
16

CBM2016-00086
Patent 7,818,247 B2
economic practice of displaying financial information in a manner that makes
it easier to understand and thereby, facilitate trades on an exchange. Id. at
31. Petitioner further argues that the abstract idea is old, well-known, and
prevalent. Id. at 32–34 (citing Ex. 1003 ¶ 69; Ex. 1021; Ex. 1017, 12).
Additionally, Petitioner contends that the claims can be performed using pen
and paper, or using only human mental steps, further indicating that the
claims are directed to an abstract concept. Id. at 34–38 (citing Ex. 1003 ¶ 69;
Ex. 1017, 12).
“The ‘abstract idea’ step of the inquiry calls upon us to look at the
‘focus of the claimed advance over the prior art’ to determine if the claim’s
‘character as a whole’ is directed to excluded subject matter.” Affinity Labs
of Texas v. DirectTV, LLC, 838 F.3d 1253, 1257 (Fed. Cir. 2016) (quoting
Elec. Power Grp., LLC v. Alstom S.A., 830 F.3d 1350, 1353 (Fed. Cir.
2016)); see also Enfish, LLC v. Microsoft Corp., 822 F.3d 1327, 1335 (Fed.
Cir. 2016). There is no definitive rule to determine what constitutes an
“abstract idea.” Rather, the Federal Circuit has explained that “both [it] and
the Supreme Court have found it sufficient to compare claims at issue to
those claims already found to be directed to an abstract idea in previous
cases.” Enfish, 822 F.3d at 1334; see also Amdocs (Israel) Ltd. v. Openet
Telecom, Inc., 841 F.3d 1288, 1294 (Fed. Cir. 2016) (explaining that, in
determining whether claims are patent-eligible under § 101, “the decisional
mechanism courts now apply is to examine earlier cases in which a similar or
parallel descriptive nature can be seen—what prior cases were about, and
which way they were decided”).
17

CBM2016-00086
Patent 7,818,247 B2
Notwithstanding Patent Owner’s arguments, which we address below,
we determine that Petitioner has shown 4 that claim 1 is directed to the
abstract idea of receiving market information, color-coding graphical areas
based on market information, and then updating the display based on newly
received market information to assist a trader to make an order, which is a
fundamental economic practice.
Claim 1, the sole independent claim, recites in the preamble a method
for displaying market information corresponding to a commodity being
traded at an electronic exchange. The method steps include receiving market
data including a quantity of an order at a first price level, displaying a first
and second graphical area corresponding to a first and second price level in
an axial direction, color-coding the first and second graphical areas with a
first and second color respectively, and updating the first and second
graphical area such that the first graphical area is color-coded with the
second color and the second graphical area is color-coded with the first color.
We agree with Petitioner that claim 1 encompasses the abstract idea of
displaying financial information in a manner that makes it easier to
understand and facilitate trades on an exchange, steps that can be performed
using pen and paper, or even in a trader’s mind. Pet. 31–38 (citing
CyberSource Corp. v. Retail Decisions, 654 F.3d 1366, 1372 (Fed. Cir. 2011)
(unpatentable mental process performed with aid of pen and paper)); Ex.

4

As explained above, determining whether a claim is directed to an abstract
idea calls upon us to look at the focus of the claimed advance over the prior
art. In order to do so, we must make findings of fact as to the prior art at the
time of the invention. Those facts must be supported by a preponderance of
18

CBM2016-00086
Patent 7,818,247 B2
1003 ¶ 69; Ex. 1021; Ex. 1017, 12; Ex. 1001, 2:64–67. We further agree
with Petitioner that the ’247 patent claims simply provide a graphical
representation on a computer of what traders have done in their minds since
trading began. Pet. 37.
When we compare claim 1 at issue to those claims already found to be
directed to an abstract idea in previous cases, we are persuaded that claim 1 is
more similar to those claims found to encompass an abstract idea than those
determined not to encompass an abstract idea. Claim 1 is similar to the
claims in Electric Power, which did “not go beyond requiring the collection,
analysis, and display of available information in a particular field, stating
those functions in general terms, without limiting them to technical means for
performing the functions that are arguably an advance over conventional
computer and network technology.” Elec. Power Grp., LLC v. Alstom S.A.,
830 F.3d 1350, 1353 (Fed. Cir. 2016).
In comparison, claim 1 is unlike the claims at issue in DDR Holdings,
LLC v. Hotels.com, L.P., 773 F.3d 1245 (Fed. Cir. 2014) and Enfish. In
DDR Holdings, the court determined that the claims did not embody a
fundamental economic principle or a longstanding commercial practice. The
claims at issue in DDR Holdings were directed to retaining website visitors,
which the court determined was a problem “particular to the Internet.” DDR
Holdings, 773 F.3d at 1257. The court also determined that the invention
was “necessarily rooted in computer technology in order to overcome a
problem specifically arising in the realm of computer networks,” and that the

the evidence. 35 U.S.C. § 326(e).
19

CBM2016-00086
Patent 7,818,247 B2
claimed invention did not simply use computers to serve a conventional
business purpose. Id. In Enfish, the claim at issue was directed to a data
storage and retrieval system for a computer memory. Enfish, 822 F.3d at
1336–37. The court determined that the claims were directed to an
improvement in the functioning of a computer and were not simply adding
conventional computer components to well-known business practices. Id. at
1338. Here, claim 1 is directed to a fundamental economic principle or a
longstanding commercial practice and not directed to an improvement in the
functioning of the computer.
We have considered all of Patent Owner’s arguments regarding why
the claims are not directed to an abstract idea but are not persuaded by such
arguments. See, e.g., PO Resp. 13–39. Patent Owner argues that the claims
“set forth a GUI that is comprised of specific structure, makeup, and
functionality that provide a specific means or method (generally speaking,
providing an enhanced display that uses color-coding of graphical areas to
contrast price levels with and without pending orders that updates as the
market changes) for achieving a desired result.” Id. at 13–14. Patent Owner
argues that the claims are analogous to the claimed inventions in CQG,
McRO, Inc. v. Bandai Namco Games America Inc., 837 F.3d. 1299 (Fed. Cir.
2016) (“McRO”), and Enfish. Id. at 14–16. We disagree.
Claim 1 of the ’247 patent is unlike the claims at issue in McRO. In
McRO, the court held that claims that recited “a specific asserted
improvement in computer animation” were not directed to an unpatentable
abstract idea because they go “beyond merely organizing existing
information into a new form or carrying out a fundamental economic
20

CBM2016-00086
Patent 7,818,247 B2
practice.” McRO, 837 F.3d at 135. Here, the claims merely organize
existing market information so that it is displayed in a color-coded manner,
which is not a specific improvement to the functioning of a computer.
With respect to CQG, and as explained above, the claims before us are
much broader than the claims involved there. The Specification of the ’247
patent is different from the patents involved in CQG. Thus, comparing the
claims of the patents involved in CQG is not particularly helpful here.
Moreover, the CQG decision relied upon a feature not required by claim 1 of
the ’247 patent— a static price axis. Although claim 1 of the ’247 patent
requires first and second geographical areas arranged in an axial direction,
the claim does not require an axis, let alone a static price axis. Nor are we
persuaded that the claims are analogous to those in Enfish for reasons already
discussed.
Patent Owner also argues that Petitioner’s arguments overgeneralize
the claimed invention and ignore the claim elements that make up the
specifically claimed GUI. PO Resp. 16–22, 33–34. We disagree that
Petitioner has overgeneralized the claimed invention or ignored the claim
elements. Petitioner’s arguments are commensurate in scope with the
breadth of the claims. Moreover, Patent Owner has not shown sufficiently
how any of the claims recite the structure, makeup, and functionality of a
GUI tool. Nor are we persuaded by Patent Owner’s arguments that Petitioner
has not shown that the claimed invention preempts the broad concept of
graphing (or displaying) trading data or generating a trade order. Id. at 22–
25. In particular, Patent Owner argues that while it is understood that preemption may not be the sole test, it is a guide for understanding whether the
21

CBM2016-00086
Patent 7,818,247 B2
claims are directed to the purported abstract idea. Id. Even Patent Owner,
recognizes (id. at 23), however, that preemption is not the sole test for
determining patent eligibility. In McRO our reviewing court explained that
in considering preemption we should consider whether the claims “focus on a
specific means or method that improves the relevant technology or are
instead directed to a result or effect that itself is the abstract idea and merely
invoke generic processes and machinery.” McRO, 837 F.3d at 1314 (citing
Enfish, 822 F.3d at 1335). Here, we determine that claim 1, for example, is
directed to an end result of color-coding market data that invokes generic
processes.
Patent Owner argues that the claimed invention provides a solution
(and is not directed to a fundamental economic practice) by reciting a specific
implementation of an enhanced display that uses color-coding of graphical
areas to contrast price levels with and without pending orders that updates as
the market changes, and as such, differentiates the claimed GUI tool from
other GUI tools for displaying financial information in a manner that makes
it easier to understand and facilitate trading. PO Resp. 25–27, 33–34, 38–39.
Patent Owner also argues that GUIs are technology (id. at 28–30), the claims
of the ’247 patent recite an improvement to existing GUIs (id. at 30–32), and
GUI’s are akin to mechanical devices (id. at 32–33). We have considered all
of these arguments, but are not persuaded by such arguments for reasons
already provided.
In addition, and to the extent that Patent Owner asserts that claims that
require a GUI are automatically patent eligible, that assertion is not
commensurate with our reviewing court’s holdings on the issue of patent
22

CBM2016-00086
Patent 7,818,247 B2
eligibility. For example, the claim at issue in Affinity Labs recited an
application that enabled a cellular telephone to present a GUI displaying a list
of media sources that included selectable items for selecting a regional
broadcasting channel. Affinity, 838 F.3d at 1255–56. The claim also recited
that the cellular telephone was enabled to transmit a request for the selected
regional broadcasting channel. Id. at 1256. In Ameranth, the claim at issue
recited a GUI that displayed menu items in a specific arrangement, a
hierarchical tree format. Menu items were selected to generate a second
menu from a first menu. Apple, 842 F.3d at 1234. In both Affinity Labs and
Ameranth, the court determined that the claims were not directed to a
particular way of programming or designing the software, but instead merely
claim the resulting systems and determined that the claims are not directed to
a specific improvement in the way computers operate. Affinity Labs, 838
F.3d at 1260–61; Ameranth, 842 F.3d at 1241. The same is true here in that
the claims are not directed to any particular way of programming or
designing software, but merely claim the resulting system and not any
specific improvement in the way a computer operates.
Patent Owner also argues that the steps recited in the claims (including
dependent claims 3–8) cannot be performed with pen and paper or in the
human mind. PO Resp. 35–38. We disagree for the reasons stated above,
namely that we agree with Petitioner that the ’247 patent claims simply
provide a graphical representation on a computer of what traders have done
in their minds since trading began. Pet. 31–38 (citing CyberSource Corp. v.
Retail Decisions, 654 F.3d 1366, 1372 (Fed. Cir. 2011) (unpatentable mental
23

CBM2016-00086
Patent 7,818,247 B2
process performed with aid of pen and paper); Ex. 1003 ¶ 69; Ex. 1021; Ex.
1017, 12; Ex. 1001, 2:64–67.
2.

Inventive Concept

To be patent eligible, a claim to an otherwise abstract idea must recite
additional elements that constitute an inventive concept. Alice, 134 S. Ct. at
2357. One looks to “[t]he elements of each claim both individually and ‘as
an ordered combination’ to determine whether the additional elements
‘transform the nature of the claim’ into a patent-eligible application.” Mayo,
132 S. Ct. at 1297–98. The additional elements must be more than “wellunderstood, routine, conventional, activity.” Id. at 1298.
Petitioner argues that the claims do not recite an inventive concept.
Pet. 39–49. Petitioner argues that the claims recite insignificant and
conventional extra-solution activities of color-coding, arranging graphical
areas in an axial direction, determining whether or not an order is pending,
and updating the display upon receiving new market data using conventional,
well-known components (a computer device and input device). Id.
Petitioner also argues that the claims are not rooted in computer technology.
Id. at 49–53.
Notwithstanding Patent Owner’s arguments, which we address below,
we are persuaded that Petitioner has shown that none of the additional claim
elements in claim 1 or dependent claims 2–21 transforms the nature of the
claims into a patent-eligible subject matter. Claim 1 recites a method for
displaying market information corresponding to a commodity being traded at
an electronic exchange. The method steps include receiving market data
including a quantity of an order at a first price level, displaying a first and
24

CBM2016-00086
Patent 7,818,247 B2
second graphical area corresponding to a first and second price level in an
axial direction, color-coding the first and second graphical areas with a first
and second color respectively, and updating the first and second graphical
area such that the first graphical area is color-coded with the second color
and the second graphical area is color-coded with the first color. The
Specification of the ’247 patent does not disclose a particular way for colorcoding, arranging graphical areas in an axial direction, determining whether
or not an order is pending, and updating the display upon receiving new
market data. The Specification of the ’247 patent does not provide or
disclose any particular algorithms or rules for performing the recited
functions of claim 1. All of the method steps of claim 1 are performed on a
generic computer using known algorithms, as the ’247 patent itself
acknowledges that “the trading tools may be implemented on any existing or
future terminal or device” and that the “physical mapping of such
information to a screen grid, . . . . [can] be done by any technique known to
those skilled in the art.” Ex. 1001, 5:20–21, 6:46–49. Based on the record
before us, the functional steps of color-coding graphical areas based on
market data, and arranging graphical areas corresponding to price levels,
were not novel or non-obvious, but rather known in the art at the time of the
invention. Pet. 40–44. We also agree with Petitioner that none of claims 2–
21 transforms the nature of the claims into a patent-eligible application. Pet.
44–49. We agree that these claims recite well-understood, routine,
conventional extra-solution activity that is not related to an inventive
concept. Mayo, 132 S. Ct. at 1298.
25

CBM2016-00086
Patent 7,818,247 B2
Moreover, and to the extent that the claims require a GUI, a mere
recitation of a GUI does not make the claim patent eligible. See Affinity
Labs, 838 F.3d at 1257–58, Ameranth, 842 F.3d at 1236–1242, Internet
Patent Corp., 790 F.3d at 1348–49. A recitation of a generic GUI merely
limits the use of the abstract idea to a particular technological environment.
“Limiting the field of use of the abstract idea to a particular existing
technological environment does not render any claims less abstract.” Affinity
Labs, 838 F.3d at 1258 (citing Alice, 134 St. Ct. at 2358; Mayo, 132 S. Ct. at
1294).
Patent Owner argues that the claims pass part two of Alice because
they recite an inventive concept. PO Resp. 39–42. In addition, Patent Owner
argues that we must consider the claims in light of the specification. Patent
Owner, however, does not explain sufficiently what about the claims, or even
the specification, qualifies as an inventive concept. For example, Patent
Owner argues that the claims recite a particular GUI tool that provides an
enhanced display that uses color-coding of graphical areas to contrast price
levels with and without pending orders that updates as the market changes,
and that the claims recite “structure of a specific GUI that functions
differently from prior art GUIs to solve GUI-centric problems.” Id. at 41
(emphasis omitted). Claim 1, for example, does not recite a GUI tool, nor
does Patent Owner explain sufficiently what it is about method claim 1 that
requires a GUI tool or makes it a GUI tool, or how the GUI tool provides an
enhanced display. Patent Owner fails to focus on the claims before us or
explain with respect to the actual elements of these claims why such elements
constitute an inventive concept. We are not persuaded by Patent Owner’s
26

CBM2016-00086
Patent 7,818,247 B2
arguments.
The individual elements of the claims do not transform the nature of
the claims into a patent-eligible application. They do not add significantly
more to the abstract idea or fundamental economic practice. Contrary to
Patent Owner’s argument, the claims simply recite the use of a generic
computer with routine and conventional functions. Further, considering all
of the elements as an ordered combination, we determine that the combined
elements also do not transform the nature of the claims into a patent-eligible
application.
Lastly, we have considered all of Patent Owner’s arguments regarding
case law and the claims and issues in those cases, along with how Petitioner
allegedly misconstrues the claims and law to assert that the claims are not
patent eligible. PO Resp. 42–63. We are aware of the cited cases and have
discussed relevant case law throughout this opinion. We reiterate that we
find the ’247 claims to be similar to the claims in Electric Power and
disagree with Patent Owner’s argument that unlike the claims in Electric
Power, “the claims of the ’247 patent recite the process of constructing the
interface rather than simply claiming a generic interface for displaying the
results of an abstract process.” PO Resp. 50. Again, Patent Owner does not
explain sufficiently what it is about the claims that recites the alleged
patentable interface. For example, claim 1 recites displaying graphical areas
corresponding to price levels and color coding, and updating that color
coding, of the graphical areas. Such claim language appears to us to be as
generic as what was recited in claim 12 in the Electric Power case of
displaying event analysis results in visuals, tables, charts, or combinations of
27

CBM2016-00086
Patent 7,818,247 B2
these interfaces, and displaying concurrent visualization of measurements
from data streams. Patent Owner makes no meaningful distinction between
the claims in Electric Power and the ’247 claims. We also disagree that
Petitioner misconstrued the claims and law as provided above in this
decision.
We have considered Petitioner’s showing and all of Patent Owner’s
arguments, and determine, for all of the above reasons, Petitioner has shown
sufficiently that claims 1–21 of the ’247 patent are not directed to patent
eligible subject matter under 35 U.S.C. § 101.
III. CONCLUSION
For the foregoing reasons, we determine that Petitioner has shown, by
a preponderance of the evidence, that claims 1–21 of the ’247 patent are
patent-ineligible under 35 U.S.C. § 101.
IV. ORDER
It is:
ORDERED that claims 1–21 of the ’247 patent are patent-ineligible
under 35 U.S.C. § 101; and
FURTHER ORDERED that, because this is a Final Written Decision,
parties to the proceeding seeking judicial review of the decision must comply
with the notice and service requirements of 37 C.F.R. § 90.2.

28

CBM2016-00086
Patent 7,818,247 B2
PETITIONER:
John Phillips
Kevin Su
Adam Kessel
FISH & RICHARDSON P.C.
CBM41919-0018CP1@fr.com
PTABInbound@fr.com
kessel@fr.com
PATENT OWNER:
Leif Sigmond
Michael Gannon
Jennifer Kurcz
BAKER & HOSTETLER LLP
lsigmond@bakerlaw.com
mgannon@bakerlaw.com
jkurcz@bakerlaw.com
Steven Borsand
Jay Knobloch
TRADING TECHNOLOGIES INTERNATIONAL, INC.
steve.borsand@tradingtechnologies.com
jay.knobloch@tradingtechnologies.com

29

